<html>
<title> - PROTECTING CONSUMERS' PHONE RECORDS</title>
<body><pre>[Senate Hearing 109-452]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 109-452
 
                  PROTECTING CONSUMERS' PHONE RECORDS

=======================================================================

                                HEARING

                               before the

    SUBCOMMITTEE ON CONSUMER AFFAIRS, PRODUCT SAFETY, AND INSURANCE

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                            FEBRUARY 8, 2006

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation




                                 _____

                 U.S. GOVERNMENT PRINTING OFFICE

27-705                 WASHINGTON : 2006
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government 
Printing  Office Internet: bookstore.gpo.gov  Phone: toll free 
(866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2250 Mail:
Stop SSOP, Washington, DC 20402-0001




       0SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                     TED STEVENS, Alaska, Chairman
JOHN McCAIN, Arizona                 DANIEL K. INOUYE, Hawaii, Co-
CONRAD BURNS, Montana                    Chairman
TRENT LOTT, Mississippi              JOHN D. ROCKEFELLER IV, West 
KAY BAILEY HUTCHISON, Texas              Virginia
OLYMPIA J. SNOWE, Maine              JOHN F. KERRY, Massachusetts
GORDON H. SMITH, Oregon              BYRON L. DORGAN, North Dakota
JOHN ENSIGN, Nevada                  BARBARA BOXER, California
GEORGE ALLEN, Virginia               BILL NELSON, Florida
JOHN E. SUNUNU, New Hampshire        MARIA CANTWELL, Washington
JIM DeMINT, South Carolina           FRANK R. LAUTENBERG, New Jersey
DAVID VITTER, Louisiana              E. BENJAMIN NELSON, Nebraska
                                     MARK PRYOR, Arkansas
             Lisa J. Sutherland, Republican Staff Director
        Christine Drager Kurth, Republican Deputy Staff Director
             Kenneth R. Nahigian, Republican Chief Counsel
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
   Samuel E. Whitehorn, Democratic Deputy Staff Director and General 
                                Counsel
             Lila Harper Helms, Democratic Policy Director
                                 ------                                

    SUBCOMMITTEE ON CONSUMER AFFAIRS, PRODUCT SAFETY, AND INSURANCE

                    GEORGE ALLEN, Virginia, Chairman
TED STEVENS, Alaska                  MARK PRYOR, Arkansas, Ranking
CONRAD BURNS, Montana                DANIEL K. INOUYE, Hawaii
JIM DeMINT, South Carolina           BARBARA BOXER, California
DAVID VITTER, Louisiana


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on February 8, 2006.................................     1
Statement of Senator Allen.......................................     1
Statement of Senator Boxer.......................................     7
    Prepared statement...........................................     8
Statement of Senator Burns.......................................     5
    Prepared statement...........................................     6
Statement of Senator Dorgan......................................    55
Statement of Senator Inouye......................................     4
    Prepared statement...........................................     4
Statement of Senator Bill Nelson.................................    57
Statement of Senator Pryor.......................................     2
Statement of Senator Smith.......................................     9
Statement of Senator Stevens.....................................     3
    Prepared statement...........................................     4
Statement of Senator Vitter......................................     5

                               Witnesses

Douglas, Robert, Chief Executive Officer, PrivacyToday.com.......    31
    Prepared statement...........................................    34
Largent, Hon. Steve, President/Chief Executive Officer, Cellular 
  Telecommunications and Internet Association (CTIA).............    22
    Prepared statement...........................................    24
Monteith, Kris Anne, Chief, Enforcement Bureau, Federal 
  Communications Commission......................................    12
    Prepared statement...........................................    14
Parnes, Lydia B., Director, Bureau of Consumer Protection, 
  Federal Trade Commission.......................................    17
    Prepared statement...........................................    19
Rotenberg, Marc, Executive Director, Electronic Privacy 
  Information Center.............................................    27
    Prepared statement...........................................    29
Schumer, Hon. Charles, U.S. Senator from New York................     9
Southworth, Cindy, Director, Technology and the Safety Net 
  Project, National Network to End Domestic Violence.............    46
    Prepared statement...........................................    48

                                Appendix

Response to written questions submitted by Hon. Daniel K. Inouye 
  to:
    Kris Anne Monteith...........................................    67
    Lydia B. Parnes..............................................    67
    Marc Rotenberg...............................................    69
    Cindy Southworth.............................................    71


                  PROTECTING CONSUMERS' PHONE RECORDS

                              ----------                              


                      WEDNESDAY, FEBRUARY 8, 2006

                               U.S. Senate,
 Subcommittee on Consumer Affairs, Product Safety, 
                                     and Insurance,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:30 p.m. in 
room SD-562, Dirksen Senate Office Building, Hon. George Allen, 

Chairman of the Subcommittee, presiding.

            OPENING STATEMENT OF HON. GEORGE ALLEN, 
                   U.S. SENATOR FROM VIRGINIA

    Senator Allen. Good afternoon. I call this hearing of the 
Senate Subcommittee on Consumer Affairs, Product Safety, and 
Insurance to order. This hearing is going to examine ways to 
protect consumers' phone records from being fraudulently 
obtained and sold into the public domain. I am pleased to see 
the Ranking Member of the Subcommittee, Senator Pryor, here 
with us, as well as the Chairman of the Full Committee, Senator 
Stevens, and the Ranking Member, Senator Inouye. Senator Vitter 
and Senator Burns and other Senators will be appearing.
    This is a very serious topic that is disturbing to all of 
us, that people can fraudulently obtain someone's phone records 
surreptitiously, without their knowledge, and invade their 
privacy. We appreciate all the witnesses who will be here 
today. We are going to, instead of two panels, have all the 
witnesses in one panel, all six, after we hear from Senator 
Schumer. We appreciate all of you being here. We look forward 
to your testimony.
    The impetus, of course, of this hearing today is the 
deceptive practice of obtaining and selling confidential phone 
records without an owner's consent. I know I probably speak for 
all Americans, and Members of the Subcommittee, when I say that 
it was important to take action as soon as we heard that these 
unscrupulous marketers were obtaining and selling confidential 
personal phone billing records. This is fraudulent and criminal 
activity that must be prosecuted and must be stopped to protect 
innocent people.
    Especially of concern to me are the rights of some women, 
who have had their privacy violated by stalkers who use the 
information to get details of their personal lives--also 
harming law enforcement investigations. This fraudulent 
activity can be every bit as harmful, and in some cases even 
more disconcerting, than when a third party uses false 
pretenses to obtain an innocent person's confidential financial 
records.
    In some cases, even physical harm can result from one's 
private phone records becoming a public record. We have a 
witness today who will explain how domestic violence can result 
if a woman's call records are divulged to an abusive spouse or 
an ex-boyfriend. We will also hear how law enforcement can be 
hindered if records of an undercover agent are suddenly made 
available to a criminal party.
    We all feel that we cannot allow these unscrupulous, 
deceptive, and fraudulent practices to continue. That is why 
Chairman Stevens and I, along with the Ranking Member, Senator 
Pryor, decided that we should hold a hearing, listen, learn, 
and then craft legislation, effective legislation--do not just 
pass a bill, but let us make sure this is effective 
legislation--to protect innocent individuals from becoming prey 
to conniving people willing to make a quick buck by violating 
someone's privacy and security.
    Senator Stevens and I and others are working on legislation 
to address this issue, but it is important that we listen. We 
will hear from our witnesses today regarding a prudent, 
balanced perspective on how to ensure that customer phone 
records are protected. We hope that our witnesses will offer to 
us possible solutions as well. We look forward to hearing from 
each of our witnesses on a commonsense and properly focused 
solution to avoid any unintended consequences. In fact, any 
Federal involvement in addressing deceptive business practices 
can harm, obviously, consumers; it does need to be reasonable; 
and, it needs to be effective.
    With that, I would now like to turn it over to Senator 
Pryor if he would like to make an opening statement, and then 
opening statements from--while he was not the next one here, I 
will defer to the Chairman and Ranking Member, and then in the 
order in which Senators arrived. Senator Pryor.

                 STATEMENT OF HON. MARK PRYOR, 
                   U.S. SENATOR FROM ARKANSAS

    Senator Pryor. Thank you, Mr. Chairman.
    The Internet has provided a whole new world of information 
services and a vigorous platform to conduct commerce. 
Unfortunately, the success of the Internet has also created 
problems regarding consumer privacy, which this Committee has 
wrestled with for the past several years. There has been spam, 
spyware, identity theft, and several other issues we have 
tackled with varying degrees of success.
    Congress has been addressing issues of privacy in a 
piecemeal fashion and this approach, quite frankly, places us 
at a disadvantage. There is always a new threat to our privacy 
because of the very nature of changing technology and Congress 
has to address each threat separately.
    Today we face the threat of data brokers selling cell phone 
records with $100 in their pocket. Phone records make the owner 
of that phone number especially vulnerable. These records show 
every incoming and outgoing number, the duration of the call, 
and even the location of the numbers called. GPS systems are on 
all cell phones now, making it possible for sophisticated 
parties to track the person holding the cell phone.
    I reviewed the testimony and our witnesses note that some 
data brokers have been selling cell phone records for years and 
have likely been obtaining these records by legally 
questionable practices. There can be only a few ways to get a 
cell phone number and record for virtually anyone in the United 
States just within a few hours. The sellers either get the 
information by fraudulent misrepresentations, or pretexting, 
hacking into a phone company database, or bribing a phone 
company employee to steal this information.
    However this information gets into the hands of data 
brokers, it has to stop. The consequences of this type of 
information being available to anyone are too severe. As the 
Chairman mentioned a moment ago, murderers have been aided by 
the information sold by these data brokers and countless others 
have been endangered.
    The Federal Trade Commission and the Federal Communications 
Commission have regulatory responsibility in protecting the 
privacy of consumers. The FTC has jurisdiction over the data 
brokers and other sellers of this type of information via its 
authority from section 5 of the FTC Act. The FCC has 
jurisdiction over the telecommunications company via section 
222 of the 1996 Telecommunications Act.
    We need to make sure that both agencies have the statutory 
authority they need to quickly and effectively end this 
activity. Most importantly, we must make sure that both 
agencies use their authority aggressively and that they are 
working together to vigorously protect and prosecute these 
cases. I look forward to hearing from today's witnesses and 
moving quickly toward a solution that will protect all of 
America's consumers.
    I would also like to welcome Senator Schumer, wherever he 
may be, because he has done some work on this issue and he has 
really shown some leadership here.
    Mr. Chairman.
    Senator Allen. Thank you, Senator.
    Now we would like to hear from the Chairman of the Full 
Committee, Senator Stevens, who has been working and trying to 
address this matter. We thank you, Mr. Chairman, for allowing 
the Subcommittee to hold this hearing, and I think it will 
allow us to craft workable and effective legislation.

                STATEMENT OF HON. TED STEVENS, 
                    U.S. SENATOR FROM ALASKA

    The Chairman. Thank you, Mr. Chairman. I would ask that you 
put my prepared remarks in the record.
    Senator Allen. Without objection.
    The Chairman. I am here despite another conflict because I 
want to listen to the FCC. I am particularly interested in 
knowing why the FCC regulation requires notice to a party 
before moving to an enforcement action. In effect, they give 
notice to the people that are doing wrong that they are about 
ready to look into whether they are doing wrong. So they just 
disappear and we never have a real enforcement. So I hope that 
FCC can address that.
    But please put my statement in the record. Thank you.
    Senator Allen. Without objection, the full statement will 
be put in the record. If opening statements could be limited to 
5 minutes, and full statements will be made part of the record.
    [The prepared statement of Senator Stevens follows:]

    Prepared Statement of Hon. Ted Stevens, U.S. Senator from Alaska
    The recent reports detailing the ease with which third parties can 
access private phone records are alarming. These reports have shown us 
that it is important that Congress ensure that Americans' phone records 
are protected and that there will be severe penalties for invading 
phone record privacy.
    I have been working on crafting a legislative solution to address 
this growing problem and assess the proper role of government. As we 
move forward, I look forward to continuing to work with the industry, 
the relevant Federal agencies, and other Members of Congress to ensure 
that all phone records are kept safe.
    This hearing is an important step as this Committee addresses this 
issue. But we are not alone in this fight, and I look forward to 
hearing the thoughts of the Federal agencies with oversight, the 
industry, and concerned public interest groups.

    Senator Allen. Now we would like to hear from the Ranking 
Member of the Full Committee, Senator Inouye.

              STATEMENT OF HON. DANIEL K. INOUYE, 
                    U.S. SENATOR FROM HAWAII

    Senator Inouye. Mr. Chairman, I thank you very much and 
commend you for convening this hearing. I wish to associate 
myself with your remarks, with that of the Chairman Stevens, 
and Mr. Pryor as I see what is pending before us, the 
horrendous possibility of invasion of privacy. I have got a 
cell phone and all of us have cell phones and just the thought 
that someone is passing information to others just horrifies 
me.
    Thank you very much, sir. May I have my statement put in 
the record.
    Senator Allen. Your full statement will be made part of the 
record.
    [The prepared statement of Senator Inouye follows:]

 Prepared Statement of Hon. Daniel K. Inouye, U.S. Senator from Hawaii
    It was troubling to learn that unscrupulous data brokers have made 
a business of selling consumers' personal phone records. Equally 
disturbing is the fact that the Federal Trade Commission (FTC) received 
numerous complaints about these egregious practices and refused to act 
on them.
    While many recent identity theft scams have employed tech-savvy 
tactics of hackers, the sale of consumer phone records is simply the 
work of swindlers. It is well within the FTC's current authority to 
address this problem. I understand the FTC found numerous instances of 
cell phone record sales in other investigations related to financial 
services and chose to turn a blind eye.
    Unfortunately, the FTC's inaction resulted from a lack of 
attention, not a lack of authority. Nonetheless, if further clarity and 
additional authority are necessary, this Committee should not hesitate 
to provide it.
    The Federal Communications Commission (FCC) has a key role to play 
as well. The FCC must ensure that telecommunications providers are 
doing all that is necessary to protect the confidentiality of consumers 
phone records, or what is also known as customer proprietary network 
information (CPNI). The FCC appears to be taking this matter seriously.
    Next week, the FCC will consider ways to strengthen CPNI safeguards 
through rulemaking. In addition, FCC Chairman Kevin Martin has 
recommended specific Congressional action to address this problem, 
including enhancing the FCC's enforcement authority.
    We also need to keep in mind emerging services, such as Voice over 
Internet Protocol (VoIP). They, too, must be subject to the same 
privacy requirements. Consumers have every right to expect that their 
personal data will be protected regardless of the communications 
service they choose to utilize.
    It is my hope that the recent press attention to this matter has 
served as a wake up call, and that, in the interest of consumer privacy 
and public safety, the FTC and FCC do everything they can to eliminate 
these egregious practices as quickly as possible. I can assure both 
agencies that this Committee will be a willing and cooperative partner 
in their efforts.

    Senator Allen. Now we would like to hear from Senator 
Vitter of Louisiana. Welcome, Senator.

                STATEMENT OF HON. DAVID VITTER, 
                  U.S. SENATOR FROM LOUISIANA

    Senator Vitter. Thank you, Mr. Chairman, and thank you for 
holding the hearing today. It is clearly a very important 
issue. I join everybody in expressing my concern and outrage 
about data broker companies with fraudulent websites selling 
these sorts of records. It is clearly a part of the growing 
family of issues like identity theft that we need to get ahead 
of the curve on in this Committee, and this Subcommittee is a 
big part of that.
    I understand, as others have said, that there are many 
theories about how these data brokers get this information. It 
could come from inside the wireless companies by a corrupt 
employee, by hacking into the system, by pretexting. However it 
is obtained, we need to do what we can to protect consumers.
    My first thought is that all of these practices appear to 
be criminal activities already, but because there are loopholes 
in the current law and probably even bigger loopholes in the 
enforcement, we need to do more. My hope is we will follow up 
on this hearing and move legislation that removes all doubt 
and, even more importantly, gives relevant agencies the powers 
they need to go after this fraud. I believe we should focus on 
fraudulent actors and make sure this is stopped.
    Again, Mr. Chairman, I want to thank you for calling this 
hearing. I look forward to working with you and the rest of the 
Subcommittee.
    Senator Allen. Thank you, Senator Vitter.
    Now we would like Senator Burns, if you would have any 
opening remarks and wisdom.

                STATEMENT OF HON. CONRAD BURNS, 
                   U.S. SENATOR FROM MONTANA

    Senator Burns. Thank you, Mr. Chairman and Ranking Member 
Pryor. I appreciate that, and the Members of this Committee. I 
would ask unanimous consent that my statement be made part of 
the record today.
    Senator Allen. Without objection.
    But I just want to bring up--and I am glad to see Senator 
Schumer here. We are on a bill right now. We are crafting a 
bill. It is the Consumer Telephone Records Protection Act of 
2006. We look forward to working with Members on this 
Committee, knowing that you are interested in this, and 
whenever you get your legislation put back together we can 
marry up with those two pieces and I think could come up with a 
pretty good bill.
    I was appalled when I learned of this, that anybody could 
call up a telephone company and, especially with a stolen 
Social Security number and your date of birth, you can obtain 
the records, and those records were being harvested. Then you 
have got people that put up a website that says, we will sell 
you that number for 100 bucks or so, whatever. I thought--I 
just could not believe it.
    I want to applaud first Chairman Martin of the FCC for the 
action that he has taken pursuant to the statutory authority to 
protect consumers' personal telephone records. If you take 
right out of section 222 of the Communications Act and the 
Commission's rule will result, I think, in pretty strong 
enforcement by the FCC. The FTC also is involved in this.
    But we have got to make this fine on those who would 
participate in such an action such as this a pretty hefty fine 
and with some little jail time behind it, because basically you 
are robbing a person's private records. It can be used for a 
multitude of things. We all have cell phones.
    Now, I would say, today is the tenth anniversary of the 
telecom bill of 1996, and I can remember working on that bill a 
long time and it took a long time, I think anyways, from 1991 
to 1996, to get that changed. We were trying to deal with 
1990s' technology with a 1935 law. Now we have got to go back, 
because technology moves so fast, and look at that Act again. 
How much did we miss the number of prospective cell phone users 
by the year 2000? We only missed it 300 percent. I do not think 
you want me coming out and estimating what you can produce on 
your ranch under those kind of circumstances.
    But this is appalling and we must take action. It has to be 
now and it has to be stringent. There can be no loopholes in it 
like that exist today in the law.
    I thank the Chairman for having these hearings.
    [The prepared statement of Senator Burns follows:]

   Prepared Statement of Hon. Conrad Burns, U.S. Senator from Montana
    Good afternoon Chairman Allen, Ranking Member Pryor, Members of the 
Committee, and distinguished panelists. Thank you for holding this 
important hearing on protecting consumers' phone records. First, I am 
very disturbed about the disclosure and sale of personal telephone 
records through data brokers pretexting or by data brokers obtaining 
access to consumers' accounts online by overcoming carriers' data 
security protocols.
    As an original cosponsor of the Consumer Telephone Records 
Protection Act of 2006, I'm proud to say my bill will close existing 
loopholes and will make you pay a hefty price in both money and jail 
time if you access someone's private records without their permission. 
Importantly, this bill criminalizes the act of pretexting, adding a new 
violation for fraud and related activity connected with obtaining 
confidential phone records from a company that provides telephone 
service. Specifically, the Consumer Telephone Records Protection Act of 
2006 proposes that for each occurrence the illegal actor can be fined 
up to $250,000 and/or imprisoned for up to 5 years. These penalties can 
be doubled for aggravated cases. The criminal violations in this bill, 
along with action taken by the FCC and further Congressional Action, if 
needed, will restore consumers' confidence that their personal 
information is safe when they sign up for phone service with a 
telecommunications company.
    Next, I want to applaud Chairman Martin for the action that the FCC 
has undertaken pursuant to its statutory authority to protect 
consumers' personal telephone records. Chairman Martin recently 
appeared before the House of Representatives and testified that any 
noncompliance by telecommunications carriers with the customer 
proprietary network information (CPNI) obligations under section 222 of 
the Communications Act and the Commission's rules will result in strong 
enforcement action by the FCC. Section 222 of the Communications Act 
was written to protect consumers' privacy. Specifically, it provides 
that carriers must protect the confidentiality of customer proprietary 
network information. CPNI includes, among other things, customers' 
calling activities and history, and billing records.
    Under FTC Law, it is already considered an illegal deceptive 
business practice to use false pretenses to gather a consumer's 
financial information. The FTC has the power to pursue actions against 
phone record pretexters based on its authority to prevent deceptive and 
unfair business practices, but without this statutory authority spelled 
out in a statute, a question of statutory interpretation regarding FTC 
authority could be litigated. Furthermore, even if the FTC's authority 
to pursue actions against pretexters of phone records is assumed, the 
FTC is not authorized to immediately impose civil penalties against 
third party data brokers.
    Unfortunately, in today's information age, there are those who are 
constantly seeking new ways to navigate the gray areas of our laws in 
hopes of finding something they can use to their advantage. My bill 
will shine a bright light on this particular gray area, wiping it out, 
and protect Americans from these rats who invade someone's privacy.
    Thank you all for your time and concern and I look forward to 
working with the Members of this Committee, panel and other interested 
parties as this discussion moves forward.

    Senator Allen. Thank you, Senator Burns.
    Senator Boxer.

               STATEMENT OF HON. BARBARA BOXER, 
                  U.S. SENATOR FROM CALIFORNIA

    Senator Boxer. Thank you so much, Mr. Chairman. I really 
appreciate your having this hearing. The battle to keep 
confidential consumer information is never-ending. It seems 
like every month we hear of a new way that shady companies are 
exploiting the information of consumers for a profit.
    The latest example is the sale of phone records by online 
data brokers. We have all read that sites like datatraceusa.com 
will sell a person's phone records to anyone willing to spend 
$100. The time, duration, and number of every call a person has 
made from their phone is being made available to the public. 
Such information is being purchased by the likes of abusive 
spouses, leading to more domestic violence, and stalkers, who 
are able to infiltrate the lives of their victims.
    It has gotten to the point that the Chicago police and the 
FBI are warning their undercover agents that their phone 
records may be compromised, which could lead to their cover 
being blown. Most of the online data brokers take no steps to 
make sure that the information is being used for legitimate 
purposes. Moreover, the data brokers themselves are using 
fraudulent means to obtain the information from cell phone 
companies. In the pursuit of making a few dollars, these 
companies are helping criminals and undermining law 
enforcement. This must be stopped.
    That is why I have cosponsored the Consumer Telephone 
Records Protection Act introduced by Senators Specter and 
Schumer, and I am so glad that Senator Schumer is here. This 
bill will criminalize the sale of phone records without the 
consent of the subscriber. Mr. Chairman, it is a very simple 
notion and it will work.
    I also would urge my colleagues to support another privacy 
bill, introduced by Senator Specter and myself, the Wireless 
411 Privacy Act, that prohibits the listing of a cell phone 
number in any wireless directory unless the subscriber elects 
to be included. Again, abused women should not have to worry 
that their cell phone number will be listed in a directory 
without them knowing about it. More generally, consumers should 
be able to keep their numbers private if that is what they 
want.
    So I would ask unanimous consent that the rest of my 
statement be placed in the record, Mr. Chairman. But I do feel 
we see this problem; we must act before people are really hurt. 
Also, we have a couple of bills out there that are so good, and 
they are bipartisan and they make sense. I hope we can move 
them quickly, and I think we will be doing something very good 
for our constituents.
    Thank you.
    Senator Allen. Thank you, Senator Boxer. Your full 
statement will be made part of the record.
    [The prepared statement of Senator Boxer follows:]

 Prepared Statement of Hon. Barbara Boxer, U.S. Senator from California
    Mr. Chairman, thank you for holding this hearing on the privacy 
rights of cell phone subscribers.
    The battle to keep confidential consumer information private is 
never ending. It seems like every month we hear of a new way that shady 
companies are exploiting the information of consumers for a profit.
    The latest example is the sale of phone records by online data 
brokers. We have all read that sites like datatraceusa.com will sell a 
person's phone records to anyone willing to spend $100.
    The time, duration, and number of every call a person has made from 
their phone is being made available to the public. Such information is 
being purchased by the like of abusive spouses leading to more domestic 
violence and stalkers who are able to infiltrate the lives of their 
victims.
    It has gotten to the point that the Chicago police and FBI are 
warning their undercover agents that their phone records may be 
compromised, which could lead to their cover being blown.
    Most of the online data brokers take no steps to make sure that the 
information being sold is used for legitimate purposes. Moreover, the 
data brokers themselves are using fraudulent means to obtain the 
information from cell phone companies.
    In the pursuit of making a few dollars, these companies are helping 
criminals and undermining law enforcement.
    This must be stopped and that is why I have cosponsored the 
Consumer Telephone Records Protection Act introduced by Senators 
Schumer and Specter, which criminalizes the sale of phone records 
without the consent of the subscriber.
    I also would urge my colleagues to support another privacy bill I 
introduced last session and reintroduced last year with Senator 
Specter--the Wireless 411 Privacy Act. This bill prohibits the listing 
of a cell phone number in any wireless directory service unless the 
subscriber elects to be included.
    Abused women should not have to worry that their cell phone number 
will be listed in a directory without them knowing about it. And more 
generally, consumers should be able to keep their number private if 
that is what they want.
    This is especially important with respect to cell phone numbers, 
because consumers pay for each call they receive.
    Last session, a number of wireless carriers objected to certain 
provisions of my bill, including the requirement that subscribers opt-
in to being listed. It is my understanding that the major wireless 
companies no longer object to this provision.
    This is a promising change. It is a sign that companies are 
beginning to recognize that it is our responsibility to protect the 
privacy of consumers.
    In response to press reports, the wireless phone companies are 
improving their privacy practices and suing data brokers to prevent the 
release of their customers' phone records.
    Reacting to revelations in the papers of privacy breaches, however, 
is not enough. All companies--not just the wireless operators--should 
be proactive in protecting the privacy of their customers. They know 
the weakness of their own systems and how to fix those problems.
    If companies fail to act, Congress has a duty to step in and 
legislate the changes that are necessary to protect consumers.
    I look forward to hearing from the witnesses about what is being 
done to protect consumers' confidential information and I plan to work 
with this Committee to get my Wireless 411 Privacy bill marked-up and 
brought to the floor.
    Thank you, Mr. Chairman.

    Senator Allen. Senator Smith.

              STATEMENT OF HON. GORDON H. SMITH, 
                    U.S. SENATOR FROM OREGON

    Senator Smith. Thank you, Senator Allen and Chairman 
Stevens, for this very important hearing. The deceptive 
practice of pretexting has gotten, rightfully, a lot of 
attention lately. It is nothing more than lying to get 
something you are not entitled to have, and it is currently 
illegal. The Federal Trade Commission has the authority to 
pursue companies or individuals that engage in pretexting or 
other deceptive practices under section 5 of the FTC Act, which 
prohibits unfair or deceptive acts or practices in or affecting 
commerce.
    Using this authority, the FTC has brought civil actions 
against U.S. businesses that use false pretenses to gather 
information on consumers. Unfortunately, the FTC lacks 
authority to pursue bad actors operating overseas. We need to 
give the FTC these necessary tools. I sponsored the U.S. SAFE 
WEB Act with Senator Inouye, Senator McCain, Senator Nelson of 
Florida, Senator Burns, Senator Dorgan, and Senator Pryor. This 
is an important bill that will provide the FTC with the tools 
to protect consumers from cross-border fraud and deception, 
including pretexting. Our bill has already passed the Commerce 
Committee. It did so unanimously and I urge quick passage on 
the floor of the Senate. It will help solve this problem we are 
dealing with.
    One last point. Like consumers, phone companies are victims 
of fraud perpetrated by pretexters. Additional regulation of 
phone companies may not change fraudulent behavior pretexters. 
I think it is important to emphasize that enforcement is the 
key. If we need more laws, let us get more laws. But let us 
enforce the laws that we have.
    Thank you, Mr. Chairman.
    Senator Allen. Thank you, Senator Smith.
    I would like to hear from our first panelist, all by his 
lonesome, but not by his lonesome insofar as this issue and 
concern. Senator Chuck Schumer has joined us today to discuss 
this issue in terms of the law enforcement perspective 
proceeding from his viewpoint as a Member of the Judiciary 
Committee. Senator Schumer's involvement also extends to a bill 
that he has recently introduced.
    Senator Schumer, you can go ahead with your testimony. Then 
we will hear from the rest of our witnesses. Senator Schumer.

              STATEMENT OF HON. CHARLES SCHUMER, 
                   U.S. SENATOR FROM NEW YORK

    Senator Schumer. Thank you. Thank you, Mr. Chairman, and I 
want to thank you, Senator Pryor, Chairman Stevens, and all the 
rest of the Members, for the opportunity to speak to you today. 
I know this issue is of great concern to all of us, protecting 
the very privacy and personal information that is kept part of 
people's telephone records, because when a person talks on the 
phone, whether it is their cell phone or their home phone, they 
have an expectation of privacy. No one thinks that information 
about who they are calling and when they are calling them, as 
well as all of the personal information kept by phone companies 
for billing purposes, are available for sale to anyone with 
$100. But, sadly, that is the case.
    The activities of websites such as locatecell.com and other 
pretexters who pose as telephone customers to get people's 
personal phone record information from the phone companies have 
made some of our most personal and confidential information 
vulnerable to criminals who want that information for nefarious 
purposes.
    Even worse, unauthorized access to this information can put 
law enforcement officers and victims of domestic abuse in 
danger. A former spouse, a stalker, can find out who their 
target is calling and intensely personal information, like who 
their doctor is, whether the person sees a psychologist. 
Targets of criminal investigations can find out if someone is 
talking to law enforcement authorities about them. And in a 
particularly frightening scenario, the FBI recently was able to 
obtain the cell phone records of one of its agents online in 
just 3 hours.
    Business people too are subject to this. A list of who a 
salesperson is calling upon could be available to a business 
rival.
    So this is a problem that we have to deal with. We already 
have a law that protects our financial information. Pretexting 
of financial information is illegal per se. That is in the 
Gramm-Leach-Bliley Act that many of us supported and worked on 
several years ago. But there is no Federal law that makes it a 
criminal offense to steal someone's cell phone records. Right 
now there are laws on the books, as has been mentioned, but 
they are general fraud statutes, far less specific, and not 
good tools according to law enforcement for what they need to 
go after these illegal acts.
    So far the cell phone companies have to go after pretexters 
with civil lawsuits or prosecutors have to cobble together a 
case from a patchwork of laws. But if all that pretexters 
really face are civil fines, they are going to look at this as 
the cost of doing business. What these thieves do is a crime 
and ought to be treated like a crime.
    That is why, along with Senator Specter and many others, 
eight Members of this Committee cosponsored legislation that 
will do that, make stealing a person's phone records a felony. 
It is called the Consumer Telephone Records Protection Act, and 
I am happy to report that we have a bipartisan group of 
cosponsors, mainly from the Commerce and Judiciary Committees, 
which are the two committees of relevant jurisdiction.
    In addition, three of the major wireless carriers--Verizon 
Wireless, T-Mobile, and Sprint Nextel--as well as consumer 
groups like Consumers Union, support the bill.
    It is a very simple bill. It makes it a crime to 
fraudulently buy someone's phone records. It prohibits the sale 
or transfer of those records and specifically prohibits 
employees of phone companies from selling this information.
    We are also looking at enhanced penalties when the records 
are used to commit a crime of domestic violence or if they are 
used to harm law enforcement officers. The bill also contains 
an enhanced penalty for multiple offenses, aimed at the 
websites and companies that make a business out of stealing 
records, such as some of them that are on the screen over 
there.
    All of the bipartisan support, support from industry and 
consumers groups, I think shows very clearly the need to do 
something now, and I look forward to working with all of you on 
the Commerce Committee, which you have jurisdiction, of course, 
over FTC and all of that (we have jurisdiction over the 
criminal law in Judiciary) to find a quick solution that will 
stop pretexters and protect the privacy of American citizens.
    Thank you.
    Senator Allen. Thank you, Senator Schumer.
    We would now like to hear from the rest of the panel. We 
appreciate again, Senator Schumer, your willingness to work 
with us. We look forward to working on a team effort.
    I would like all of the six witnesses to come forward. I 
will introduce all of the witnesses. The order that we will go 
through the witnesses' testimony will be: first, Ms. Kris 
Monteith and Ms. Lydia Parnes, then the Honorable Steve 
Largent, Mark Rotenberg, Robert Douglas, and Cindy Southworth. 
So if you could--it looks like we are not going to get them in 
that order.
    As our witnesses are getting seated, let me begin with a 
brief introduction of each for those assembled here and for our 
Committee. To start, we have Ms. Kris Monteith, the Chief of 
the Enforcement Bureau at the Federal Communications 
Commission. Ms. Monteith's role at the FCC places her in a 
direct role in protecting consumers' phone records. We 
appreciate your willingness to discuss the role of the FCC and 
what it can play in the safety of consumer phone records. Thank 
you for testifying.
    Next we will hear from Ms. Lydia Parnes, who is the 
Director--she is Director of the Bureau of Consumer Protection 
at the Federal Trade Commission. The FTC is at the center of 
protecting consumers from deceptive business practices. Ms. 
Parnes will be able to give us a better idea of how to deter 
this fraudulent behavior and put these bad actors out of 
business, and we want to do that for good. Thank you for being 
here.
    Next we will hear from the Honorable Steve Largent, 
President and CEO of the Cellular, Telecommunications and 
Internet Association, otherwise known as ``CTIA.'' He is a Hall 
of Famer, was there at the Superbowl. The Seattle Seahawks had 
a tough game. Still, they made it to the Superbowl. More 
importantly, as a Hall of Famer we hope you help bring this 
team here together for success in combatting these pretexters.
    Next we will hear from Mr. Marc Rotenberg, Mr. Rotenberg, 
who has actually been here testifying on several occasions. He 
is Executive Director of the Electronic Privacy Information 
Center, otherwise known as ``EPIC.'' He has testified on a 
variety of issues. We welcome you back. He is here to give us 
his suggestions on how to best prevent an individual's phone 
records from being compromised.
    Then we will hear from Mr. Robert Douglas, Chief Executive 
Officer of PrivacyToday.com. Mr. Douglas is a former private 
investigator and has testified in front of Congress multiple 
times regarding information security. He can provide us with 
examples of real-life experiences with pretexting. Thank you, 
Mr. Douglas, for coming all the way from Steamboat Springs, 
Colorado. I know you once lived in Virginia, but now you have a 
farther trek.
    Finally, we are going to hear from Cindy Southworth. Cindy 
Southworth is the Director of Technology and Director of the 
Safety Net Project at the National Network to End Domestic 
Violence. Ms. Southworth's testimony can shed light on the 
potential ramifications of a person's phone records being 
divulged to someone other than the customer. Domestic violence 
against women is her area of expertise and she can offer a 
perspective on how physical abuse can result if a woman's phone 
records are obtained from an abusive husband, ex-boyfriend, or 
stalker, and we appreciate, Ms. Southworth, your attendance 
today and we look forward to your insight.
    Senator Burns. Mr. Chairman, before we go to the witnesses, 
can I make an announcement here, because I have got to go to 
the floor in about 15 minutes.
    Senator Allen. All right.
    Senator Burns. Just an announcement to remind everybody. 
The Internet Caucus--and what we are talking about is the 
Internet here and the Internet business--is tonight, 5 o'clock, 
over in Dirksen G-50. We have got a lot of vendors----
    Senator Inouye. It is for Members.
    Senator Burns. Well, no; for everybody. Everybody can go. 
We do not check anybody at the door.
    Senator Allen. Open standards.
    Senator Burns. Open standards.
    I just thought I would remind it to you if you are in the 
buildings and want to attend that.
    Senator Allen. All right, thank you. Thank you, Senator 
Burns.
    Now we would like to hear from Ms. Monteith.

            STATEMENT OF KRIS ANNE MONTEITH, CHIEF, 
          ENFORCEMENT BUREAU, FEDERAL COMMUNICATIONS 
                           COMMISSION

    Ms. Monteith. Good afternoon, Mr. Chairman.
    Senator Allen. I am going to ask, in the event that you 
can, I know you all have written testimony. If you can present 
it in 5 minutes; if it is longer than 5 minutes you may 
summarize, and all of your testimony will be made part of the 
record. In the questioning of the witnesses, I would ask that 
the Senators also be limited to 5 minutes in their inquiries.
    Ms. Monteith.
    Ms. Monteith. Good afternoon, Mr. Chairman and Members of 
the Subcommittee and the Full Committee. I appreciate the 
opportunity to speak with you today about what appears to be an 
alarming breach of the privacy of consumers' telephone records. 
As Chairman Martin made clear in his testimony last week, the 
Commission is deeply concerned about the disclosure and sale of 
these records. Determining how this violation of consumers' 
privacy is happening and addressing it is a priority for the 
Commission.
    In my testimony today, I will describe the Commission's 
current investigation into this serious issue and then touch on 
the legislative proposals Chairman Martin identified as 
possible measures Congress might take to prevent data brokers 
from selling consumers' phone records.
    The Commission is taking numerous actions to combat this 
issue. First, we are investigating how data brokers are 
obtaining consumers' personal telephone records. Second, we are 
investigating whether telecommunications carriers are 
adequately protecting the privacy of the personal and 
confidential data entrusted to them by American consumers. 
Third, we are initiating a proceeding to determine what 
additional rules the Commission should adopt to further protect 
consumers' sensitive telephone records from unauthorized 
disclosure.
    The disclosure and sale of consumer phone records was 
brought to the Commission's attention late last summer. On 
August 30th, the Electronic Privacy Information Center filed a 
petition expressing concern over the sale of consumers' private 
telephone data by data brokers. The Commission's Enforcement 
Bureau began researching and investigating these practices. Its 
research culminated in the Commission issuing subpoenas to 
several of the most prominent data brokers. When these 
companies failed to adequately respond to the subpoenas, we 
issued letters of citation and referred to responses to the 
Department of Justice for enforcement.
    Subsequently, we issued subpoenas to another 30 data 
brokers and are awaiting their responses. We also made 
undercover purchases of phone records from various data brokers 
to assist us in targeting additional subpoenas and to determine 
exactly how the consumer phone record data is being disclosed.
    In conjunction with our investigation of data brokers, in 
December and January the Commission met with the major wireless 
and wireline providers to discuss efforts they have undertaken 
to protect their confidential consumer data. Formal letters of 
inquiry followed that required the carriers to document their 
customer data security procedures and practices, identify 
security and disclosure problems, and address any changes they 
have made in response to the data brokers issue.
    In late January we asked the five largest wireline and 
wireless carriers to send us their required annual compliance 
certificates. In addition, early last week the Enforcement 
Bureau issued notices of apparent liability in the amount of 
$100,000 against two companies for failure to comply with the 
certification requirement. We also issued a public notice 
requiring all telecommunications carriers to file their most 
recent certification with the Commission.
    Throughout our investigation, we have coordinated closely 
with the FTC and will continue to share any evidence of 
fraudulent behavior that we detect in the course of our 
investigation.
    Finally, several weeks ago Chairman Martin circulated an 
item to his fellow Commissioners granting EPIC's petition and 
inviting comment on whether additional Commission rules are 
necessary to strengthen the safeguards for customer records. 
The item will be acted on by February 10th.
    In response to questions about what Congress might do to 
prevent data brokers from selling consumers' phone records, 
Chairman Martin identified three primary actions. First, 
Congress could specifically make illegal the commercial 
availability of consumers' phone records. Second, Congress 
could overturn the Tenth Circuit ruling that limited the 
Commission's ability to implement more stringent protection of 
consumer phone record information. This ruling has resulted in 
a much broader dissemination of consumer phone records and may 
have contributed to the proliferation of the unlawful practices 
of data brokers that we are seeing today.
    Third, the Commission's enforcement tools could be 
strengthened by, for example, eliminating the citation 
requirement in section 503(b) of the Act, raising the statutory 
maximum forfeiture penalties, and lengthening the applicable 1-
year statute of limitations.
    To conclude, the disclosure of private calling records 
represents a significant invasion of privacy. The Commission 
looks forward to working collaboratively with the Members of 
this Subcommittee, other Members of Congress, and our 
colleagues at the Federal Trade Commission to ensure that 
consumers' personal phone data remains confidential. Thank you 
for the opportunity to testify. I would be pleased to answer 
your questions.
    [The prepared statement of Ms. Monteith follows:]

 Prepared Statement of Kris Anne Monteith, Chief, Enforcement Bureau, 
                   Federal Communications Commission
Introduction
    Good afternoon, Chairman Allen, Ranking Member Pryor, and Members 
of the Subcommittee. I appreciate the opportunity to speak with you 
today about what appears to be an alarming breach of the privacy of 
consumers' telephone records. As Chairman Martin made clear in his 
testimony last week, the entire Commission is deeply concerned about 
the disclosure and sale of these personal telephone records and will 
take strong enforcement action to address any noncompliance by 
telecommunications carriers with the customer proprietary network 
information (``CPNI'') obligations under section 222 of the 
Communications Act of 1934, as amended, (the Act) and the Commission's 
rules.
    In my testimony, I will describe the Commission's current 
investigation into the procurement and sale of consumers' private phone 
records and the steps the FCC is taking to make sure that 
telecommunications carriers are fully meeting their obligations under 
the law to protect those records.
    As the Subcommittee is aware, the issue of third parties known as 
``data brokers'' obtaining and selling consumers' telephone call 
records, which has been widely reported, is a tremendous concern for 
consumers, lawmakers, and regulators alike. Determining how this 
violation of consumers' privacy is happening and addressing it is a 
priority for Chairman Martin and the Commission. As outlined below, we 
are taking numerous steps to combat the problem. First, we are 
investigating the data brokers to determine how they are obtaining this 
information. Second, we are investigating the telecommunications 
carriers to determine whether they have implemented safeguards that are 
appropriate to secure the privacy of the personal and confidential data 
entrusted to them by American consumers. Third, the Commission is 
initiating a proceeding to determine what additional rules the 
Commission should adopt to further protect consumers' sensitive 
telephone record data from unauthorized disclosure.
Background
    Numerous websites advertise the sale of personal telephone records 
for a price. Specifically, data brokers advertise the availability of 
cell phone records, which include calls to and/or from a particular 
cell phone number, the duration of such calls, and may even include the 
physical location of the cell phone. In addition to selling cell phone 
call records, many data brokers also claim to provide calling records 
for landline and voice over Internet protocol, as well as non-published 
phone numbers. In many cases, the data brokers claim to be able to 
provide this information within fairly quick time frames, ranging from 
a few hours to a few days.
    The data brokers provide no explanation on their websites of how 
they are able to obtain such personal data. \1\ There are several 
possible theories for how these data brokers are obtaining this 
information. These data brokers may be engaged in ``pretexting, `' that 
is, obtaining the information under false pretenses--often by 
impersonating the account holder. In addition, they may be obtaining 
access to consumers' accounts online by overcoming carriers' data 
security protocols. To the extent this is the cause of the privacy 
breaches, we must determine whether this is in part due to the lack of 
adequate carrier safeguards. Finally, various telecommunications 
carriers could have ``rogue'' employees who are engaged in the practice 
of sharing this information with data brokers in exchange for a fee.
---------------------------------------------------------------------------
    \1\ The websites often contain statements that the information 
obtained is confidential and not admissible in court, and may specify 
that the purchaser must employ a legal avenue, such as a subpoena, for 
obtaining the data if the purchaser intends to use the information in a 
legal proceeding.
---------------------------------------------------------------------------
    The mandate requiring telecommunications carriers to implement 
adequate safeguards to protect consumers' call records is found in 
section 222 of the Act. Congress enacted section 222 to protect 
consumers' privacy. Specifically, section 222 of the Act provides that 
telecommunications carriers must protect the confidentiality of 
customer proprietary network information. CPNI includes, among other 
things, customers' calling activities and history, and billing records. 
The Act limits carriers' abilities to use customer phone records even 
for their own marketing purposes without appropriate consumer approval 
and safeguards. Furthermore, the Act prohibits carriers from using, 
disclosing, or permitting access to this information without approval 
of the customer, or as otherwise required by law, if the use or 
disclosure is not in connection with the provided service.
    When it originally implemented section 222, the Commission required 
telecommunications carriers to obtain express written, oral, or 
electronic consent from their customers, i.e., an ``opt-in'' 
requirement, before a carrier could use any customer phone records to 
market services outside the customer's existing service relationship 
with that carrier. The United States Court of Appeals for the Tenth 
Circuit (10th Circuit) struck down these rules finding that they 
violated the First and Fifth Amendments of the Constitution. Required 
by the 10th Circuit to reverse its ``opt-in'' rule, the Commission 
ultimately adopted an ``opt-out'' approach whereby a customer's phone 
records may be used by carriers, their affiliates, agents, and joint 
venture partners that provide communications-related services provided 
that a customer does not expressly withhold consent to such use.
    The Commission must determine whether carriers are complying with 
their obligations under section 222. In order to make this 
determination, we are examining the methods that data brokers use to 
gain access to consumers' call records, and the methods employed by 
carriers to guard against such breaches.
Commission Investigation
    The issue of the disclosure and sale of consumer phone records was 
brought to the Commission's attention late last summer. On August 30th, 
the Electronic Privacy Information Center (EPIC) filed a petition for 
rulemaking expressing concern about the sufficiency of carrier privacy 
practices and the fact that online data brokers were selling consumers' 
private telephone data. At this same time, the Commission's Enforcement 
Bureau began researching and investigating the practices of data 
brokers. This research culminated in the Commission issuing subpoenas 
to several of the most prominent data broker companies. These 
subpoenas, served in November 2005, sought details regarding how the 
companies obtained this phone record information and contained further 
questions about the companies' sale of consumer call records. 
Unfortunately, the companies failed to adequately respond to our 
request. As a consequence, we issued letters of citation to these 
entities for failing to fully respond to a Commission order and 
referred the inadequate responses to the Department of Justice for 
enforcement of the subpoenas. In addition, we subsequently served 
another approximately 30 data broker companies with subpoenas and are 
currently waiting for their response. Finally, in support of these 
investigations, we have made undercover purchases of phone records from 
various data brokers. The purpose of this information is to assist us 
in targeting additional subpoenas and in determining the exact method 
by which consumer phone record data is being disclosed.
    In conjunction with our investigation of data brokers, the 
Commission also focused its attention on the practices of the 
telecommunications carriers subject to section 222. Specifically, in 
December and January, the Commission's Enforcement Bureau staff met 
with the major wireless and wireline providers to discuss efforts they 
have undertaken to protect their confidential customer data and to 
prevent data brokers from obtaining and using such information. 
Discussions focused on the specific procedures employed to protect 
consumer call records from being accessed by anyone other than the 
consumers themselves. Staff also probed who within the companies has 
access to call record information and the procedures the carriers use 
to ensure that employees and other third parties with access to such 
information do not improperly disclose it to others. The carriers 
generally expressed their belief that the problems they have 
experienced in this area are largely, if not exclusively, related to 
attempts by individuals outside the company to obtain information 
through pretexting, rather than by ``rogue'' employees selling 
information to data brokers.
    In order to have the carriers' responses in written form, last 
month, we sent formal Letters of Inquiry to these carriers. Inquiry 
letters are formal requests for information from carriers that may 
trigger penalties if not answered fully. These letters require the 
carriers to document their customer data security procedures and 
practices, identify security and disclosure problems, and address any 
changes they have made in response to the data broker issue. In 
addition, under the Commission's rules, a telecommunications carrier 
``must have an officer, as an agent of the carrier, sign a compliance 
certificate on an annual basis stating that the officer has personal 
knowledge that the company has established operating procedures that 
are adequate to ensure compliance'' with the Commission's CPNI rules. 
In late January, we asked the five largest wireline and wireless 
carriers to send us their CPNI certifications. Early last week, the 
Enforcement Bureau issued Notices of Apparent Liability in the amount 
of $100,000 against both AT&T and Alltel for failure to comply with the 
certification requirement. We also issued a public notice requiring all 
telecommunications carriers to submit their most recent certification 
with us. To the extent that carriers are unable to do so, or do not 
respond adequately, we are prepared to take appropriate enforcement 
action against them as well.
    Coordination with the FTC and State Attorneys General. Because this 
problem implicates the jurisdiction of both the FCC and FTC, we have 
coordinated with the FTC throughout our investigation. Beginning last 
summer, Commission staff and FTC staff have been in regular contact 
regarding the sale of phone records by data brokers. In addition, 
Chairman Martin met with Chairman Majoras late last year and discussed 
this issue, among others. Commission staff will continue to coordinate 
closely with the FTC staff and share with them any evidence of 
fraudulent behavior that we detect in the course of our investigation.
    The FCC has also responded to several inquiries and provided 
guidance to individual state Attorneys General, and the National 
Association of Attorneys General (NAAG). As you are aware, a number of 
states, including Florida, Illinois, and Missouri have taken recent 
legal action against data brokers.
Commission's Efforts to Strengthen Existing CPNI Rules
    As I mentioned previously, EPIC filed a petition with the 
Commission raising concerns about the sale of call records. 
Specifically, EPIC petitioned the Commission to open a proceeding to 
consider adopting stricter security standards to prevent carriers from 
releasing private consumer data. Several weeks ago, Chairman Martin 
circulated an item to his fellow Commissioners granting EPIC's petition 
and inviting comment on whether additional Commission rules are 
necessary to strengthen the safeguards for customer records. 
Specifically, the item seeks comment on EPIC's five proposals to 
address the unlawful and fraudulent release of CPNI: (1) consumer-set 
passwords; (2) audit trails; (3) encryption; (4) limiting data 
retention; and (5) notice procedures to the customer on release of CPNI 
data. In addition to these proposals, the item also seeks comment on 
whether carriers should be required to report further on the release of 
CPNI. Further, the item tentatively concludes that the Commission 
should require all telecommunications carriers to certify on a date 
certain each year that they have established operating procedures 
adequate to ensure compliance with the Commission's rules and file 
these certifications with the Commission.
    As Chairman Martin has indicated, the item has been distributed to 
the Commissioners for their consideration and will be acted on by 
February 10, 2006.
Legislative Assistance
    In addition to the Commission's actions, several members have asked 
for the Commission's views on any potential changes to the law that 
could help combat this troubling trend. Chairman Martin has identified 
three primary actions that Congress could take to prevent data broker 
companies from selling consumers' phone records. First, Congress could 
specifically make illegal the commercial availability of consumers' 
phone records. Thus, if any entity is found to be selling this 
information for a fee, regardless of how it obtained such information, 
it would face liability.
    Second, Congress could overturn the ruling of a Federal court that 
limited the Commission's ability to implement more stringent protection 
of consumer phone record information. Specifically, when the Commission 
first implemented section 222, it required carriers to obtain express 
written, oral, or electronic consent from their customers, i.e., an 
``opt-in'' requirement before a carrier could use any customer phone 
records to market services outside the customer's existing service 
relationship with that carrier. The Commission held that this ``opt-
in'' requirement provided consumers with the most meaningful privacy 
protection. In August of 1999, the 10th Circuit struck down these rules 
finding that they violated the First and Fifth Amendments of the 
Constitution. Required by the 10th Circuit to reverse its ``opt-in'' 
rule, the Commission adopted an ``opt-out'' approach whereby a 
customer's phone records may be used by carriers, their affiliates, 
agents, and joint venture partners that provide communications-related 
services provided that a customer does not expressly withhold consent 
to such use. This ruling shifted the burden to consumers, requiring 
them to specifically request that their personal phone record 
information not be shared. This ruling has resulted in a much broader 
dissemination of consumer phone records and thereby may have 
contributed to the proliferation of the unlawful practices of data 
brokers that we are seeing today.
    Third, Chairman Martin has recommended that the Commission's 
enforcement tools be strengthened. For example, the need to issue 
citations to non-licensees before taking any other type of action 
sometimes hinders us in our investigations, and allows targets to 
disappear before we are in a position to take action against them. 
Eliminating the citation requirement in section 503(b) of the Act would 
enable more streamlined enforcement. In addition, I believe that 
raising maximum forfeiture penalties, currently prescribed by statute, 
would assist the Commission in taking effective enforcement action, as 
well as act as a deterrent to companies who otherwise view our current 
forfeiture amounts simply as costs of doing business. Further, the one-
year statute of limitations in section 503 of the Communications Act 
for bringing action has been a source of difficulty at times. In 
particular, when the violation is not immediately apparent, or when the 
Commission undertakes a complicated investigation, we often run up 
against the statute of limitations and must compromise our 
investigation, or begin losing violations for which we can take action.
Conclusion
    The disclosure of consumers' private calling records is a 
significant privacy invasion. The Commission is taking numerous steps 
to try to address practice as soon as possible. We look forward to 
working collaboratively with the Members of this Subcommittee, other 
Members of Congress, as well as our colleagues at the Commission and at 
the Federal Trade Commission to ensure that consumers' personal phone 
data remains confidential. Thank you for the opportunity to testify, 
and I would be pleased to respond to your questions.

    Senator Allen. Ms. Monteith, thank you very much for your 
testimony and your very specific ideas of what we can do to 
strengthen the enforcement capabilities of the FCC. You will 
undoubtedly have some questions posed to you later, as will all 
the witnesses.
    Now we would like to hear from Ms. Parnes with the Federal 
Trade Commission. Please proceed.

  STATEMENT OF LYDIA B. PARNES, DIRECTOR, BUREAU OF CONSUMER 
              PROTECTION, FEDERAL TRADE COMMISSION

    Ms. Parnes. Good afternoon, Mr. Chairman and Members of the 
Subcommittee. I too appreciate the invitation to appear today 
to discuss the important topic of the privacy and security of 
consumers' telephone records. My oral testimony and responses 
to questions reflect my own views and not necessarily those of 
the Commission or any individual commissioner.
    Maintaining the privacy and security of consumers' 
sensitive personal information is one of the Commission's 
highest priorities. We have wrestled with spam, spyware, and 
identity theft and, in cooperation with the FCC, are now 
vigorously investigating companies that use subterfuge to gain 
access to consumers' telephone call logs. Today I will describe 
the FTC's efforts to protect consumers from pretexters 
generally and the specific practice of pretexting for telephone 
records. Then I will address the issue of whether new laws are 
needed to stop this troubling practice.
    The Commission filed its first pretexting suit in 1999, 
against a company that offered to provide consumers' bank 
account numbers and balances to anybody for a fee. The FTC 
alleged that this deceptive conduct violated section 5 of the 
FTC Act. Later that year, Congress enacted the Gramm-Leach-
Bliley (GLB) Act, which expressly prohibits pretexting for 
financial records.
    Since GLB's passage, the FTC has sent warning letters to 
200 firms that sold asset information to third parties and 
brought more than a dozen financial pretexting cases. But it is 
also important to control the supply side of sensitive consumer 
information. In that vein, the Commission recently announced a 
recordbreaking $15 million settlement against ChoicePoint, 
challenging business practices that we alleged unreasonably 
exposed consumer data to theft and misuse.
    Now let me turn to the cottage industry of companies 
peddling cell phone and landline records. In preparation for 
this hearing, we did a quick review of the telephone record 
marketplace. The results are illuminating. First, we looked at 
40 websites previously reported to be selling call records. As 
of this Monday, more than half were no longer advertising the 
sale of such records. One website told would-be customers, and 
I quote: ``Due to controversy surrounding the availability of 
phone records via the Internet, we have decided to discontinue 
offering these searches.''
    Unfortunately, we also found that at least nine of the 
companies still make unabashed offers to obtain call records. 
The remaining companies are making more ambiguous offers that 
are still of concern. Thus, thanks to the attention this issue 
has received in the media and in hearings like this one, at 
least some in the pretexting industry have gotten the message. 
But there is still work to be done.
    Yesterday we sent warning letters to 20 companies that are 
offering to obtain and sell telephone call records, and the 
Commission has a number of ongoing investigations as well.
    I know the Committee is considering whether additional 
legislation is necessary to protect these records. One approach 
would be a specific prohibition on the pretexting of telephone 
call records, modeled on the Gramm-Leach-Bliley Act's 
protection of financial records. If Congress were to consider 
such legislation, I would recommend that it give the Commission 
authority to seek civil penalties against violators, a remedy 
that the FTC does not currently have in cases like this. I 
believe that in this area, penalties are the most effective 
civil remedy.
    This is also a situation where criminal penalties may be 
warranted, but as a civil agency we would defer to the 
Department of Justice on the need for criminal legislation and 
particularly its structure.
    In addition, our recent surf revealed that some sites 
offering these records were registered to foreign addresses. 
This finding underscores the importance of the Commission's 
previous recommendation that Congress enact cross-border fraud 
legislation. The proposal, called the U.S. SAFE WEB Act, will 
overcome many of the existing obstacles to information-sharing 
and cross-border investigations. I would like to thank the 
Committee for its leadership on this bill.
    Finally, Congress may consider, as recommended by the FCC, 
whether a ban on the sale of call records in all cases is 
appropriate. Should it do so, I would recommend that Congress 
exercise caution in determining the breadth of such a ban. 
Certainly law enforcers will continue to have legitimate 
reasons for obtaining phone records and it is possible that 
there may be other limited circumstances in which these records 
might be disclosed for appropriate and useful purposes. For 
example, the GLB pretexting prohibition provides an exception 
in cases involving the collection of court-ordered child 
support payments.
    Again, thank you for the opportunity to testify today. We 
look forward to working with the Committee and its staff on 
this very important issue.
    [The prepared statement of Ms. Parnes follows:]

  Prepared Statement of Lydia B. Parnes, Director, Bureau of Consumer 
                  Protection, Federal Trade Commission
Introduction
    Mr. Chairman, and Members of the Subcommittee, I am Lydia B. 
Parnes, Director of the Bureau of Consumer Protection at the Federal 
Trade Commission (``FTC'' or ``Commission''). \1\ I appreciate the 
opportunity to discuss telephone records pretexting and the 
Commission's significant work to protect the privacy and security of 
telephone records and other types of sensitive consumer information. 
The Commission is currently investigating companies that offer consumer 
telephone records for sale, and we plan to pursue these investigations 
vigorously.
---------------------------------------------------------------------------
    \1\ The views expressed in this statement represent the views of 
the Commission. My oral testimony and responses to questions reflect my 
own views and do not necessarily represent the views of the Commission 
or any individual Commissioner.
---------------------------------------------------------------------------
    Maintaining the privacy and security of consumers' personal 
information is one of the Commission's highest priorities. Companies 
that engage in pretexting--the practice of obtaining personal 
information, such as telephone records, under false pretenses--not only 
violate the law, but they undermine consumers' confidence in the 
marketplace and in the security of their sensitive data. While 
pretexting to acquire telephone records has recently become more 
prevalent, the practice of pretexting is not new. The Commission has 
used its full arsenal of tools to attack scammers who use fraud to gain 
access to consumers' personal information.
    Aggressive law enforcement is at the center of the FTC's efforts to 
protect consumers' sensitive information. The Commission has taken law 
enforcement action against companies allegedly offering surreptitious 
access to consumers' financial records, and will continue to challenge 
business practices that unnecessarily expose consumers' sensitive 
information. The Commission also continues to provide consumer 
education and outreach to industry to ensure that the marketplace is 
safe for consumers and commerce. \2\
---------------------------------------------------------------------------
    \2\ For example, the Commission recently launched OnGuard Online, a 
campaign to educate consumers about the importance of safe computing. 
See www.onguardonline.gov. One module offers advice on avoiding spyware 
and removing it from computers. Another module focuses on how to guard 
against ``phishing,'' a scam where fraudsters send spam or pop-up 
messages to extract personal and financial information from 
unsuspecting victims. Yet another module provides practical tips on how 
to avoid becoming a victim of identity theft. These materials are 
additions to our comprehensive library on consumer privacy and 
security. See www.ftc.gov/privacy/index.html.
---------------------------------------------------------------------------
    Today I will discuss the FTC's efforts to protect consumers from 
firms engaged in pretexting and the practice of pretexting for 
telephone records. \3\
---------------------------------------------------------------------------
    \3\ Pretexting is not the only way to obtain consumers' telephone 
records, however. Such records also reportedly have been obtained by 
bribing telephone company employees and hacking into telephone 
companies' computer systems. See, e.g., Jonathan Krim, Online Data Gets 
Personal: Cell Phone Records for Sale, Wash. Post, July 13, 2005, 
available at 2005 WLNR 10979279; Simple Mobile Security for Paris 
Hilton, PC Magazine, Mar. 1, 2005, available at 2005 WLNR 3834800.
---------------------------------------------------------------------------
II. FTC Efforts to Protect Consumers From Firms That Engage in 
        Pretexting
    The Commission has a history of combating pretexting. Using Section 
5 of the FTC Act, which prohibits ``unfair or deceptive acts or 
practices in or affecting commerce,'' \4\ the Commission has brought 
actions against businesses that use false pretenses to gather financial 
information on consumers. In these cases, we have alleged that it is a 
deceptive and unfair practice to obtain a consumer's financial 
information by posing as the consumer.
---------------------------------------------------------------------------
    \4\ 15 U.S.C. Sec. 45(a).
---------------------------------------------------------------------------
    The Commission's first pretexting case was filed against a company 
that offered to provide consumers' financial records to anybody for a 
fee. \5\ According to our complaint, the company's employees obtained 
these records from financial institutions by posing as the consumer 
whose records it was seeking. The complaint charged that this practice 
was both deceptive and unfair under Section 5 of the FTC Act. \6\
---------------------------------------------------------------------------
    \5\ FTC v. James J. Rapp and Regana L. Rapp, d/b/a Touch Tone 
Information, Inc., No. 99-WM-783 (D. Colo.) (final judgment entered 
June 22, 2000). See http://www.ftc.gov/os/2000/06/touchtoneorder.
    \6\ An act or practice is unfair if it: (1) causes or is likely to 
cause consumers substantial injury; (2) the injury is not reasonably 
avoidable by consumers; and (3) the injury is not outweighed by 
countervailing benefits to consumers or competition. 15 U.S.C. 
Sec. 45(n).
---------------------------------------------------------------------------
    In 1999, Congress passed the Gramm-Leach-Bliley Act (``GLBA''). The 
GLBA provided another tool to attack the unauthorized acquisition of 
consumers' financial information. \7\ Section 521 of the Act directly 
prohibits pretexting of customer data from financial institutions. 
Specifically, this provision prohibits ``false, fictitious, or 
fraudulent statement[s] or representation[s] to an officer, employee, 
or agent of a financial institution'' to obtain customer information of 
a financial institution. \8\
---------------------------------------------------------------------------
    \7\ Id. Sec. Sec. 6801-09.
    \8\ Id. Sec. 6821.
---------------------------------------------------------------------------
    To ensure awareness of and compliance with the new anti-pretexting 
provisions of the GLBA, the Commission launched Operation Detect 
Pretext in 2001. \9\ Operation Detect Pretext combined a broad 
monitoring program, the widespread dissemination of industry warning 
notices, consumer education, and aggressive law enforcement.
---------------------------------------------------------------------------
    \9\ See FTC press release ``As Part of Operation Detect Pretext, 
FTC Sues to Halt Pretexting'' (Apr. 18, 2001), available at 
http://www.ftc.gov/opa/2001/04/pretext.htm. For more information about 
the cases the Commission has brought under Section 521 of the GLBA, see 
http://www.ftc.gov/privacy/privacyinitiatives/pretexting_enf.  Since 
GLBA's passage, the FTC has brought over a dozen cases alleging 
violations of Section 521 in various contexts.
---------------------------------------------------------------------------
    In the initial monitoring phase of Operation Detect Pretext, FTC 
staff conducted a ``surf'' of more than 1,000 websites and a review of 
more than 500 advertisements in print media to spot firms offering to 
conduct searches for consumers' financial data. The staff found 
approximately 200 firms that offered to obtain and sell consumers' 
asset or bank account information to third parties. The staff then sent 
notices to these firms advising them that their practices were subject 
to the FTC Act and the GLBA, and provided information about how to 
comply with the law. \10\
---------------------------------------------------------------------------
    \10\ See FTC press release ``FTC Kicks Off Operation Detect 
Pretext'' (Jan. 31, 2001), available at http://www.ftc.gov/opa/2001/01/
pretexting.htm.
---------------------------------------------------------------------------
    In conjunction with the warning letters, the Commission released a 
consumer alert, Pretexting: Your Personal Information Revealed, 
describing how pretexters operate and advising consumers on how to 
avoid having their information obtained through pretexting. \11\ The 
alert warns consumers not to provide personal information in response 
to telephone calls, e-mail, or postal mail, and advises them to review 
their financial statements carefully, to make certain that their 
statements arrive on schedule, and to add passwords to financial 
accounts.
---------------------------------------------------------------------------
    \11\ See http://www.ftc.gov/bcp/conline/pubs/credit/pretext.htm.
---------------------------------------------------------------------------
    While consumer education is important, it is only part of the FTC's 
efforts to combat pretexting. Aggressive law enforcement is critical. 
The FTC therefore followed up the first phase of Operation Detect 
Pretext in 2001 with a trio of law enforcement actions against 
information brokers. \12\ In each of these cases, the defendants 
advertised that they could obtain non-public, confidential financial 
information, including information on checking and savings account 
numbers and balances, stock, bond, and mutual fund accounts, and safe 
deposit box locations, for fees ranging from $100 to $600. The FTC 
alleged that the defendants or persons they hired called banks, posing 
as customers, to obtain balances on checking accounts. \13\
---------------------------------------------------------------------------
    \12\ FTC v. Victor L. Guzzetta, d/b/a Smart Data Systems, No. CV-
01-2335 (E.D.N.Y.) (final judgment entered Feb. 25, 2002); FTC v. 
Information Search, Inc., and David Kacala, No. AMD-01-1121 (D. Md.) 
(final judgment entered Mar. 15, 2002); FTC v. Paula L. Garrett, d/b/a 
Discreet Data Systems, No. H 01-1255 (S.D. Tex.) (final judgment 
entered Mar. 25, 2002).
    \13\ In sting operations set up by the FTC in cooperation with 
banks, investigators established dummy bank account numbers in the 
names of cooperating witnesses and then called defendants, posing as 
purchasers of their pretexting services. In the three cases, an FTC 
investigator posed as a consumer seeking account balance information on 
her fiance's checking account. The defendants or persons they hired 
proceeded to call the banks, posing as the purported fiance, to obtain 
the balance on his checking account. The defendants later provided the 
account balances to the FTC investigator.
---------------------------------------------------------------------------
    The FTC's complaints alleged that the defendants' conduct violated 
the anti-pretexting prohibitions of the GLBA, and further was unfair 
and deceptive in violation of Section 5 of the FTC Act. The defendants 
in each of the cases ultimately agreed to settlements that barred them 
from further violations of the law and required them to surrender ill-
gotten gains. \14\
---------------------------------------------------------------------------
    \14\ See http://www.ftc.gov/opa/2002/03/pretextingsettlements.htm.
---------------------------------------------------------------------------
    Because the anti-pretexting provisions of the GLBA provide for 
criminal penalties, the Commission also may refer pretexters to the 
U.S. Department of Justice for criminal prosecution, as appropriate. 
One such individual recently pled guilty to one count of pretexting 
under the GLBA. \15\
---------------------------------------------------------------------------
    \15\ United States v. Peter Easton, No. 05 CR 0797 (S.D.N.Y.) 
(final judgment entered Nov. 17, 2005).
---------------------------------------------------------------------------
    Finally, the Commission is aware that it is not enough to focus on 
the purveyors of illegally obtained consumer data. It is equally 
critical to ensure that entities that handle and maintain sensitive 
consumer information have in place reasonable and adequate processes to 
protect that data. Accordingly, the Commission has challenged data 
security practices as unreasonably exposing consumer data to theft and 
misuse. \16\ Companies that have failed to implement reasonable 
security and safeguard processes for consumer data face liability under 
various statutes enforced by the FTC, including the Fair Credit 
Reporting Act, the Safeguards provisions of the GLBA, and Section 5 of 
the FTC Act. \17\
---------------------------------------------------------------------------
    \16\ In addition to law enforcement in the data security area, the 
Commission has provided business education about the requirements of 
existing laws and the importance of good security. See, e.g., 
Safeguarding Customers' Personal Information: A Requirement for 
Financial Institutions, available at http://www.ftc.gov/bcp/conline/
pubs/alerts/safealrt.htm.
    \17\ United States v. ChoicePoint, Inc., No. 106-CV-0198 (N.D. Ga.) 
(complaint and proposed settlement filed on Jan. 30, 2006 and pending 
court approval); In the Matter of BJ's Wholesale Club, Inc., FTC Docket 
No. 042-3160 (Sept. 20, 2005); In the Matter of DSW, Inc., FTC Docket 
No. 052-3096 (proposed settlement posted for public comment on Dec. 1, 
2005); Superior Mortgage Corp., FTC Docket No. C-4153 (Dec. 14, 2005). 
As the Commission has stated, an actual breach of security is not a 
prerequisite for enforcement under Section 5; however, evidence of such 
a breach may indicate that the company's existing policies and 
procedures were not adequate. It is important to note, however, that 
there is no such thing as perfect security, and breaches can happen 
even when a company has taken every reasonable precaution. See 
Statement of the Federal Trade Commission Before the Committee on 
Commerce, Science, and Transportation, U.S. Senate, on Data Breaches 
and Identity Theft (June 16, 2005) at 6, available at http://
www.ftc.gov/os/2005/06/050616databreaches.pdf.
---------------------------------------------------------------------------
    In fact, two weeks ago the Commission announced a record-breaking 
proposed settlement with data broker ChoicePoint, Inc. This proposed 
settlement requires ChoicePoint to pay $10 million in civil penalties 
and $5 million in consumer redress to settle charges that its security 
and record-handling procedures violated the Fair Credit Reporting Act 
and the FTC Act. In addition, the proposed settlement requires 
ChoicePoint to implement new procedures to ensure that it provides 
consumer reports only to legitimate businesses for lawful purposes, to 
establish and maintain a comprehensive information security program, 
and to obtain audits by an independent third-party security 
professional every other year until 2026. Further, the proposed 
settlement sends a strong signal to industry that it must maintain 
reasonable procedures for safeguarding sensitive consumer information 
and protecting it from data thieves.
III. Pretexting for Consumers' Telephone Records
    An entire industry of companies offering to provide purchasers with 
the cellular and landline phone records of third parties recently has 
developed. Recent press stories report on the successful purchase of 
the phone records of prominent figures. \18\ Although the acquisition 
of telephone records does not present the opportunity for immediate 
financial harm as the acquisition of financial records does, it 
nonetheless is a serious intrusion into consumers' privacy and could 
result in stalking, harassment, and embarrassment. \19\ Although 
pretexting for consumer telephone records is not prohibited by the 
GLBA, the Commission may bring a law enforcement action against a 
pretexter of telephone records for deceptive or unfair practices under 
Section 5 of the FTC Act. \20\
---------------------------------------------------------------------------
    \18\ News stories state that reporters obtained cell phone records 
of General Wesley Clark and cell phone and landline records of Canada's 
Privacy Commissioner Jennifer Stoddart. See, e.g., Aamer Madhani and 
Liam Ford, Brokers of Phone Records Targeted, Chicago Trib., Jan. 21, 
2006, available at 2006 WLNR 1167949.
    \19\ Albeit anecdotal, news articles illustrate some harmful uses 
of telephone records. For example, data broker Touch Tone Information 
Inc. reportedly sold home phone numbers and addresses of Los Angeles 
Police Department detectives to suspected mobsters, who then used the 
information in an apparent attempt to intimidate the police officers 
and their families. See, e.g., Peter Svensson, Calling Records Sales 
Face New Scrutiny, Wash. Post, Jan. 18, 2006, available at http://
www.washingtonpost.com/wp-dyn/content/article/2006/01/18/
AR2006011801659.html.
    \20\ Under Section 13(b) of the FTC Act, the Commission has the 
authority to file actions in Federal district court against those 
engaged in deceptive or unfair practices and obtain injunctive relief 
and other equitable relief, including monetary relief in the form of 
consumer redress or disgorgement of ill-gotten profits. However, the 
FTC Act does not authorize the imposition of civil penalties for an 
initial violation, unless there is a basis for such penalties, i.e., an 
applicable statute, rule or litigated decree.
---------------------------------------------------------------------------
    The Commission is currently investigating companies that appear to 
be engaging in telephone pretexting. Using the approach that proved 
successful in Operation Detect Pretext, Commission staff surfed the 
Internet for companies that offer to sell consumers' phone records. FTC 
staff then identified appropriate targets for investigation and 
completed undercover purchases of phone records. Commission attorneys 
currently are evaluating the evidence to determine if law enforcement 
action is warranted.
    In addition, the FTC is working closely with the Federal 
Communications Commission, which has jurisdiction over 
telecommunications carriers subject to the Communications Act. \21\ Our 
two agencies are committed to coordinating our work on this issue, as 
we have done successfully with the enforcement of the ``National Do Not 
Call'' legislation. \22\
---------------------------------------------------------------------------
    \21\ Consumer telephone records are considered ``customer 
proprietary network information'' under the Telecommunications Act of 
1996 (``Telecommunications Act''), which amended the Communications 
Act, and accordingly are afforded privacy protections by the 
regulations under that Act.  See 42 U.S.C. Sec. 222; 47 CFR 
Sec. Sec. 64.2001-64.2009. The Telecommunications Act requires 
telecommunications carriers to secure the data, but does not 
specifically address pretexting to obtain telephone records. Moreover, 
the FTC's governing statute specifically states that the Commission 
lacks jurisdiction over common carrier activities that are subject to 
the Communications Act. 15 U.S.C. Sec. 46(a). The Commission opposed 
this jurisdictional gap during the two most recent reauthorization 
hearings. See http://www.ftc.gov/os/2003/06/030611reauthhr.htm; see 
also http://www.ftc.gov/os/203/06/030611learysenate.htm; http://
www.ftc.gov/os/2002/07/sfareauthtest.htm.
    \22\ In addition, the Attorneys General of Florida, Illinois, and 
Missouri recently sued companies allegedly engaged in pretexting. See 
http://myfloridalegal.com/_852562220065EE67.nsf/0/
D510D79C5EDFB4B98525710000Open&Highlight=0,telephone,records; http://
www.ag.state.il.us/pressroom/2006_01/20060120.html; http://
www.ago.mo.gov/newsreleases/2006/012006h.html. Several 
telecommunications carriers also have sued companies that reportedly 
sell consumers' phone records. According to press reports, Cingular 
Wireless, Sprint Nextel, T-Mobile, and Verizon Wireless have sued such 
companies. See, e.g., http://www.upi.com/Hi-Tech/
view.php?StoryID=20060124-6403r; http://www.wired.com/news/technology/
1,70027-0.html; http://news.zdnet.com/2100-1035_22-6031204.html.
---------------------------------------------------------------------------
IV. Conclusion
    Protecting the privacy of consumers' data requires a multi-faceted 
approach: coordinated law enforcement by government agencies as well as 
action by the telephone carriers, outreach to educate consumers and 
industry, and improved security by record holders are essential for any 
meaningful response to this assault on consumers' privacy. Better 
security measures for sensitive data will prevent unauthorized access; 
aggressive and well-targeted law enforcement against the pretexters 
will deter others from further invasion of privacy; and outreach to 
consumers and industry will provide meaningful ways to avoid the harm 
to the public.
    The Commission has been at the forefront of efforts to safeguard 
consumer information and is committed to continuing our work in this 
area. We also are committed to working with this Committee to provide 
greater security and privacy for American consumers.

    Senator Allen. Thank you, Ms. Parnes. We appreciate your 
comments and we will have questions of you also.
    Now we would like to hear from the Honorable, a former 
Congressman and now Chairman, Steve Largent.

       STATEMENT OF HON. STEVE LARGENT, PRESIDENT/CHIEF 
  EXECUTIVE OFFICER, CELLULAR TELECOMMUNICATIONS AND INTERNET 
                       ASSOCIATION (CTIA)

    Mr. Largent. Well, thank you, Mr. Chairman and Ranking 
Member and other Members of the Committee, for giving me a 
chance to testify here this afternoon on the theft and illegal 
sale of phone records by data brokers. With your consent, I 
would like to have my full written statement made a part of the 
record.
    Senator Allen. It will be.
    Mr. Largent. At the outset of my testimony, I want to make 
it unequivocally clear that the wireless industry and more 
specifically the wireless carriers that I represent take this 
matter very seriously. The theft of customer call records is 
unacceptable and CTIA and the wireless carriers believe that 
the current practice of pretexting is illegal.
    CTIA and the wireless industry are on record as supporting 
Congress's efforts to enact Federal legislation that 
criminalizes the fraudulent behavior by third parties to 
obtain, sell, and distribute call records. I believe that it is 
important to note that the four national carriers--Verizon 
Wireless, Cingular, Sprint Nextel, and T-Mobile--have all filed 
complaints and obtained injunctions across the country to shut 
down these data thieves.
    The fact that data brokers apparently have been able to 
break and enter carrier customer service operations to obtain 
call records has given our industry a black eye. To quote from 
one of CTIA's member companies' code of conduct, it says: 
``Great companies are defined by their reputation for ethics 
and integrity in every aspect of their business. By their 
actions, these companies demonstrate the values that serve as 
the foundation of their culture and attract the best customers, 
employees, and stakeholders in their industry.''
    The wireless industry is dedicated to being responsive to 
its customers' requests for assistance with their service. To 
the extent that the theft of customer call records has 
jeopardized the industry's reputation, it is most unfortunate. 
Trust is a currency that is difficult to refund.
    As we all know, the way that these thieves are obtaining 
call records is through the use of pretexting, otherwise known 
as lying. I would note that no two carriers can or should 
employ the exact same security procedures and I would caution 
the Committee Members that as you proceed forward in drafting 
legislation that you consider that the threat environment is 
constantly changing and static rules can quickly become 
outmoded or easily avoided by fraudsters. Moreover, CTIA in its 
comments to the EPIC petition for rulemaking at the FCC noted 
that requiring wireless carriers to identify security 
procedures on the record and to further identify any 
inadequacies in their procedures would provide a road map to 
criminals to avoid fraud detection measures. The industry fears 
that public disclosure potentially could lead to serious harm 
to consumers and carriers alike.
    One security practice we know works is litigation. I cannot 
emphasize enough how seriously wireless carriers are taking 
these illegal and unauthorized attempts to obtain and traffic 
our customers' private information. These internal 
investigations have led to the carriers filing these cases, 
which began months before the current media glare. As I 
mentioned at the beginning of my testimony, the four national 
carriers have all filed complaints and obtained injunctions 
across the country to shut these data thieves down. Carriers 
have taken additional security steps to require personal 
identification numbers and passwords when obtaining call record 
information and many carriers have instituted a ban on e-mail 
and faxing call records.
    It is important to remember carriers are under tremendous 
pressure to quickly respond to customer calls. What was largely 
perceived as good customer service yesterday is now a practice 
seen as a potential inspection flaw. Wireless carriers 
collectively received hundreds of millions, if not billions, of 
customer inquiries in 2005 alone. Inside our member companies, 
customer service reps are striving to address the requests of 
customers as best they can with the very best interests of the 
customer at heart.
    Bearing this statistic in mind, it would prove 
counterproductive to enact legislation that would impede 
wireless customers' access to their own account information. 
Rules that may require in-person customer service would be a 
step backward from the convenient and responsive customer 
service wireless carriers strive to achieve.
    Clearly, the privacy of a small percentage of our customers 
and constituents has been compromised. As far as I am 
concerned, the breach of even one wireless customer's calling 
records is one customer too many. But to the best of my 
knowledge, no system is foolproof, especially one that handles 
hundreds of millions of customer calls each year without the 
customer being present.
    There is one component to this problem that really has not 
been discussed, but I believe plays a very large role in the 
sale of call records, and that is the use of credit cards to 
purchase these records. I think we all agree that pretexting 
should be made illegal, and if we make the underlying act of 
making the sale of records illegal, does it not make sense then 
to prohibit the use of credit cards to buy the records? I know 
my suggestion goes beyond the jurisdiction of this Committee, 
but I truly believe that if Congress dries up the funding 
source for these sites they will disappear.
    The wireless industry wholeheartedly supports making it 
explicitly clear that the marketing, possession, and sale of 
call records is against the law. If we have learned anything 
from this experience, it is that combatting pretexting is a war 
where the unscrupulous continuously seek out vulnerabilities 
and the weaknesses in the carriers' defenses. Unfortunately, no 
defense will be perfect, which is why we need a good offense 
and strong enforcement measures against these criminals.
    Again, thank you for this opportunity and I welcome any 
questions you may have, Mr. Chairman.
    [The prepared statement of Mr. Largent follows:]

  Prepared Statement of Hon. Steve Largent, President/Chief Executive 
  Officer, Cellular Telecommunications and Internet Association (CTIA)
    Chairman Allen, Ranking Member Pryor and Members of the 
Subcommittee, thank you for the opportunity to appear before you this 
afternoon to testify on the theft and illegal sale of phone records by 
data brokers. At the outset of my testimony, I want to make it 
unequivocally clear that the wireless industry, and more specifically, 
the wireless carriers that I represent take this matter very seriously. 
The theft of this data is unacceptable, and CTIA and wireless carriers 
believe that the current practice of ``pretexting'' is illegal. 
Chairwoman Majoras has declared that the Federal Trade Commission 
currently has the authority it needs to prosecute these thieves. 
Carriers have successfully filed injunctions to take these sites down. 
Additionally, CTIA and the wireless industry are on record as 
supporting Congress's efforts to enact Federal legislation that 
criminalizes the fraudulent behavior by third parties to obtain, sell 
or distribute call records. I believe that it is important to note that 
the four national carriers: Verizon Wireless, Cingular, Sprint Nextel, 
and T-Mobile have all filed complaints and obtained injunctions across 
the country to shut these data thieves down.
    The fact that data brokers apparently have been able to break and 
enter carrier customer service operations to obtain call records has 
given our industry a black eye. To quote from one of CTIA's member 
companies' Code of Conduct, ``Great companies are defined by their 
reputation for ethics and integrity in every aspect of their business. 
By their actions, these companies demonstrate the values that serve as 
the foundation of their culture and attract the best customers, 
employees and stakeholders in their industry.'' The wireless industry 
is dedicated to being responsive to its customers' requests for 
assistance with their service because of its concern for wireless 
customers. To the extent that the theft of customer call records has 
jeopardized the industry's reputation, I believe this is most 
unfortunate because trust is a currency that is difficult to refund.
Pretexting
    Overwhelmingly, the vast majority of cell phone records are being 
fraudulently obtained through the use of ``pretexting,'' which is 
nothing more than lying to obtain something you aren't entitled to 
procure lawfully. Allow me to explain how these data thieves operate. 
For the sake of illustration, if someone--and in most cases it appears 
to be a private investigator--wants to acquire my call records, the 
private investigator will go to a website that publicly offers to 
obtain such records such as locatecell.com. The person trying to obtain 
my call records will provide the website in most cases with nothing 
more than my name and phone number. At that point, the website or a 
subcontractor of the website will pose as Steve Largent  call a 
carrier's customer service department to get the records. Customer 
Service Representatives (CSR) are trained to require more than just a 
name and phone number, but the thieves are well trained too and often 
badger, threaten or plead with the CSR to acquire the records as if 
they are the actual customer. Our carrier investigations confirm that 
these calls are rebuffed, but these data brokers are quite determined. 
The data broker will scour other sources on the Internet or elsewhere 
to obtain my Social Security number or date of birth so that eventually 
the data broker will appear to be Steve Largent calling customer 
service, and thus, the CSR is duped into releasing the records. To be 
clear, from the carrier perspective, the CSR is dealing with the actual 
customer.
    Make no mistake, these data thieves are extremely sophisticated. If 
they are unable to deceive one CSR on the first attempt, they will 
place multiple calls to customer service call centers until they are 
able to mislead a CSR into providing the call records.
    No combination of identifiers is safe against pretexting. We have 
had cases where the data brokers have possessed the customer password. 
We have had cases where they knew the date of birth of the customer and 
the full Social Security number. Because many of these cases seem to 
arise in divorce or domestic cases, it is common for a spouse to have 
all of the necessary identifying information long after a divorce or 
separation to obtain call records.
Wireless Carrier Security Practices
    CTIA's members are committed to protecting customer privacy and 
security. This is no hollow pronouncement--we are talking about 
carriers protecting the privacy of their most valuable assets--their 
customers--as well as the very infrastructure of their networks. No 
carrier has an interest in seeing customer records disclosed without 
authority and every carrier has security policies and technical 
defenses to guard against it. I am also confident that our carriers are 
utilizing the best industry practices for combating fraud and ensuring 
security; however, the thieves who want to commit these crimes are 
constantly changing their tactics and approaches--staying one step 
ahead of them requires flexibility.
    Wireless carriers employ a broad range of security measures beyond 
those put in place to meet the Federal Communications Commission's 
(FCC) customer proprietary network information (CPNI) rules to prevent 
unauthorized access to and disclosure of CPNI. I would note that no two 
carriers can or should employ the exact same security procedures. I 
would caution Committee Members that as you proceed forward in drafting 
legislation that you consider the threat environment is constantly 
changing and static rules can quickly become outmoded or easily avoided 
by the fraudster. Additionally, CTIA in its comments to the EPIC 
petition for rulemaking at the FCC, noted that requiring wireless 
carriers to identify security procedures on the record and to further 
identify any inadequacies in those procedures would provide a roadmap 
to criminals to avoid fraud detection measures. Public disclosure 
potentially could lead to serious harm to consumers and carriers alike.
    CPNI is protected from unauthorized disclosure under Section 222 of 
Title 47 and the FCC's implementing rules. ``Every telecommunications 
carrier has a duty to protect the confidentiality of proprietary 
information.'' Every wireless carrier takes that duty seriously; it is 
the law. The FCC, too, has followed up strongly on that mandate. In its 
very first order after the passage of the Telecommunications Act of 
1996, the FCC directly addressed security concerns related to the 
protection of CPNI, and it has addressed the CPNI rules multiple times 
over.
    Consistent with Congress's intent in Section 222, the wireless 
industry has worked continuously to maintain and improve the security 
of its customers' private information. CSRs are trained extensively on 
the rules related to access, use and disclosure of call records. 
Technical restrictions are placed on access to call records to ensure 
that no one can walk off with a database of customer information, and 
CSRs are monitored to ensure they follow the necessary procedures. 
While we have heard stories about insiders selling call records on the 
side, we have not actually seen these cases. Instead, the vast majority 
of cases we have seen involve pretexting where the fraudster actually 
has all the necessary customer information to obtain the records.
    Wireless carriers have taken additional measures to reiterate to 
their customers that it is important to continue to take steps to 
protect their accounts by utilizing passwords. For example, T-Mobile 
``urges all users of mobile services to take the following password 
protection steps:''

  <bullet> create separate passwords for voice mail, online access, and 
        for use when calling customer care about your billing account

  <bullet> set complex passwords using both numbers and letters where 
        appropriate

  <bullet> avoid common passwords such as birthdates, family or pet 
        names and street addresses

  <bullet> change your passwords at least every 60 days

  <bullet> memorize your passwords, and

  <bullet> don't share passwords with anyone

    But passwords get lost or forgotten and in many cases, customers 
call a CSR to refresh a password. The ability to change a password 
remotely presents another pretexting opportunity. In short, passwords 
are not a ``silver bullet.'' Some carriers also report that some 
customers rebel against mandatory passwords, preferring instead to be 
empowered to make that choice individually, rather than by dictate.
    The Committee should be aware that carriers are extremely cautious 
when allowing any third party vendor access to call records. Carrier 
contracts contain strict confidentiality and security provisions. It is 
common for carriers, for example, to require that vendors represent and 
warrant that they have adequate security procedures to protect customer 
information and to provide immediate notice of any security breach to 
the carrier. This contractual framework flows down a carrier's own 
security standards to vendors who conduct customer billing 
responsibilities creating security in depth.
    One security practice we know now works is litigation. I cannot 
emphasize enough how seriously wireless carriers are taking these 
illegal and unauthorized attempts to obtain and traffic our customers' 
private information. These internal investigations have led to the 
carriers filing these cases which began months before the current media 
glare. As I mentioned at the beginning of my testimony, the four 
national carriers: Verizon Wireless, Cingular, Sprint Nextel, and T-
Mobile have all filed complaints and obtained injunctions across the 
country to shut these data thieves down. Moreover, smaller Tier II and 
Tier III wireless carriers are re-examining their security protocols to 
ensure their customers' privacy. The carriers' internal investigations 
against the data brokers made it possible to secure injunctions aimed 
at taking down the sites and preserving evidence so we can determine 
exactly who is buying the records through these brokers. We look 
forward to working with the Committee to utilize this information so 
Congress will be in a better position to draft legislation aimed not 
only at those who engage in pretexting, but also those that solicited 
the deed in the first place and later received the stolen property.
Customer Service Protections
    As I mentioned previously, carriers have taken additional security 
steps to require personal identification numbers and passwords when 
obtaining call record information. For example, when call records are 
accessed, it is logged in the customer service database, so the carrier 
can see who looked at what records. Further, CSRs are trained to 
annotate the customer record whenever an account change or event 
occurs. A CSR will note when a customer called and asked for his or her 
records. To prevent the fraudster from adding a fax or e-mail account 
identifier to another's account, many carriers have instituted a ban on 
faxing or e-mailing call records. It is important to remember, carriers 
are under tremendous pressure to quickly respond to customer calls. 
What was largely perceived as good customer service yesterday, is now a 
practice seen as a potential security flaw.
    Because of the highly competitive nature of the wireless phone 
industry, customer service is extremely important to wireless carriers 
and their customers. Wireless carriers collectively received hundreds 
of millions, if not billions, of customer inquiries in 2005. Inside our 
member companies, CSRs are striving to address the requests of 
customers as best they can with the very best interest of the customer 
at heart. Bearing this statistic in mind, it could prove 
counterproductive to enact legislation that would impede wireless 
customers' access to their own account information. Rules that may 
require in-person customer service would be a step backwards from the 
convenient and responsive customer service wireless carriers strive to 
achieve.
Conclusion
    Clearly, the privacy of a small percentage of our customers and 
your constituents' has been compromised. As far as I am concerned, the 
breach of even one wireless customer's calling records, is one customer 
too many. But to the best of my knowledge no system is foolproof, 
especially one that handles hundreds of millions of customer calls each 
year without the customer being present.
    The wireless industry wholeheartedly supports making it explicitly 
clear that the marketing, possession, and sale of call records is 
against the law. CTIA and its carriers are on record as supporting 
Congress's efforts to enact Federal legislation that criminalizes the 
fraudulent behavior by third parties to obtain, sell, or distribute 
call records. Carriers have been successful in using existing state and 
Federal law to obtain injunctions to shut down these Internet sites.
    If we have learned anything from this experience, it is that 
combating pretexting is a war where the unscrupulous continuously seek 
out vulnerabilities and weaknesses in the carrier defenses. 
Unfortunately, no defense will be perfect, which is why we need a good 
offense and strong enforcement measures against these criminals.
    Again, thank you for this opportunity and I welcome any questions 
you may have.

    Senator Allen. Thank you, Mr. Largent, for your comments.
    Now we would like to hear from Mr. Rotenberg.

  STATEMENT OF MARC ROTENBERG, EXECUTIVE DIRECTOR, ELECTRONIC 
                   PRIVACY INFORMATION CENTER

    Mr. Rotenberg. Thank you, Mr. Chairman and Members of the 
Committee, for the opportunity to be here today. I would like 
to ask that my full statement be entered into the record.
    Senator Allen. It is so ordered.
    Mr. Rotenberg. Thank you.
    I want to thank the Committee for holding this important 
hearing today, the sponsors of the legislation to safeguard the 
privacy of our cell phone records, and also the chairman of the 
FCC, who I think has taken important steps in the last few 
months to address this problem.
    Last summer my organization, the Electronic Privacy 
Information Center, EPIC, wrote to the Federal Trade Commission 
and we expressed our concern about a new problem that many 
people were not aware of. That was the fact that their cell 
phone records, those monthly billing statements that are 
received by more than 190 million Americans, were available for 
sale on the Internet. We asked the Federal Trade Commission to 
investigate the matter. We followed up with a supplemental 
filing after we had identified 40 different companies that were 
selling our monthly billing statements.
    We also filed a petition with the FCC and we expressed 
concern in that petition that the security standard simply 
seemed to be inadequate. Yes, we understood there were people 
engaging in fraud or pretexting to obtain personal information, 
but the companies also were not doing enough to safeguard the 
information. So we asked the FCC to look at its authority under 
section 222 to see if it could take more steps to ensure that 
there would be stronger security measures to protect those 
important call billing information records.
    Well, here we are today and it seems clear that it is time 
for Congress to do something about this problem. Even though it 
may be the case that fraud is illegal, there has just not been 
enough action on the enforcement front. In fact, last week, 
after the House hearing was held on the problem, the companies 
engaged in this practice had such an increase in activity that 
a couple of the websites actually had to go down because they 
could not take all the increased business resulting from the 
publicity surrounding their practices.
    So I am going to make a few suggestions about the type of 
steps that Congress could take at this point and at the same 
time acknowledge that many of the proposals that EPIC and other 
privacy and consumer groups will put forward are similar to 
those that have been suggested by the chairman of the FCC.
    First, it is clear that pretexting should be banned. If 
there is any question about this, it has to be answered that it 
is unfair, deceptive, unethical, illegal, and wrong. The ban 
should be broad, it should be emphatic, and the report should 
be no ambiguity about that practice.
    The second key point is that the sale of these monthly 
billing statements should be made illegal. There is just no 
scenario under which it makes sense for a company to take the 
records of who we have called each month and make that data 
available for sale. If those records are needed, for example by 
a law enforcement agent in the course of a criminal 
investigation, then there is subpoena or warrant authority. If 
those records are needed in civil litigation, subpoena can also 
be used. If an individual wants to disclose billing 
information, for whatever purpose, it can be done by consent.
    But there is no scenario, I believe, under which it makes 
sense to allow a market for the sale of personal phone records.
    The third key recommendation is that stronger security 
standards are clearly needed in this industry. We were, 
frankly, disappointed by the decision of the wireless industry 
to oppose our recommendation to the FCC for stronger security 
standards.
    Mr. Largent, I have a very simple recommendation for the 
companies in your industry: If they cannot protect the 
information, they should not collect the information. It is 
placing consumers at risk when their personal information can 
be obtained online over the Internet.
    Mr. Chairman, this goes to the final recommendation. This 
Committee of course over the years has had to consider many new 
communications services and oftentimes we have held these 
hearings about privacy-related issues. I think one of the 
lessons that we are learning is that when personal information 
is collected in the context of a communication service, it 
creates a privacy risk.
    We know that historically it was not always the case that 
this type of detailed call information was made available. 
Local call service traditionally in the United States was 
actually treated as a utility. It was only the long distance 
calls that included the detailed billing information. We know 
that there are new telephone services on the horizon, such as 
VoIP services, that take advantage of the Internet.
    So I would just like to suggest to you, sir, and other 
Members of the Committee that going ahead, if it is possible to 
develop communications services that do not require the 
collection of so much detailed personal information, at least 
the privacy problem will not be as serious as it is today for 
the American consumer.
    Thank you so much for the opportunity to testify.
    [The prepared statement of Mr. Rotenberg follows:]

 Prepared Statement of Marc Rotenberg, Executive Director, Electronic 
                       Privacy Information Center
Introduction
    Chairman Allen, Ranking Member Pryor, and Members of the Committee, 
thank you for the opportunity to testify on the privacy of telephone 
records. My name is Marc Rotenberg and I am Executive Director and 
President of the Electronic Privacy Information Center in Washington, 
D.C. EPIC is a not-for-profit research center established to focus 
public attention on emerging civil liberties issues and to protect 
privacy, the First Amendment, and constitutional values. We have played 
a leading role in emerging communications privacy issues since our 
founding in 1994.
    We thank the Members of the Committee and others who are developing 
legislation to address pretexting and to increase security standards at 
companies that collect and maintain data. We especially commend the 
sponsors of the Telephone Consumer Protection Act, S. 2178, and the 
Phone Record Protection Act, S. 2177, which would ban the sale of 
personal telephone records. These measures will help establish 
important safeguards for American consumers and keep call record 
details off the Internet, but more work remains to be done: Records 
other than telecommunications records must be protected from abuse for 
profit.
    In this statement today, I will summarize EPIC's efforts to bring 
public attention to the problems of pretexting and communications 
record sales; suggest several approaches to the problem, including a 
ban on pretexting and the restriction of the sale of telephone records; 
and make specific recommendations concerning current and future 
legislation.
EPIC's Efforts to Address Pretexting and Phone Record Sales
    In July 2005, EPIC filed a complaint with the Federal Trade 
Commission concerning a website that offered phone records and the 
identities of P.O. Box owners for a fee through pretexting. Pretexting 
is a practice where an individual impersonates another person, employs 
false pretenses, or otherwise uses trickery to obtain records.
    EPIC supplemented that filing in August with a list of 40 websites 
that offered to sell phone records to anyone online. In light of the 
fact that so many companies were selling communication records online, 
EPIC also petitioned the Federal Communications Commission, urging the 
agency to require enhanced security precautions for phone companies' 
customer records. \1\ Although telephone carriers unanimously opposed 
enhanced security requirements, proposing that lawsuits against 
pretexters would solve the problem, Chairman Martin of the FCC last 
week announced that he and his fellow Commissioners will be considering 
EPIC's petition and acting upon it within the next few days. The FCC 
has recognized that enforcement alone will not solve this problem. It 
will simply drive these practices underground, where they will continue 
with less public scrutiny. Simple security enhancements, such as 
sending a wireless phone user a text message in advance of releasing 
records, could tip off a victim to this invasion of privacy and block 
the release.
---------------------------------------------------------------------------
    \1\ Petition of EPIC for Enhanced Security and Authentication 
Standards, In re Implementation of the Telecommunications Act of 1996, 
CC Docket No. 96-115, available at http://www.epic.org/privacy/iei/
cpnipet.html.
---------------------------------------------------------------------------
Phone Records Are the Tip of the Problem
    While the sale of cell phone records has gained significant media 
attention, and telecommunications records are the focus of the two 
bills currently before the Senate, many other types of private records 
are being bought and sold in the public market. Alongside many 
advertisements for cell phone records, wireline records and the records 
associated with calling cards are advertised. As individuals shift to 
VoIP telephones, it is safe to assume that those records will be 
offered for sale as well, and we commend the authors of S. 2178, who 
have included this and other emerging technologies in their legislative 
efforts.
    However, the problem of record sales is not limited to the many 
methods of voice communication that we can use. Sites commonly 
advertise the ability to obtain the home addresses of those using P.O. 
Boxes. Some websites, such as Abika.com, advertise their ability to 
obtain the real identities of people who participate in online dating 
websites. A page on Abika.com advertises the company's ability to 
perform ``Reverse Search AOL ScreenName'' services, a search that finds 
the ``Name of person associated with the AOL ScreenName'' and the 
``option for address and phone number associated with the AOL 
ScreenName.'' \2\ The same page offers name, address, and phone number 
information for individuals on Match.com, Kiss.com, Lavalife, and 
Friendfinder.com. These are all dating websites that offer individuals 
the opportunity to meet others without immediately revealing who they 
are.
---------------------------------------------------------------------------
    \2\ See http://www.abika.com/Reports/
tracepeople.htm#Search%20Address/Phone%20
Number%20associated%20with%20email%20Address%20or%20Instant%20Messenger%
20Name.
---------------------------------------------------------------------------
    The availability of these services presents serious risks to 
victims of domestic violence and stalking. There is no reason why one 
should be able to obtain these records through pretexting, or outside 
of existing legal process.
    We therefore urge the Committee to follow up on Congress' excellent 
first steps by expanding pretexting bans, as well as restrictions on 
record sales, to cover other forms of communication, such as Internet 
services and other information services, as well as postal information.
In Addition to Pretexting, Sales of Communications Records Should be 
        Banned
    Just as initial attention on this issue needs to expand beyond cell 
phone records, discussion of solutions needs to look beyond merely 
banning one method of obtaining and abusing personal information. EPIC 
fully supports a ban on pretexting, as such action would make 
unmistakably clear the fact that such practices are unfair, deceptive, 
illegal, and wrong. However, any method used to obtain and sell a 
person's private records should be prohibited, whether that method 
involves pretexting, computer hacking, bribery, or other methods. In 
order to curb these invasions of privacy, consumers and law enforcement 
need to be able to pursue those who would offer private consumer 
information for sale, regardless of the methods used to steal it. We 
support the provisions in S. 2177 and S. 2178 that would ban the sale 
of consumers' telephone information.
    Banning the commercial sale of private consumer information is a 
necessary complement to banning pretexting, as it would ``dry up the 
market'' for illegally obtained telephone records. Such a prohibition 
would also allow consumers and consumer protection agencies to go after 
those who advertise privacy-invasive services without having to prove 
the specific techniques that the data brokers have used.
    EPIC has asked both the Federal Trade Commission and the Federal 
Communications Commission to take action on this issue. The FTC 
proposes a ban on pretexting; the FCC proposed a ban on commercial sale 
of records. EPIC believes that these efforts are necessary complements 
to the effort to protect consumers' communication records.
No Law Enforcement Exception
    Both of the bills introduced in the Senate have included exceptions 
for law enforcement. We recognize the need for law enforcement to gain 
access to communications records, and that is why there are existing, 
routine procedures under the law for such access, such as warrants and 
subpoena powers. We note that Senator Schumer's bill notes that any law 
enforcement acquisition of records must be made ``in accordance with 
applicable laws,'' and we agree that such a caveat is necessary. EPIC 
would go further, however, in urging that, since such procedures for 
law enforcement access exist, there is no need for law enforcement to 
engage in the fraud that these bills are trying to prevent.
Carriers and Other Holders of Personal Information Should Have Legal 
        Obligations to Shield Data From Fraudsters
    The acquisition and sale of these records, however, is only a part 
of the problem. Pretexting works because phone companies and others who 
store our communications records fail to adequately protect our 
personal information. Phone companies can be fooled into releasing 
information easily because releases of customer information are so 
routine, and because they use inadequate means to verify a requester's 
identity. If carriers only require a few pieces of easily-obtained 
information to verify a requester's identity (such as date of birth, 
mother's maiden name, or a Social Security number), then pretexters can 
impersonate account holders and obtain records with ease. All of this 
information is easily obtained in commercial databases or in public 
records. Furthermore, the online data brokers who do the pretexting 
often have easy access to these banks of private dossiers on 
individuals.
    If legislation that is to fully address the problem of private 
information sales, Congress must look not only at the practices and 
tactics used by bad actors, but also at the loopholes and 
vulnerabilities they exploit. Laws that criminalize deceptive, unfair, 
and privacy-invasive sales must be complemented by laws and regulations 
that strengthen communications privacy and security.
Carriers Should Limit Data Retention and Disclosure
    An even more fundamental question in this discussion--more 
fundamental than how data brokers pretext information, or what 
vulnerabilities they exploit--is why this sensitive information is 
there to be stolen in the first place. The records that data brokers 
buy and sell online are often simply our past phone bills. The numbers 
we dial, the times of our calls, and the length of our conversations 
are known because of the way in which the cellular billing system is 
structured.
    One way to alleviate this problem would be to delete records after 
they are no longer needed for billing or dispute purposes. This, 
however, could leave consumers still vulnerable in the time between 
payment periods. Another alternative would be simply to not record and 
disclose all of this information. If telephone service were billed as a 
utility, as it was in the past for local service and may be in the 
future with VoIP service, many of the threats to privacy would simply 
disappear. The concept of data limitation--that data should only be 
collected and stored when necessary--can be applied not only in 
protecting call records, but other sensitive personal information. 
Senators Specter and Boxer's proposal, S. 1350, the Wireless 411 
Privacy Act, to provide privacy for consumers' mobile phone numbers is 
a good example of this important privacy safeguard. If the number need 
not published in directories or in billing records, then it should not 
be provided, and opportunities for abuse are reduced by just that much.
    The vulnerabilities that our by-the-minute system of billing build 
into our phone records is a good example of how decisions made about a 
communication system's initial structure and function create built-in 
privacy issues. In a letter that EPIC sent to then-Chairman Powell of 
the FCC, we noted that the emergence of new communications systems, 
such as Internet telephony, requires that Congress and executive 
agencies look forward in creating privacy-protective regulatory 
frameworks into which the new technologies can grow. \3\ We support the 
provisions in Senator Durbin's bill that extend anti-pretexting 
provisions to next-generation wireless communications, as well as 
Senator Schumer's inclusion of Internet telephony and other 
communications services.
---------------------------------------------------------------------------
    \3\ Letter of EPIC to FCC Chairman Powell, Dec. 15, 2003, available 
at http://www.epic.org/privacy/voip/fccltr12.15.03.html.
---------------------------------------------------------------------------
    We hope that the Committee will act on the proposals from Senator 
Schumer and Senator Durbin to protect the privacy of customers' phone 
records. There is no good reason that our monthly call billing records 
should be available for sale on the Internet.

    Senator Allen. Thank you, Mr. Rotenberg. We appreciate your 
comments and your testimony and your insight.
    Now we would like to hear from Mr. Robert Douglas.
    Mr. Douglas.

     STATEMENT OF ROBERT DOUGLAS, CHIEF EXECUTIVE OFFICER, 
                        PrivacyToday.COM

    Mr. Douglas. Thank you, Chairman Allen, Ranking Member 
Pryor, Senator Smith, and Members of the Committee. It is a 
pleasure to be here today. As you mentioned before, I was a 
private investigator in Washington, D.C., for the better part 
of 20 years. For the last 9 years, I worked as an information 
security consultant, specifically on the issue of theft of 
consumer records, and I served as a consultant to the FTC in 
Operation Detect Pretext, which has been mentioned, to the 
Florida statewide grand jury on identity theft, and 
specifically in a murder case in New Hampshire where a young 
woman named Amy Boyer was murdered when this type of 
information was stolen, and I will address that in just a 
moment.
    I have submitted very extensive written testimony, but I 
would like to use pictures, if I could, instead of words in my 
5 minutes to demonstrate what is happening, what is out there, 
and maybe bring a face to what we are discussing today, Mr. 
Chairman.
    [Screen.]
    The screen up right now is CellularTrace.com. This is one 
of the companies that was named in the EPIC complaint. I worked 
with EPIC's Chris Hoofnagle in putting together the 40 
companies that were named in that complaint last July. And this 
company is continuing to sell specific cell phone records and, 
as Mr. Rotenberg noted, this is one that has a notice up about 
how inundated they are being with business. They are saying 
right now: ``Notice. As a result of the recent newscast on 
cellular research, we have been completely inundated with 
orders. We are getting caught up as quickly as possible, but 
those placing the orders should expect delays.'' This may be 
one of the companies--I believe, Mr. Smith, you referenced this 
issue earlier--that is operating offshore, but we are taking a 
look at that right now.
    I also want to address some of the tangential issues which 
address how they are getting some of this information.
    [Screen.]
    This is a website called HackersHomePage.com, where they 
are specifically selling a voice-changing device, telephone 
voice changer. I have noticed in one of the suits brought by 
Verizon they have publicly acknowledged that one of the methods 
being used to defeat their call center operators customer 
authentication procedures was to impersonate a nonexistent 
division of Verizon, claiming to be--I do not even really need 
the microphone, evidently--claiming to be a division that helps 
disabled customers who have problems using their voice. So when 
the call center operator says to the pretexter, well, I still 
need to speak to the customer, they just use this voice changer 
to change their voice and continue to be one and the same 
thief.
    [Screen.]
    This is a site called SpoofTel, Spoof Telephone, and these 
types of websites and actual devices that are for sale all over 
the Internet are used by private investigators and information 
brokers as part of pretext, allow you to make any caller ID 
system look like it is coming from a different number. So Kevin 
Mitnick, who is known in social engineering circles, hacking 
circles, once demonstrated how he could make a call look like 
it is coming from the White House.
    More specifically for what we are talking about today, you 
could make the call look like it is coming from your telephone 
carrier, thereby duping the customer themself into turning over 
important information to then beat the customer authentication 
protocols that the phone companies have.
    What I would like to close my testimony with is talking 
about where we were back in 1998. I testified at that time and 
my testimony with others resulted in the anti-pretext 
legislation contained in Gramm-Leach-Bliley, and I find myself 
having a little deja vu. I am here again on a similar issue, 
different type of record.
    At that time, as there has been some mention about danger 
to police officers, there was a company, Touchtone, as 
mentioned by the FTC today. But in addition to stealing 
financial record information, they stole thousands and 
thousands of phone records of Americans. They were involved in 
stealing records in the Clinton-Lewinsky investigation, in the 
JonBenet Ramsey investigation, in the murder of Bill Cosby's 
son Enis Cosby.
    But most relevant to what we are talking about today, they 
sold the phone records of undercover Los Angeles police 
officers to organized crime in an ongoing investigation--not a 
what-if with the FBI buying records, not a what-if with the 
Chicago Police Department. This has happened already. That is 
one we know about. I am sure it has happened many other times.
    [Screen.]
    This company, Docusearch, same timeframe, back in 1998-1999 
when Gramm-Leach-Bliley was being signed into law, advertised 
and continues to advertise to this day--Mr. Chairman, when we 
spoke before the hearing this afternoon I told you I would talk 
about a company in your home State. That is Docusearch. That is 
Dan Cohen, who owns it, who moved from Florida after he was 
sued in the Boyer murder case and now operates right out of 
Northern Virginia.
    To this day--this is today on his website--he is trumpeting 
that he was the featured cover story article in Forbes Magazine 
November 1999, as Gramm-Leach-Bliley was being signed into law, 
bragging about how he steals financial records and phone 
records, specifically phone records back at that time.
    [Screen.]
    Well, we should have paid attention, because this woman, 
Amy Boyer, who was 20 years old, had her whole life ahead of 
her, was murdered, and she was murdered by this man, Liam 
Youens, standing in the corner of his bedroom with an AK-47, 
shortly before he went out and gunned her down. He was telling 
the world on this website that I have got one captured page 
from here, documenting for the better part of a year how he 
obtained information on her. And while it was not specifically 
phone records, it was her employment address, obtained through 
pretext--part of what we are talking about today.
    The sad and sick thing was they called her mother and 
impersonated an insurance company and said they had an 
insurance refund from her. So her mother today says: I was an 
accomplice to my own daughter's murder.
    I will close with what he says at the end, which is that 
``It is actually obscene what you can find out about somebody 
on the Internet.'' He wrote those words right before he left on 
October 15, 1999, and murdered Amy. With that, I will avail 
myself to your questions, Mr. Chairman.
    [The prepared statement of Mr. Douglas follows:]

    Prepared Statement of Robert Douglas, Chief Executive Officer, 
                            PrivacyToday.com
    Chairman Allen, Ranking Member Pryor, Members of the Committee, my 
name is Robert Douglas and I thank you for the opportunity to appear 
before this Committee to address the Committee's concerns about the 
theft of Americans' phone records.
I. Background and Basis of Knowledge
    I am the CEO of PrivacyToday.com and work as an information 
security consultant to the private and public sectors on issues 
involving all aspects of identity theft, identity fraud, and customer 
information security. During the past nine years, I have assisted the 
financial services industry, the general business community, 
government, and law enforcement agencies to better understand the scope 
and methodology of identity crimes through educational materials, 
presentations, auditing, and consultation.
    My specialty is monitoring and investigating the practices of 
identity thieves, illicit information brokers, and illicit private 
investigators that use identity theft, fraud, deception, bribery, 
social engineering, and ``pretext'' to steal customer and proprietary 
records from a wide range of businesses. Additionally, I teach 
businesses, government agencies, and law enforcement how to detect and 
defend against these forms of theft in order to better protect all 
Americans.
    This is my seventh appearance before the United States Congress to 
discuss information security. Most relevant to today's hearing, I 
worked in 1998 with the House Financial Services Committee to expose 
the use of ``pretext'' and other forms of deceptive practices to steal 
and sell consumers private financial records maintained by financial 
institutions. That work resulted in the July 28, 1998 hearing titled 
``The Use of Deceptive Practices to Gain Access to Personal Financial 
Information''. Testimony offered at that hearing resulted in the Gramm-
Leach-Bliley Act provisions outlawing the use of deceptive practices to 
gain access to financial account information. In follow-up testimony I 
presented in a September 13, 2000 hearing before the same committee 
acting in its oversight capacity, I discussed the emerging and growing 
threat of deceptive practices being used to gain access to phone 
records--the precise issue before you today. [The 1998 and 2000 
testimonies, along with my other congressional testimonies are 
available at PrivacyToday.com/speeches.htm]
    Following the 2000 testimony I served as a consultant and expert to 
the Federal Trade Commission in the design and execution of Operation 
Detect Pretext, a sting operation to catch and civilly prosecute 
companies participating in the illicit information market.
    In 2002, I testified as an expert witness on illicit information 
brokers and the role they play in identity theft and fraud before the 
Florida Statewide Grand Jury on Identity Theft.
    From 2001 to 2004, I was an expert witness and consultant for the 
plaintiffs in Remsburg v. Docusearch, a suit brought by the parents of 
Amy Boyer against a private investigator selling illicitly obtained 
personal information via a website. Ms. Boyer was murdered by an 
infatuated young man who purchased Ms. Boyer's Social Security number, 
date of birth, and place of employment from Docusearch who employed a 
``pretexter'' to impersonate an insurance company official to obtain 
the employment address of Ms. Boyer. Subsequently the killer gunned 
down Ms. Boyer as she left work.
    I am currently serving as a consultant in a Pennsylvania murder 
case involving the sale by a private investigator of data-mining 
``research'' about the victim to a deranged former employee who used 
the ``research'' to locate the victim and kill him.
    I assisted Chris Hoofnagle of EPIC West, who deserves full credit 
for this issue reaching the attention of Congress, with the amended 
complaints submitted to the FCC and FTC by compiling the 40 companies 
named therein.
    I have lectured before local, state, Federal and international law 
enforcement, banking, and business associations on the topic of 
identity crimes.
    I am the author of ``Spotting and Avoiding Pretext Calls'' which 
was distributed by the American Bankers Association to all member 
institutions. I am also the author of ``Privacy and Customer 
Information Security--An Employee Awareness Guide'', a training manual 
that has been used by numerous banks and businesses to train employees 
to defend against deceptive practices designed to steal customer 
information.
    Prior to my work as an information security consultant. I was a 
Washington D.C. private detective.
II. Identity Thieves Use the Same Methods
    I'd ask the Committee to keep one important fact in mind while 
investigating the practices of illicit information brokers and illicit 
private investigators stealing phone and other consumer records. The 
methods used by those industries are used by identity thieves and 
financial criminals every day in this country to defeat customer 
information security systems for a wide range of businesses.
    Additionally, in each case I've worked involving web-based illicit 
information providers, when we have been able to review the files of 
the company, there have been indications of identity thieves and other 
criminals--including stalkers--using those companies to buy information 
about Americans. Finally, as we are focusing on phone records today, I 
would hazard an educated opinion that one of the reasons that the FTC 
lists cell phone fraud as one of the most common forms of fraud 
resulting from identity theft is the ease with which cell phone records 
are stolen or purchased on the Internet.
    For further background information, I recommend reading ``Your Evil 
Twin,'' by Bob Sullivan. I'd also like to recommend Robert O'Harrow's 
``No Place To Hide'' as an excellent work on the growing data-mining 
industry and a number of the public policy issues raised by this 
industry.
III. The Illicit Sale of Phone Records and Much More
    News reports have served an important role in bringing the problem 
of web-based information brokers and private investigators selling 
detailed phone records to the attention of this Committee, Congress, 
and the American people. While reporting by Robert O'Harrow of the 
Washington Post and Bob Sullivan of MSNBC on the sale of phone records 
dates back to the late 1990s, the issue has only recently caught the 
full attention of the American consumer and law enforcement agencies 
across the country.
    In part this was due to the work of Frank Main at the Chicago Sun-
Times who discovered that the Chicago Police were concerned that the 
sale of detailed cell phone records could jeopardize the safety of 
police officers and criminal investigations. Subsequently, Frank Main 
reported that the FBI was alarmed to learn in a test purchase of a web-
based information broker that anyone could obtain the cell phone 
records of a FBI agent within a matter of hours from placing the order.
    As the Committee will learn a bit later in my testimony, the 
Chicago Police and FBI were correct in their concerns as years ago the 
phone records of Los Angeles police officers had been sold by an 
information broker to organized crime.
    But for the most part, the overwhelming number of news reports has 
inadvertently served to minimize the scope and extent of the problem. 
While the vast majority of reporting has focused on cell phone records 
and a small number of web-based brokers selling those records, the 
reality is that all entities that maintain consumer and proprietary 
information are under attack. The list includes, but is not limited to, 
telecommunication (including e-mail and Internet service providers), 
cable and satellite television, utility (including electric, gas, water 
and sewer companies), and financial industries, plus all government 
agencies. In short, any business or government agency maintaining 
customer records or confidential proprietary information is at risk 
because identity thieves, illicit information brokers, illicit private 
investigators, corporate spies, and con artists know quite often the 
most effective tool for stealing highly valued information is the 
telephone.
    In addition to minimizing the types of consumer information for 
sale, recent news reports have also inadvertently minimized the number 
of outlets and methodologies via which phone records can be purchased 
or stolen. Even the range of telecommunications records for sale has 
been inadvertently minimized with most media focusing on just the sale 
of cell phone records.
    Specifically, there are far more web-based illicit information 
brokers and illicit private investigators than the 40 cited in the EPIC 
West complaint and there are a myriad of methods used to defeat phone 
company information security protocols far beyond the simple pretext of 
impersonating the customer. Additionally, when considering phone 
records, all types of telecommunications records are for sale--from 
home and business phone records to cell phone records to reverse-911 
cell tower location information to pager records to GPS tracking 
devices to name just a few categories.
    Finally, the reporting has inadvertently minimized the dangers 
posed by phone records and other forms of information stolen by means 
of pretext falling into the wrong hands when information brokers and 
private investigators sell either information obtained through pretext, 
or even database information, to individuals without any understanding 
of why the individual wants the information. Murders and assaults have 
occurred when information brokers and private investigators have not 
taken adequate steps to understand who they are providing information 
to.
    With the caveat that all consumer records and government/business 
proprietary information are at risk; that there are far more than the 
40 brokers and investigators selling phone and other records cited in 
the EPIC West complaint; and, that these records in the wrong hands 
have caused severe harm--including loss of life, I will confine the 
remainder of my testimony to the sale of phone records obtained most 
commonly through pretext and other forms of deception.
IV. To Understand Why Records Are Sold, You Need To Know Who Buys Them
    To understand why the phone records of practically any American--
from former presidential candidate General Wesley Clark to women hiding 
under threat of violence--are for sale on the Internet, you need to 
know who is buying the bulk of the phone records that are obtained 
through illicit means. The overwhelming majority of phone records are 
purchased by attorneys, private investigators, skip tracers, debt 
collectors, and the news media.
    Attorneys purchase the records as a means of discovery in all forms 
of litigation from divorce, to criminal defense, to ``business 
intelligence''. Private investigators buy phone records as a means of 
locating witnesses, developing leads, and developing evidence. Skip 
tracers use phone records to locate hard to find individuals who may be 
using deceit themselves to cover their tracks. Debt collectors find 
phone records a valuable tool in locating ``deadbeats'' who may be 
hiding from the collector and/or hiding assets. The news media--
especially the tabloid press--want phone records to track celebrities' 
lives and develop leads in cases like the JonBenet Ramsey murder, the 
Columbine massacre, and the freeway slaying of Bill Cosby's son. Each 
of these categories of users and purchasers have at one time or another 
made impassioned pleas to me that they need access to phone records--
outside of normal judicial review processes--to conduct what they argue 
are socially beneficial services.
    These buyers and their thirst for the information contained in 
detailed phone billing records resulted in the market and the cash flow 
that fed and encouraged the online sale of phone records. Specifically, 
the methods for stealing phone records had been known and in use for 
decades in order to service attorneys, private investigators, skip 
tracers, debt collectors, and the news media. With the advent of the 
Internet and the World Wide Web it was only a matter of time before 
some illicit information broker or private investigator decided to 
advertise the availability of phone records on the web. And once the 
first ads appeared and other brokers and investigators learned how much 
money could be made selling phone records via the Internet--in some 
instances more than a million dollars per year for small operations--
the feeding frenzy was on. So today there are hundreds of ads on the 
web (and in legal and investigative trade journals) for phone records 
and phone ``research''. And contrary to the language on those sites 
claiming to limit sales of personal information to attorneys, 
investigators, skip tracers, debt collectors, and bail bondsmen, most 
of these companies will sell to anyone as long as they think you're not 
a reporter or law enforcement agency conducting a media expose or sting 
operation. Frankly, greed is the name of the game.
    Those hundreds of ads on the web only represent the tip of the 
iceberg. Two other factors combine to push the total to thousands of 
outlets for purchasing phone records. First, many brokers and 
investigators don't advertise on the web or at all. These brokers and 
investigators work beneath the surface and develop clients by word of 
mouth while shunning publicity. Many of these hidden brokers and 
investigators are the actual sources--once removed--for the information 
sold via the web as many of the web-based operators are not skilled in 
the methods of stealing customer information and serve as mere front 
companies. Second, the brokers and investigators who shun a web 
presence but supply many of the web-based operations, also supply other 
brokers and investigators throughout the country who don't openly 
advertise on the web or anywhere else. And often those brokers and 
investigators service other brokers and investigators in a spider web 
or pebble-dropped-in-the-pond effect. Through this black market phone 
records may pass through several sources--at times including a bribed 
phone company insider--before reaching the eventual buyer. So in 
reality there are thousands of brokers and investigators, on the web 
and off, comprising the totality of suppliers of illicit phone records. 
And the records are now for sale to anyone who wants them--regardless 
of reason.
V. How Phone Records Are Obtained
    Phone records are obtained through numerous methods and sources. 
Some of these methods and sources have been publicly discussed--some 
have not.
    By far the most common method is the use of ``pretext''. Pretext, 
used in this fashion, is the method of convincing someone you are a 
person or entity entitled to obtain the records sought. The term 
``pretext'' when used in the context of obtaining confidential, 
statutorily protected, or consumer and proprietary information is 
actually a misnomer used by illicit brokers and investigators to add an 
air of legitimacy to the fraud they commit. The reality is pretext is a 
combination of identity theft and fraud. Identity theft because the 
individual carrying out the pretext needs to assume the identity of the 
rightful owner of the information sought--usually including 
biographical information such as name, address, Social Security number, 
and date of birth--in order to impersonate that individual during the 
pretext. Fraud because once impersonating that individual, the 
pretexter defrauds the rightful custodian of the information sought 
into turning the information over to an improper recipient.
    To further understand pretext you need to know the code of the 
identity thief, broker, or investigator seeking information they don't 
have legitimate access to.

        1) Know what piece of information you want.
        2) Know who the custodian of the information is.
        3) Know who the custodian will release the information to.
        4) Know under what circumstances the custodian will release the 
        information.
        5) Become that person with those circumstances.

    Once you know the code and apply a little imagination and bravado, 
you can steal almost any piece of information in this country.
    But again, contrary to most reporting on this subject, the number 
of pretext methods and variations of those methods are vast and far 
beyond just merely impersonating the consumer. By way of example, in a 
state action brought under an unfair and deceptive trade practice 
statute captioned Massachusetts v. Peter Easton, Easton was caught 
calling into banks impersonating a Federal banking official in order to 
get the banks to surrender consumer financial account records. In one 
of the current Verizon cases involving phone records, there is report 
indicating the information brokers were impersonating Verizon employees 
assisting disabled account holders. These are just two of literally 
dozens of variations of methods I am aware of that succeed thousands of 
times each day in defeating phone and other companies customer 
authentication procedures.
    An important aspect in the conduct of a pretext is the ability of 
the illicit information broker or private investigator to purchase data 
about the individual consumer they seek to impersonate. After all, to 
fraudulently convince a customer call center representative that the 
pretexter is the actual customer, the pretexter needs to know the full 
name, Social Security number, date of birth, address, and other forms 
of personal identifying information of the actual account holder. In 
order to gain access to this information, the illicit information 
brokers and private investigators need to have subscriber accounts with 
legitimate data-mining companies--also commonly referred to as 
information brokers.
    Beginning approximately a year ago, it became more difficult for 
illicit information brokers and private investigators to get or 
maintain subscriber accounts with the large legitimate data-mining 
information brokers. This is because in the wake of reports of data 
breaches by legitimate information brokers and a wide variety of other 
businesses maintaining consumer records--coupled with congressional 
hearings examining the data breach problems and the ease with which 
personal information like Social Security numbers could be purchased 
from many of the illicit brokers and investigators we are discussing 
today--the legitimate data-mining information brokers began to curtail 
and in some cases terminate all sales of information to private 
investigators and other business lines with a history of improper 
resale or use of database information.
    But other small and mid-size companies have stepped in to fill the 
void and continue to provide Social Security numbers and other personal 
identifiers to illicit information brokers and private investigators. I 
am aware of at least a dozen companies that illicit information brokers 
and illicit private investigators are using to obtain full social 
numbers and other biographical data in order to conduct pretexts 
against consumers and businesses. This is an issue crying out for 
attention by Congress.
    The second most common method of gaining illicit access to phone 
records is bribery of a company employee or even the trade of 
information with inside employees working in skip-tracing and 
collection divisions within phone companies. There is a small but 
constantly present underground network of employees who trade 
information--sometimes lawfully, sometimes not--and those seeking 
information that have no lawful right to that information have learned 
how to tap those resources.
    While I am not aware specifically of a case involving phone records 
where threats of violence were used to coerce phone company employees 
to supply information to criminals, that has happened in the financial 
services community resulting in Federal banking regulatory agencies 
warning financial institutions of the trend a number of years ago. I 
would not be surprised if this was happening to phone company employees 
as well. Remember--information equals cash to all sorts of information 
thieves and they will do anything necessary to obtain the information 
they seek.
    Finally, I have a substantial amount of evidence developed over 
nine years on methods, tactics, and sources used to obtain phone 
records that is inappropriate for revelation in an open hearing. I'd be 
happy to share this with the Committee, enforcement agencies, the phone 
associations, or companies in a closed setting.
VI. Phone Record Sales and ``Spoofing'' Services on the Web Are Most 
        Alarming
    While the totality of brokers and investigators selling phone 
records are troubling, the Internet-based operations are most alarming 
for the simple reason that by their very nature they allow a buyer to 
easily conceal their identity and intent in purchasing another 
citizen's records. This anonymity is a criminal's delight. From 
identity thieves to stalkers to child predators to corporate spies, the 
ability to conceal the identity and intent of the end user of the 
records is paramount.
    Additionally, when consumers see the websites advertising the sale 
of phone records and services like Caller-ID ``spoofing'' services 
designed to defeat Caller-ID, it increases mistrust between the 
consumer and businesses Americans provide information to, and increases 
the belief by many consumers that the government isn't protecting the 
American consumer.
    Web-based services like spooftel.com and the open sale of devices 
designed to show a different number on a Caller-ID system than the 
actual number the call is being placed from can be used as part of 
pretext and can even be used to defeat security systems for voice mail. 
In one well known demonstration of Caller-ID spoofing, convicted 
``hacker'' Kevin Mitnick demonstrated for a reporter how he could make 
a call look like it was coming from the White House.
    The use of spoofing services and devices as part of pretext is so 
well known within the investigative and information broker industries 
that advice on how to pick the best services is often bantered about. 
Here's an example:

    If you are considering using one of the numerous Caller ID Spoofing 
services, you may want to know several things before you sign-up.

        1. Can this service be employed as part of your PI business, or 
        is it just to be used for entertainment purposes?

        2. If it is to be use only for entertainment purposes, do they 
        offer a commercial version, and if so what are the differences?

        3. Do they record/log all transactions?

        4. Can you call 800 numbers, or other toll free line?

        5. Can you call financial institutions through their website, 
        even if the financial institution is one you have an account 
        with?

        6. Can you use an anonymous Internet surfing software product 
        (these change your IP number and make you appear as if you are 
        accessing the Internet from another state, country, etc.) to 
        access their website?

        7. Will they inform you if they suspect fraudulent activity? 
        What is their method for settling such a dispute?

        8. Will they supply you with a list of all the activities that 
        can lead to a cancellation of your account?

    I raise the issue of Caller-ID spoofing fraud so this Committee 
will be aware that the extent of the problem is far more than just the 
sale of phone records. It is a myriad of techniques and use of 
technology designed to defeat information security systems. The use of 
these technologies--specifically Caller-ID spoofing devices and 
services should be outlawed immediately.
VII. Did The FTC Give Tacit Approval To The Sale Of Phone Records?
    Given how prevalent and open the sale of phone records is, this 
Committee must be wondering how these companies and their devious 
practices have remained untouched by the Federal Trade Commission and 
other enforcement agencies. After all, the FTC is charged with stopping 
unfair and deceptive trade practices.
    Congress and the American people have a right to ask a series of 
questions of the Federal Trade Commission when it comes to the sale of 
phone records. The questions include:

        a) Was the FTC aware of the sale of phone records prior to 
        recent news accounts?

        b) If the FTC was aware, for how long has the FTC been aware?

        c) Prior to recent media revelations and Congressional demands, 
        did the FTC take aggressive steps to stop the sale of phone 
        records?

        d) Did the FTC signal tacit approval of the sale of phone 
        records by private investigators?

        e) Why has the FTC been AWOL when it comes to protecting phone 
        records?

    These questions are fair as, after all, the FTC is supposed to be 
the watchdog for the American consumer. Given my work with, study of, 
and access to information concerning the role of the FTC when it comes 
to illicit information brokers and private investigators I'd like to 
posit answers to the above questions as I believe the reality is that 
when it comes to phone records--and all other illicitly obtained 
consumer records--the watchdog is nothing more than a lapdog on a leash 
held by the illicit information brokers and private investigators.
a) Was the FTC Aware of the Sale of Phone Records Prior to Recent News 
        Accounts?
    Yes. The FTC has been aware of the sale of phone records due to the 
Touch Tone Information case, Operation Detect Pretext, the Boyer murder 
case, and direct interaction and communication with the private 
investigative profession--including direct inquiries from PI Magazine 
on the FTC's views regarding pretexting for phone records.
b) If the FTC Was Aware of the Sale of Phone Records, For How Long Has 
        the FTC Been Aware?
    The FTC has been aware of the problem since at least April of 1999 
when the FTC filed an action against Touch Tone Information. While the 
FTC brought the action against Touch Tone for the sale of consumer 
financial information obtained by means of deception, the Touch Tone 
records available to FTC staffers were replete with thousands of 
instances of phone records being obtained and sold by means of 
deception.
    In 2002, I interviewed the Colorado Bureau of Investigation 
detectives who broke the Touch Tone case and whose work the FTC piggy-
backed in bringing the FTC complaint against Touch Tone. The detectives 
informed me the FTC showed little interest in following up on the 
voluminous records contained in the files of Touch Tone showing a vast 
network of hundreds of private investigators, attorneys, and media 
outlets around the country using Touch Tone to obtain phone and other 
records.
    For example, as documented by the Washington Post, Touch Tone sold 
Kathleen Willey's phone records to a Montgomery County, Maryland 
private investigator during the investigation of President Clinton.
    Additionally, the Touch Tone records contained the following letter 
listing phone and other records sold by James Rapp, co-owner of Touch 
Tone, about participants in the JonBenet Ramsey murder investigation as 
reported by the Denver Post in a June 26, 1999 article titled, ``Letter 
Details Information Rapp Dug Up''. Each reference to ``tolls'' means 
detailed phone records.
    Here is the text of an undated letter purportedly written by James 
Rapp to a private investigator in California named Larry Olmstead, 
owner of Press Pass Media. Olmstead used Rapp to get information for 
his clients, primarily tabloid media outlets, prosecutors say.

    Dear Larry,

    Here is a list of all Ramsey cases we have been involved with 
during the past lifetime (sic).

    1. Cellular toll records, both for John and Patsy.
    2. Land line tolls for the Michigan and Boulder homes.
    3. Tolls on the investigative firm.
    4. Tolls and home location on the housekeeper, Mr. and Mrs. Mervin 
Pugh.
    5. Credit card tolls on the following:

        a. Mr. John Ramsey, AMX and VISA
        b. Mr. John Ramsey Jr., AMX.

    6. Home location of ex-wife in Georgia, we have number, address and 
tolls.
    7. Banking investigation on Access Graphics, Mr. Ramsey's company, 
as well as banking information on Mr. Ramsey personal.
    8. We have the name, address and number of Mr. Sawyer and Mr. 
Smith, who sold the pictures to the Golbe (sic), we also have tolls on 
their phone.
    9. The investigative firm of H. Ellis Armstead, we achieved all 
their land and cellular lines, as well as cellular tolls, they were the 
investigative firm assisting the Boulder DA's office, as well as 
assisting the Ramseys.
    10. Detective Bill Palmer, Boulder P.D., we achieved personal 
address and numbers.
    11. The public relations individual ``Pat Kroton'' (sic) for the 
Ramseys, we achieved the hotel and call detail where he was staying 
during his assistance to the Ramseys. We also have his direct cellular 
phone records.
    12. We also achieved the son's John Jr.'s SSN and DOB.
    13. During all our credit card cases, we acquired all ticket 
numbers, flight numbers, dates of flights, departing times and arriving 
times.
    14. Friend of the Ramseys, working with the city of Boulder, Mr. 
Jay Elowskay, we have his personal info.

    But that was not all, nor was it the most alarming aspect of the 
sale of phone records contained in the Touch Tone case the FTC had 
access to. Through a conduit Touch Tone had sold phone and pager 
records of Los Angeles police officers to organized crime.
    Again, the Denver Post reported on this shocking set of facts in a 
June 29, 1999 article titled, ``Accusations against Rapps Widen, Pair 
Allegedly Sold Phone Numbers of L.A. Cops to Mobster''. Here is the 
text of the article:

        James Rapp, the Denver private detective charged with 
        trafficking in confidential information about the Ramsey murder 
        case, also furnished the private phone numbers of police 
        officers to a member of the so-called ``Israeli mafia,'' 
        authorities say.

        Rapp allegedly got the unlisted home phone numbers and pager 
        numbers for some Los Angeles police officers and funneled them 
        through a middleman to Assaf Walknine, a reputed Israeli mafia 
        member who'd been arrested on forgery charges, according to an 
        affidavit unsealed Monday. Colorado Bureau of Investigation 
        agent in charge Mark Wilson said the release of officers' 
        numbers can be extremely dangerous.
        ``Not only is it dangerous, but it definitely could compromise 
        any investigation that could be ongoing,'' he said.
        Rapp and his wife, Regana, were indicted last week by the 
        Jefferson County grand jury on two counts of racketeering, 
        charges that carry maximum penalties of 24 years in prison and 
        fines of $1 million on conviction.
        Authorities claim the Rapps ran a detective agency, Touch Tone 
        Information Inc., that used subterfuge to obtain confidential 
        information about the JonBenet Ramsey murder investigation and 
        passed it to the world tabloid media.
        The pair surrendered Monday. They were jailed, then released on 
        bond of $25,000 for him and $10,000 for her.
        The CBI started investigating the Rapps in January after 
        getting a referral from the Los Angeles Police Department, the 
        affidavit says.
        The LAPD alleged that the Rapps helped get phone numbers of 
        police officers for Walknine after Walknine's arrest in 
        connection with an alleged scheme to forge credit cards and 
        gold coins.
        Authorities believe that Walknine also ``cloned'' the pagers 
        worn by the officers. For instance, every time L.A. Detective 
        Mike Gervais would be paged, the person paging him would get a 
        call from Walknine, the affidavit says.
        The middleman between Walknine and the Rapps was a former L.A. 
        cop and convicted felon named Mike Edelstein, the affidavit 
        says.
        ``LAPD is most interested in Edelstein,'' CBI agent Bob Brown 
        said. ``He was buying the information for Walknine from (the 
        Rapps). As I understand it, when Walknine was arrested, he 
        admitted he got this information from Edelstein--the pager 
        numbers, the home telephone numbers and home addresses of LAPD 
        officers.
        ``At one point, Edelstein actually showed up at the front door 
        of one of the police officers while the officer was at work and 
        his wife answered the door,'' Brown said. ``He gives his name 
        and walks away. The officer believes Edelstein was stalking him 
        or in some way trying to intimidate him.''
        Brown said Edelstein was a cop who was fired from the Los 
        Angeles Police Department. Edelstein served a prison sentence 
        for possession of an automatic weapon and, after getting out of 
        prison, became a private investigator, Brown said. He later 
        began using the Rapps and their Touch Tone Information Inc.
        Brown said that Los Angeles police discovered Edelstein's 
        connection with the Rapps after a Los Angeles shoplifter 
        claimed he was a LAPD officer and showed them identification. 
        It was a forgery and traced to Edelstein.
        During a search of Edelstein's home, officers found a cover 
        letter from Touch Tone Information Inc. with a price sheet 
        stating that the company could obtain the address and phone 
        tolls for any telephone in the United States or 
        internationally. Touch Tone also claimed it could provide 
        banking information on an individual or corporation.
        A former employee of the Rapps told investigators that they 
        excelled at obtaining confidential phone numbers and bank 
        records.
        The former employee said he overheard phone discussions between 
        James Rapp and his clients, which led him to believe that Touch 
        Tone clients were a mix of private investigators, lawyers and 
        news reporters. [end of article]

c) Prior to Recent Media Revelations and Congressional Demands, Did the 
        FTC Take Aggressive Steps to Stop the Sale of Phone Records?
    The simple answer is no. Given the wealth of knowledge and 
intelligence coupled with client lists for hundreds of private 
investigators, attorneys, media outlets, and other buyers of phone 
records contained within the Touch Tone files--not to mention what the 
FTC learned in the Boyer murder case and Operation Detect Pretext--what 
did the FTC do to root out this market and stop the sale of phone 
records? Not a thing.
d) Did the FTC Signal Tacit Approval of the Sale of Phone Records by 
        Private Investigators?
    Arguably yes. In direct and indirect ways the FTC has signaled to 
the illicit brokers and investigators that the sale of phone records 
will be tolerated--as long as it isn't too blatant.
    This happened indirectly by brokers and investigators noting the 
FTC was aware of the sale of phone records for years and had taken no 
actions against any individuals or companies selling the records. In 
places where investigators and brokers meet to discuss sources, 
tactics, methods, enforcement actions, and legislation, there has been 
a continuing dialogue for years that argues the practice of selling 
phone records must be OK since the FTC has done nothing about it.
    Another indirect signal was sent to brokers and investigators as an 
unintended consequence of the passage of the anti-pretexting for 
financial information statute contained with the Gramm-Leach-Bliley 
Act. Brokers and investigators, rather than looking at the spirit of 
the law, interpreted the letter of the law to allow the continued use 
of pretext and other forms of deception to obtain consumer records 
other than financial records. And the FTC, in bringing the paltry 
number of cases it has to date under Gramm-Leach-Bliley and the Unfair 
and Deceptive Trade Practices Act, has inexplicably ignored the 
evidence in those cases of phone record sales. This did not go 
unnoticed by the illicit information brokers and private investigators 
and was again read as a green light to sell phone records.
    In addition to indirect signals, the FTC, whether intending to or 
not, has directly signaled the brokers and investigators that phone 
record sales would be tolerated.
    In January of 2005, the cover story of PI Magazine was ``The FTC on 
Pretexting: The PI Magazine Interview with Joel Winston''. The 
interview was conducted by PI Magazine Editor-in Chief, Jimmie Mesis. 
In the set-up to the interview Mesis describes the reason he 
interviewed Joel Winston as the following:

        ``In an effort to get a definitive definition of pretexting and 
        the potential risks and penalties for conducting pretexts, PI 
        Magazine was granted an interview with Joel Winston, Associate 
        Director of the FTC, Division of Financial Practices. His 
        office has the responsibility to monitor and regulate the use 
        of pretexting. '' [Emphasis added]

    During the course of the interview which covered a number of 
aspects regarding the definition of pretexting, various pretexting 
tactics, Gramm-Leach-Bliley, Operation Detect Pretext, and the Unfair 
and Deceptive Trade Practices Act, Mesis asked Winston about the use of 
pretext for phone records. The following Q and A resulted:

        PI Magazine (PIM): Do you classify the acquisition of telephone 
        toll records as a clear violation of deceptive business 
        practices?

        Winston: It's not what we traditionally look at as deception 
        because you're deceiving party A, but party B is the actual 
        party being harmed. But, we believe that, even though it has 
        not been tested in the courts, that acquiring toll records 
        through false statements constitutes deceptive business 
        practices.

        PIM: Is this an area the FTC is going to start looking into?

        Winston: We are aware that there have been some concerns about 
        that and were continuing to consider it.

    Not exactly a clear and strong message from Mr. Winston, the FTC 
official charged with pretext regulation, that the sale of phone 
records will not be tolerated when Mr. Winston was afforded an ideal 
forum to send an unambiguous warning. And I would note that a year 
later when this issue exploded in the media, 6 months after the EPIC 
West complaint was filed with the FTC, the FTC still had not brought a 
single enforcement action against any company selling phone records.
    The interview continued and in a later question Winston was asked:

        PIM: Are there currently any FTC concerns about private 
        investigators?

        Winston: Not as a general matter. If I thought that there were 
        major problems in the PI industry that concerned us, I would 
        certainly tell you. As with any industry, there are occasional 
        bad apples, but the PI industry as a whole is not an area about 
        which we have any particular concerns . . . [Winston then 
        discusses an area dealing with credit reports unrelated to 
        pretext and phone records]

    An objective reader--not to mention a subjective reader, like a 
broker or investigator, trying to read the tea leaves of Winston's 
answers--comes away with the distinct impression that the sale of phone 
records by brokers and investigators is not high on Joel Winston's or 
the FTC's priority list. Particularly when coupled with the fact that 
in the seven years that the FTC has been aware of the sale of these 
records, they hadn't brought a single enforcement action against a 
company selling phone records.
    But don't take my word on how the investigators and brokers reading 
Mr. Winston's comments interpreted them. Instead, read how the 
interviewer, Jimmie Mesis, Editor-in-Chief of PI Magazine interpreted 
Mr. Winston's answers. In a statement to fellow investigators and 
brokers on July 11, 2005 titled EPIC Fighting Phone Records Sales, Mr. 
Mesis, responding to other investigators and brokers that were angered 
by the complaint EPIC West filed, stated:
    ([Bracketed comments and emphasis added by Douglas])

        Greetings,

        There is no doubt that that one complaint to the FTC does not 
        constitute ``a problem.'' However, when that complaint comes 
        from EPIC, we have a problem. This organization continues to 
        exist by its consistent efforts to blast alleged violations of 
        consumer privacy. My immediate concern is not the FTC, rather 
        EPIC for their aggressive negative media publicity campaigns 
        against PI's and their strong lobbying efforts in Washington, 
        D.C.
        I recommend that you read my interview with the FTC and the 
        specific comments about telephone records at 
        www.pimagazine.com/ftc_article.htm The FTC wasn't too concerned 
        about telephone information, but if PI's are going to blatantly 
        advertise tolls directly to the public as a commodity, the FTC 
        will get involved and we are going to lose that commodity and 
        our ability to solve many cases because of it.
        [Note that Mesis considers Americans' phone records a 
        ``commodity''!]
        PI's need to stop promoting the selling toll records directly 
        to the public as a commodity. Rather, use it as an 
        investigative tool used in the course of your investigation to 
        lead you to a missing person or to the lead you need to solve 
        the case. I also suggest that PI's promote such services as 
        ``telephone research'' as compared to coming right out and 
        mentioning tolls, non-pubs, etc.
        [Note that Mesis recommends hiding what is actually being sold 
        on websites by using terminology designed to deceive--this is a 
        common practice within the trade and its web advertising]
        Roe and I decided last January to voluntarily remove our 
        magazines from the books shelves at Barnes & Noble and many 
        other book stores. We did this at a financial loss to make it a 
        bit more difficult for the public to readily learn and see the 
        suppliers of information that shouldn't be directly accessible 
        to the public. We as professional investigators need to know 
        who these sources are, yet we all need to do something to stop 
        this avalanche of perceived identity theft hysteria that the 
        media has latched onto.
        Remember, one day . . . soon, you will no longer be able to get 
        non-pubs, addresses for telephone numbers, and tolls, all 
        because some new law is going to be passed. Why? Because PI's 
        shouldn't be promoting these investigative tools as a 
        commodity. Then, just like with GLB, a new law will eventually 
        prevent us from using an amazing investigative resource that 
        will be lost, and it won't be anyone's fault other than our 
        own.

        Please do your part,
        Jimmie Mesis, Editor-in-Chief, PI Magazine, Inc.

    So in Mr. Mesis' own words--again, this is the man who sat in the 
room and interviewed the FTC's Joel Winston--``There is no doubt that 
that one complaint to the FTC does not constitute ``a problem'' . . . 
My immediate concern is not the FTC . . . The FTC wasn't too concerned 
about telephone information . . . ''
    One wonders what additional off the record discussion may have 
taken place between Mr. Mesis and Mr. Winston that may have bolstered 
Mr. Mesis' belief that the FTC ``wasn't too concerned about telephone 
information.''
    But the interview was a year ago and before the EPIC West 
complaint. Perhaps in light of the EPIC West complaint and resultant 
media attention to the issue, Mr. Winston of the FTC has had a change 
of heart--perhaps not.
    In an article by Peter Svensson of the Associated Press published 
less than two weeks ago on January 18, 2006, Joel Winston again stated 
why he doesn't see the sale of phone records as an issue rising to the 
level of seriousness surrounding the sale of financial records.
    In the context of the article, Winston stated:

        So why didn't the Touch Tone case put such businesses out of 
        business?
        For one, the FTC went after Touch Tone not for snooping on the 
        private lives of police officers but for ``pretexting'' 
        financial information from banks.
        ``Our primary focus there was on financial, because that's 
        really where the most direct harm is,'' Joel Winston, associate 
        director of the FTC's division of privacy and identity 
        protection, said in an interview. ``If I'm pretexting a bank 
        and getting your bank account records I can drain your 
        account.''
        ``With phone records . . . not to minimize the intrusion on 
        one's privacy, but generally it doesn't lead to any specific 
        economic harm. It's a different kind of harm,'' Winston said. 
        Nevertheless, he added, the practice ``raises significant 
        privacy concerns.''

    Perhaps Mr. Winston should sit down with police officers and their 
families and explain those responses. Perhaps Mr. Winston should sit 
down with the parents of murder victim Amy Boyer and explain those 
responses. Perhaps Mr. Winston should stop focusing on ``economic 
harm'' and start worrying about the lives at stake--and already lost--
because of pretext for ``non-economic'' information. Perhaps it is time 
the FTC finds a replacement for Mr. Winston who, unlike Mr. Winston, 
understands the dangers inherent in the sale of phone records. Given 
Mr. Winston's inability to even analyze the information contained in 
the FTC's own case files--notably the Touch Tone case and Operation 
Detect Pretext--American consumers and this Congress should not believe 
that the FTC, even if armed with a new law, will be aggressive in the 
protection of phone records area as long as Mr. Winston is in charge.
    But as hard as it may be to believe, the problems at the FTC are 
more extensive than Mr. Winston. The problems are institutional. Even 
when the FTC has brought cases against individuals and firms using 
pretext to steal financial information, the result has been to signal 
the brokers and investigators selling such information that the odds of 
being caught are slim and that the FTC will not impose serious 
sanctions.
    In the Touch Tone case the FTC trumpets that they fined Touch Tone 
$200,000. What the FTC is slower to point out is that they suspended 
the fine. So Touch Tone paid not one penny in fines. In Operation 
Detect Pretext 1,500 advertisements for the sale of personal financial 
information were located by the FTC. From that universe, only 3 firms 
were the subject of court action. And once again the FTC settled for 
minimal fines of $2,000 in two of the cases, and waived the fine in its 
entirety in the third case. In a subsequent case, the FTC made a 
criminal referral to the Department of Justice recommending prosecution 
of a broker selling financial information obtained through pretext. 
That broker received a $1,000 fine and a 2-year suspended prison 
sentence.
    But perhaps the most brazen evidence of all that the FTC is viewed 
as a toothless, paper tiger is the case of FTC v. Information Search, 
Inc, and David Kacala. This is the third case of Operation Detect 
Pretext mentioned in the preceding paragraph where the FTC waived the 
fine entirely.
    Not only is Information Search, Inc. still in business, until just 
a matter of days ago the website, located at www.information-search.com 
was selling cell phone and other telecommunications records. And on a 
page named for the FTC, Information Search, Inc. has been publicly 
thumbing its nose at the FTC and Congress for what Information Search, 
Inc. views as the wrong-headed passage and enforcement of the Gramm-
Leach-Bliley Act.
    So for years, Information Search, Inc., having been once prosecuted 
by the FTC for selling financial records obtained through pretext, has 
continued to sell phone records with all the indicia that they too were 
obtained through deceptive means, and the FTC has not done a thing. I 
seriously doubt the FTC ever went back and looked at the information-
search.com website.
    Only when increased media attention was brought to bear on the 
problem of the sale of phone records and EPIC West named Information 
Search, Inc. in its complaint, did Information Search, Inc. take down 
the web ads for phone records--hoping that by the time the FTC looked 
they wouldn't find the ads. But EPIC West's Hoofnagle was savvy enough 
to capture the offending pages and various search engines continue to 
have cached pages showing Information Search, Inc. offered cell and 
other phone records for sale.
    Bottom line. The message that is repeated loud and clear throughout 
the investigative and broker industries on a regular basis is: No need 
to fear the FTC. Fear EPIC West. But just lay low. The media storm will 
subside. And the FTC will look the other way as usual.
    In fact, let me quote a North Carolina licensed private 
investigator who just days ago had this to say about the publicity 
surrounding the availability of cell phone records and his prediction 
for how this will play out in Congress once lobbyists for the illicit 
information brokers and investigators go to work:

        Just my humble opinion, but the more we talk about this, and 
        say things like what we are going to do, etc. the more we 
        encourage people in general to use pay phones (if you can find 
        one), office phone extensions, friends cell phones or friends 
        home phones, etc. Lets stop this silly comments and 
        discussions. The more ``we stir it, the more it will stink.'' 
        We keep shooting ourselves in the foot. Not to mention, the 
        cost to obtain various ``information'' from various ``brokers'' 
        will only rise, putting some items of investigative value out 
        of reach! Let it die, the Media will soon lose interest, and 
        our lobbyists will stay on top of it in our interests in 
        Washington, D.C.

e) Why Has the FTC Been AWOL When it Comes to Protecting Phone Records?
    I wish I fully knew the answer to this question and it is one that 
this Committee and Congress should investigate. I do have definitive 
ideas about the problems at the FTC that I saw firsthand when I served 
as a consultant to Operation Detect Pretext. I would be happy to share 
those observations and concerns with this Committee in a non-public 
setting if the FTC will release me from my non-disclosure agreement. 
All of my statements concerning Operation Detect Pretext in this 
testimony are based upon aspects of Operation Detect Pretext that the 
FTC has made public. But there is much more to the story that I am 
unable to discuss under threat of severe penalty given my signed 
agreement with the FTC which I will continue to honor.
VIII. The FTC's Attitude Towards Pretexting is Inexcusable
    From an outsider's perspective it is very difficult to understand 
the lack of interest by the FTC when it comes to pursuing those who are 
using deception to obtain consumer records, including phone records. 
The FTC routinely goes after scams and fraud where there is a distinct 
element of buyer beware--in other words--the consumer using a little 
common sense could have avoided being scammed or defrauded. That's 
fine. Those types of con artists should be dealt with. Yet the FTC has 
shown great reluctance and reticence in stopping the theft of consumer 
records where the consumer has no way of knowing the records are being 
stolen and therefore cannot protect himself as the records are in the 
control of other corporate or government custodians. Given this fact--
the theft of consumer records cries out for assistance and prosecution 
by appropriate government agencies in order to defend the American 
consumer.
    How many murders of Americans will it take before the FTC gets 
serious? How many law enforcement officers, their families, and 
investigations have to be put at risk before the FTC gets serious? What 
will this Congress and future Congresses do to exercise oversight and 
force the FTC to get serious?
IX. The Need For A Comprehensive Statute Protecting All Consumer 
        Records
    While it is important that this Committee and Congress move quickly 
to outlaw the sale of phone records, it is also time for this Committee 
and Congress to pass a broad anti-pretexting statute designed to outlaw 
the use of deception to steal any consumer record.
    In 1998, I first testified before Congress to expose the use of 
pretext to steal financial information and that practice was outlawed 
in 1999. In 2000 I again testified before Congress warning that phone 
records had become the new record of choice for information brokers and 
private investigators to steal. Here we are six years later dealing 
with the consequences. If Congress does not move to outlaw the tactics 
used to steal information--instead of merely protecting categories of 
information in a piecemeal approach--I fear we will be meeting again 
and again to address category by category.
    Already other categories of information are under attack. I have 
tape of an information broker recorded surreptitiously describing how 
he defeats cable and satellite television providers and public utility 
providers information security systems. In fact, many of the websites 
under scrutiny today advertise the sale of utility information and Post 
Office Box underlying street address information. Post Office Box 
information is protected by regulation, but is commonly obtained by the 
filing of fraudulent forms stating that the requestor needs the 
underlying address information for service of process when that is not 
the case.
    Bottom line. If Congress only moves to protect phone records, 
Congress will create a nightmare for another industry similar to what 
the phone companies are experiencing today.
    Finally, Congress should consider making the use of deceptive 
practices to gain access to consumer information a criminal act with 
primary jurisdiction falling to the Department of Justice and FBI while 
simultaneously empowering state attorneys general to act as well. As an 
aside, I would note that several state attorneys general have already 
begun prosecutions under their state unfair and deceptive trade 
practices acts within weeks of learning of the problem, while the FTC 
with knowledge of the phone records issue since 1999 has yet to bring 
an action. This is all the more reason that primary authority for 
enforcement should not be given to the FTC. To vest primary authority 
with the FTC acting in a civil capacity, given the agencies history of 
impotence, is to almost guarantee that the illicit practices will not 
stop.
X. Congress, Enforcement Agencies, and The Private Sector Must Work 
        Together
    Just passing legislation will not be enough. The enforcement and 
regulatory agencies must actively work to root out and prosecute those 
who are stealing information. Congress must exercise regular oversight 
of the enforcement agencies to keep the agencies focused on protecting 
the American consumer. And the phone companies, along with all consumer 
services companies, must use appropriate customer authentication 
protocols to protect their customers.
    Following the 1998 hearings on the use of deceptive practices to 
steal financial information from financial institutions, the American 
Bankers Association moved aggressively to educate all member 
institutions about the theft of customer account information. Working 
together with the ABA, I authored several training documents that were 
provided free of charge by the ABA to member institutions. We conducted 
numerous telephone seminars and I appeared at dozens of ABA conferences 
all over the country to teach financial institutions about the threats 
posed by the practices of identity thieves, illicit information broker, 
and illicit private investigators. While it is still possible to find 
financial records for sale on the web, the number of offerings has been 
dramatically reduced through those efforts. I believe the phone 
companies--indeed all consumer services companies--working together 
with Congress, enforcement and regulatory agencies, and their 
representative associations can have similar success.
    One final item for consideration. I have reluctantly come to the 
conclusion that it may be time for Federal regulation of the private 
investigative trade. By this means minimum standards may be set to 
assist in weeding out those who have no regard for the law and are 
destroying the hard earned reputation of thousands of professional 
private investigators who serve in a vital capacity in out nation's 
justice system.
XI. Conclusion
    Mr. Chairman, thank you for your invitation to appear before this 
Committee. I will do anything I can to be of assistance to the 
Committee, Congress as a whole, the enforcement agencies, the trade 
associations, or individual companies affected by these issues.

    Senator Allen. Thank you, Mr. Douglas, for your testimony. 
I am sure there will be follow-up questions.
    Finally out of our witnesses, we would like to hear from 
you, Ms. Southworth.

  STATEMENT OF CINDY SOUTHWORTH, DIRECTOR, TECHNOLOGY AND THE 
                 SAFETY NET PROJECT, NATIONAL 
                NETWORK TO END DOMESTIC VIOLENCE

    Ms. Southworth. Thank you. Chairman Allen, Ranking Member 
Pryor, and distinguished Members of the Committee. My name is 
Cindy Southworth and I thank you for the opportunity to appear 
before this Committee. I am the Director of Technology at the 
National Network to End Domestic Violence, which represents 53 
State domestic violence coalitions who in turn represent over 
3,000 local domestic violence shelter and hotline programs 
across the country. I founded the Safety Net Project to educate 
victims and their advocates on the strategic use of technology 
and I have focused on the intersection of technology and 
domestic violence since 1998.
    Our member State domestic violence coalitions from around 
the country, including the Arkansas Coalition and the Virginia 
Action Alliance, are extremely pleased that we are addressing 
this issue with you today because they have been expressing 
concerns about pretexting for many, many years.
    Every day there is a staggering amount of data generated 
and maintained about all of us, far beyond cell phone records. 
Personally identifying information is now tracked as never 
before. The theft of such personal information can be extremely 
inconvenient for all of us here in this room, but may be fatal 
for a victim of domestic violence. As Mr. Douglas explained, 
Amy Boyer was one of my examples, but I think he covered it 
quite thoroughly.
    Sadly, domestic violence is quite prevalent and many 
victims are stalked relentlessly for years after having 
escaped. The batterers that hunt them down are the most 
dangerous batterers and they pose the highest lethality risk. 
Because of this, victims often take extraordinary and desperate 
steps to hide their location. They use post office boxes, they 
change their Social Security numbers, and they hide in 
confidential shelter locations.
    Pretexters and information brokers are not just stealing 
someone's data, they may be endangering someone's life. 
Seventy-six percent of women killed by their abusers had been 
stalked prior to the murder. Stalkers are often in a prime 
position to obtain cell phone and other records through 
pretexting or through information brokers who steal the data 
and then sell it to the abusers. Since abusers often know their 
victim's date of birth, their mother's maiden name and computer 
passwords, they can easily either pose as the victim or have 
someone pose as the victim for them. It is not uncommon for 
abusers to have a new girlfriend pose as the victim and call 
and get information.
    In one case in rural Virginia, a woman was stalked by her 
ex-husband. She changed her e-mail address, she moved, she 
found a new job, she did everything. Several businesses that 
she frequented used her seven-digit cell phone number as her 
customer identifier. Her ex-husband simply asked someone at the 
video store to look up her cell number in the system, which 
made tracking her movements quite simple. He discovered that 
she had rented a video on Monday and it was due back on 
Wednesday. He was lying in wait for her when she showed up at 
the video store.
    Phone records are a particularly rich source of information 
for the determined stalker. By illegally obtaining this 
information, a stalker can easily locate his victim.
    In recent years there have been concerted efforts by 
Congress, various Federal agencies, and nearly every State to 
create privacy and confidentiality provisions that help shield 
victims of domestic violence. For example, at least 17 States 
now offer address confidentiality programs and 39 States 
provide for confidentiality of shelter records. All of these 
extraordinary steps that victims take to shield their location 
and identity and that shelters take on behalf of victims are 
futile if pretexting is allowed to continue.
    In Hawaii, a victim on the run was found through a car 
rental agency. Her abuser walked into the agency, pretexted. He 
pretended and told the staff that his wife was diabetic and 
forgot her insulin--a common strategy--and he said he thought 
she might have rented a car. After a simple reverse look-up 
using her phone number, staff provided him the make, model, and 
license plate number of the rented car. The victim was found by 
the abuser later that day and badly beaten in a parking lot.
    The theft of personal information is not only a violation 
of privacy, it is a crime. Stolen goods are addressed by 
various State and Federal laws and both the original thieves 
and those who trade in stolen goods are subject to prosecution. 
The theft of personal information should be handled in a 
similar fashion. However, because pretexting phone records is 
just one piece of a larger problem of stealing and selling 
personal information, a multi-faceted approach would protect 
all consumers.
    Pending Federal legislation makes the stealing, selling, 
and fraudulent transfer of these records a criminal offense. 
Strengthening Federal law will help discourage data mining and 
protect consumers, including battered women. We encourage State 
and Federal entities to use all existing and emerging laws to 
hold individuals and organizations accountable for illegally 
obtaining, using, or selling phone records or other personal 
information.
    All companies that collect and retain personal information 
about their customers should enhance the security and privacy 
options available to consumers and create levels of security 
that are not easily breached from within or outside of the 
company. Given the creative and persistent tactics of 
perpetrators, companies must work with consumers to identify 
the methods of security that will work best for general 
consumers as well as for consumers in higher risk situations, 
like victims of domestic violence.
    Cell phones can be a lifeline for battered women and 
victims of sexual assault and stalking, but with illegitimate 
pretexting, a phone, and other personal records, those 
lifelines can forever connect the victim to her abuser without 
hope of escape.
    Thank you for allowing us this opportunity to address the 
Committee on this critical and urgent issue, and I am happy to 
answer any questions. Thank you.
    [The prepared statement of Ms. Southworth follows:]

  Cindy Southworth, Director, Technology and the Safety Net Project, 
               National Network to End Domestic Violence
Introduction
    Chairman Allen, Ranking Member Pryor, and distinguished Members of 
the Committee, my name is Cindy Southworth and I thank you for the 
opportunity to appear before the Committee to address the Committee's 
concerns about the theft of Americans' phone records. The Committee is 
taking remarkable leadership by seriously considering the issues of 
pretexting and the sale and acquisition of personal data by information 
brokers. It means so much to victims of domestic violence and stalking 
that you are carefully considering all aspects of these complex issues 
and are contemplating enhancing privacy protections for all citizens, 
including these vulnerable victims. Our members from around the 
country, including the Alaska Network on Domestic Violence and Sexual 
Assault, the Arkansas Coalition Against Domestic Violence, the 
California Partnership to End Domestic Violence, the Hawaii State 
Coalition Against Domestic Violence, the Louisiana Coalition Against 
Domestic Violence, the Montana Coalition Against Domestic and Sexual 
Violence, the South Carolina Coalition Against Domestic Violence and 
Sexual Assault, and the Virginia Sexual and Domestic Violence Action 
Alliance have been expressing concern about the dangers of pretexting 
and stealing phone records, and they are extremely pleased to see their 
Senators take such an active role in addressing this issue and 
protecting the privacy of victims.
    I am the Director of Technology at the National Network to End 
Domestic Violence, a social change organization dedicated to creating a 
social, political, and economic environment in which violence against 
women no longer exists. Founded in 1995, the National Network to End 
Domestic Violence (NNEDV) represents 53 state domestic violence 
coalitions who in turn represent over 3,000 local domestic violence 
service providers across the country.
    In 2002, I founded the Safety Net Project at NNEDV to educate 
victims of sexual and domestic violence, their advocates and the public 
on the strategic use of technology to increase personal safety and 
privacy. Safety Net is the only national initiative addressing the 
intersection of domestic violence and all forms of technology. Looking 
beyond the traditional ``digital divide,'' our project is ardently 
working to increase the technology knowledge and skills of victims, 
advocates, law enforcement, and allied organizations in every state and 
each of the local shelter and hotline programs across the country. 
Safety Net also tracks emerging technology issues and their impact on 
victim safety, working with local, state and Federal agencies to amend 
or create policies that enhance victim safety and confidentiality.
    I have been working to end violence against women for over 16 years 
and have focused on the intersection of technology and domestic 
violence since 1998. I thank you for the opportunity to submit 
testimony about the real dangers that victims of abuse and stalking 
face as a result of pretexting and selling stolen personal information.
Risks to Victims
    There is a staggering amount of data generated and maintained about 
individuals in our society every day--far beyond cell phone records. 
Personally identifying information like date of birth, Social Security 
number, frequently visited websites, and grocery shopping preferences, 
are now being tracked as never before. The theft of such private 
information can be devastating for the average individual who may have 
her identity stolen and her credit destroyed. For a victim of domestic 
violence or stalking, however that theft of private information is not 
just financially or personally devastating--it can be fatal. In 1999, 
Amy Boyer, a young woman in New Hampshire, was tracked down and 
murdered by a former classmate who had been stalking her for years. 
Liam Youens paid Docusearch, an Information Broker, to obtain Amy's 
work address. Docusearch contracted with a pretexter to illegally 
obtain her work address by pretending to need it for insurance 
purposes. \1\
---------------------------------------------------------------------------
    \1\ Ramer, Holly. ``Murdered woman's mother settles suit.'' The 
Union Leader (Manchester NH), March 11, 2004 , State Edition: Pg. A1.
---------------------------------------------------------------------------
    Domestic violence, sexual assault and stalking are the most 
personal of crimes, and the more personal information that the 
perpetrator has about his victim, the more dangerous and damaging the 
perpetrator can be. Sadly, domestic violence is quite prevalent, and 
women continue to be the vast majority of victims. The National 
Institute of Justice reported that 4.9 million intimate partner rapes 
and physical assaults are perpetrated against U.S. women annually. \2\ 
Leaving the relationship does not stop the violence. In fact, the most 
dangerous time for a victim of domestic violence is when she takes 
steps to leave the relationship. \3\ Many victims are stalked 
relentlessly for years after having escaped from their partners. These 
batterers who stalk their former partners, determined to hunt them 
down, are the most dangerous and pose the highest lethality risk. \4\
---------------------------------------------------------------------------
    \2\ Patricia Tjaden and Nancy Thoennes, National Institute of 
Justice and the Centers of Disease Control and Prevention, Extent, 
Nature, and Consequences of Intimate Partner Violence (2000); Dr. 
Callie Marie Rennison, Department of Justice, Bureau of Justice 
Statistics, Intimate Partner Violence, 1993-2001 (February 2003).
    \3\ Ronet Bachman and Linda Salzman, Bureau of Justice Statistics, 
Violence Against Women: Estimates From the Redesigned Survey 1 (January 
2000).
    \4\ Barbara J. Hart, Assessing Whether Batterers Will Kill. (This 
document may be found online at: http://www.mincava.umn.edu/hart/
lethali.htm), Jacqueline Campbell, Prediction of Homicide of and by 
Battered Women, reprinted in Assessing Dangerousness: Violence by 
Sexual Offender, Batterers, and Sexual Abusers 96 (J. Campbell, ed., 
1995).
---------------------------------------------------------------------------
    Because of this, victims often take extraordinary and desperate 
steps to hide their location, sometimes even changing their identities 
to avoid being found by their abusers. Those steps can include:

  <bullet> Moving to new states;
  <bullet> Using post office boxes;
  <bullet> Getting unlisted phone numbers;
  <bullet> Using only cell phones to avoid having utility records tied 
        to a home phone and thus a particular address;
  <bullet> Changing names through the court system;
  <bullet> Changing Social Security numbers;
  <bullet> Relocating to confidential shelters;
  <bullet> Enrolling in state address and voter record confidentiality 
        programs;
  <bullet> Sealing location information in court filings; and
  <bullet> Never using the Internet from a home computer.

    Victims of domestic violence, acquaintance rape, and stalking are 
particularly vulnerable because perpetrators know so much about their 
victims that they can often predict where their victims may flee, and 
to whom they may turn for help. Notably, it is not just the victims of 
domestic violence who are at risk if her personal information and 
location is revealed, but also the individuals and programs that help 
them.
Pretexting and Information Brokers
    Pretexters and information brokers are not just stealing someone's 
data, they may be endangering someone's life. Fifty-nine percent of 
female stalking victims are stalked by current or former intimate 
partners, \5\ and 76 percent of women killed by their abusers had been 
stalked prior to their murder. \6\ Stalkers are often in a prime 
position to obtain cell phone and other personal records through 
``pretexting'' or through Information Brokers who have used this tactic 
and then sold the stolen data. Since abusers often know enough private 
information about their victims (such as date of birth, mother's maiden 
name, or her commonly chosen computer passwords), they can easily pose 
as their victims and illegally access their credit, utility, bank, 
phone, and other accounts as a means of getting information after their 
victims have fled.
---------------------------------------------------------------------------
    \5\ Tjaden &Thoennes. (1998) ``Stalking in America,'' NIJ.
    \6\ McFarlane et al. (1999). ``Stalking and Intimate Partner 
Femicide,'' Homicide Studies.
---------------------------------------------------------------------------
    In one case, a woman in rural Virginia was stalked by her ex-
husband. She couldn't figure out how he kept showing up wherever she 
was. She had changed her e-mail address, moved, and found a new job. 
Eventually, a savvy advocate started asking about other ``records'' 
such as where she got the oil in her car changed, where she rented 
videos, etc. Several businesses she used, including the video store and 
the local autoshop, all used her 7-digit cell phone number as her 
customer identifier. Her ex-husband simply asked someone he knew to 
look up her name in one system, which made tracking her movements 
simple. Finally, he discovered that she had rented a video on Monday 
and that it was due back on Wednesday. He was lying in wait when she 
came to return the video.
    Phone records are a particularly rich source of information for the 
determined stalker. Through pretexting, a stalker can access records 
that include who was called, when the call was made, how long the call 
took, and the location of the calls. By illegally obtaining this 
information, a stalker can locate his victim without his victim even 
knowing that she is being tracked. For example, a victim from rural 
Louisiana, whose cell phone records reveal to her batterer that she 
contacted a shelter program in South Carolina, is no longer safe going 
to that South Carolina shelter, though she may never realize that until 
it is too late.
    In January 2003, Peggy Klinke was brutally killed by a former 
boyfriend, Patrick Kennedy, after he hunted her down with the help of a 
private investigator. Peggy had worked closely with the Albuquerque 
Police Department, obtained a restraining order, and after Patrick 
burned down her home in New Mexico, she fled to California to try to 
remain safe until the pending criminal court hearing. Patrick hired a 
private investigator, located her, flew to San Jose, rented a car, 
drove to her neighborhood, posed as a private investigator to find her 
exact apartment location, and chased her around the apartment complex 
before shooting her and eventually shooting himself. \7\
---------------------------------------------------------------------------
    \7\ Holland, John. ``Grim act of a man unable to let go.'' The 
Modesto Bee (Modesto California), January 25, 2003, Available online 
http://www.modbee.com/local/story/5973772p-6932417c.html.
---------------------------------------------------------------------------
    Shelter programs and their employees and volunteers are also 
vulnerable to being located through pretexting. Shelters try to protect 
their location in the same way that individual victims of domestic 
violence do, by using post office boxes and unlisted phone numbers and 
addresses for both the shelter and for staff and volunteers. However, 
many shelters' emergency response teams use cell phones and pagers for 
on-call staff, which puts those individual staff and volunteers at risk 
from abusers who are trying to gain access to the shelter to find their 
partners.
    Whether the phone records obtained are those of the domestic 
violence or sexual assault program or are those of an individual who 
contacted the program, the harm can be devastating.
Circumventing Laws That Protect Victim Privacy
    In recent years, there have been concerted efforts by Congress, 
various Federal agencies, and nearly every state to create privacy and 
confidentiality protections that help shield victims of domestic 
violence from being found by their perpetrators and from having to 
reveal private information about their victimizations. For example, at 
least 17 states now offer Address Confidentiality Programs, which 
provide for a secure system for receiving mail, often through the 
Attorney General or Secretary of State's office, without having to 
reveal a victim's address. \8\ A number of other states, including 
Hawaii, Virginia, Maryland, and Texas, are presently considering 
enacting similar address confidentiality programs. \9\ Twenty-two 
states, including Virginia, California, Maine, and Arizona, provide 
that voter registration data, including address and other identifying 
data, can be kept confidential by victims of domestic violence. The 
great majority of states (39) provide for confidentiality of domestic 
violence or sexual assault program records and communication, including 
the time, location, and manner by which a victim may have consulted a 
program for help in escaping the abuse--some of the very information 
that is at risk through pretexting of records.
---------------------------------------------------------------------------
    \8\ California, Cal. Gov Code Sec. 6205, et seq. (2005); 
Connecticut, Conn. Stat. Sec. 54-240, et seq. (2005); Florida, Fla. 
Stat. Sec. 741.401, et seq. (2005); Illinois, 750 ILCS 61/1, et seq. 
(2005); Indiana, Burns Ind. Code Ann. Sec. 5-26.5-1-1 (2005); Maine, 5 
Maine Rev. Stat. 90-B(2005); Massachusetts, MGLA ch. 9A Sec. 1 (2005); 
Nebraska, Neb. Rev. Stat. Sec. 42-1206, Nevada, Nev. Rev. Stat. Ann. 
Sec. 217.462 , et seq. (2005); New Hampshire, N.H. Rev. Stat. 
Ann.Sec. 7:41 et seq. (2005); New Jersey, N.J. Stat. Sec. 47:4-2, et. 
seq. (2005); North Carolina, N.C. Gen. Stat. 15C-1 (2005); Oklahoma, 22 
Oklahoma Stat. Sec. 60.14 (2005); Pennsylvania, 23 Penn. C. S. 
Sec. 6702 (2005);Rhode Island, R.I. Gen. Laws @ 17-28-1, et seq. 
(2006); Vermont, 15 V.S.A. Ch. 21, Sec. 1101 to 1115 (2005); 
Washington, Rev. Code Wash. (ARCW) Sec. 40.24.010, et seq. (2005).
    \9\ For example, Alaska, 2005 AK HB 118; Hawaii, 2005 HI HB 1492; 
Maryland, 2006 MD SB 25; New York, 2005 NY AB 5310; Texas, 2005 TX SB 
160; Virginia, 2004 VA HB 2876.
---------------------------------------------------------------------------
    The recent reauthorization of the Violence Against Women Act, 
enacted by Congress and signed by President Bush just over a month ago, 
includes several confidentiality provisions that protect identifying 
data disclosed by a victim of domestic violence to a domestic violence 
program from being shared with databases. \10\ Some states, including 
Nevada and New York, have provisions that allow an individual to change 
her name without publishing that name change in the newspaper, as a way 
of protecting the identity and location of victims of stalking and 
domestic violence. Nearly every state allows victims to ask to seal 
their address from the public (and the perpetrators) in protection 
order actions and in certain types of criminal cases.
---------------------------------------------------------------------------
    \10\ The Violence Against Women and Department of Justice 
Reauthorization Act of 2005, Public Law 109-162, Sections 3(b)(2) and 
605.
---------------------------------------------------------------------------
    The Social Security Administration allows domestic violence victims 
to change their Social Security numbers to help them seek protection. 
\11\ But even taking the drastic step of obtaining a new social 
security number does not eliminate the problem caused by pretexting. 
Determined abusers continue to track their victims through relatives' 
phone records and other means, often obtaining their information by 
additional pretexting.
---------------------------------------------------------------------------
    \11\ See SSA Publication 05-10093 (December 2005).
---------------------------------------------------------------------------
    All of these extraordinary, difficult and sometimes costly steps 
that victims of domestic violence take to shield their location and 
identity, and that domestic violence programs take on behalf of 
victims, are completely futile if data mining through pretexting is 
allowed to continue.
    Phone records and pretexting are the focus of this hearing. Those 
issues are part of a larger problem that victims of abuse face--the 
prevalence of information regarding their activities and location and 
the ease with which that information can be purchased by their 
perpetrators. A quick search of the Internet reveals hundreds of 
businesses that, for a relatively nominal cost, will provide 
information including the address of record associated with a post 
office box; AOL screen names and e-mail addresses; unlisted phone 
numbers; physical addresses and Social Security numbers; and even 
photos and floor plans of people's homes. Any one of these invasions of 
a victim's privacy could put her in grave danger.
    A woman in Hawaii was getting ready to flee to a shelter and was 
nervous about her abuser recognizing her car in front of the shelter 
building. She parked her own car on a side street and rented a car to 
use. Since there are only a few rental places on the island it was not 
long before the abuser walked into the office, told the staff his 
``wife was diabetic and forgot her insulin'' but thought she might have 
rented a car while hers was getting fixed. She had used her sister's 
identity and paid cash, but had given her own phone number because her 
sister did not have a phone and the rental agency had insisted on 
entering a number into the system. After a reverse lookup using the 
phone number, staff provided him with the make, model and license plate 
number of the rented car. The victim was found by the abuser later that 
day and badly beaten in a parking lot behind a store.
A Multi-Faceted Approach is Needed
    The theft of personal information is not only a violation of 
privacy, it is a crime that particularly puts victims of domestic 
violence, stalking and sexual assault at risk. Stolen goods are 
addressed by various state and Federal laws, and both the original 
thieves and those who trade in stolen goods are subject to prosecution 
and punishment. The theft of personal information should be handled in 
a similar fashion. However, because pretexting phone records is just 
one piece of the larger problem of pretexting, stealing, mining, and 
selling personal information, a multi-faceted approach would offer the 
best protection to all consumers.
    Pending Federal legislation, including the Consumer Telephone 
Records Protection Act of 2006 and the Phone Records Protection Act of 
2006, make the stealing, selling, and fraudulent transfer of telephone 
records a criminal offense. A number of states also have or are 
considering specific laws to criminalize and punish pretexting and the 
use and sale of such stolen information, while other states like 
Florida, Missouri, and Illinois are addressing the issue through the 
court system. Strengthening Federal law enforcement options through the 
pending legislation, and subsequent prosecution, will hold offenders, 
information brokers, pretexters, and those who use illegally obtained 
information accountable, and will help discourage data mining and 
protect consumers, including battered women. We encourage State and 
Federal entities to use all existing and emerging laws to hold 
individuals and organizations accountable for illegitimately obtaining, 
using, or selling phone records or other personal information.
    All companies that collect and retain personal information about 
their customers should enhance the security and privacy options 
available to consumers, and create levels of security that are not 
easily breached from within or from outside of the company. Given the 
creative and persistent tactics of perpetrators, companies must work 
with consumers to identify the methods of security that will work best 
for general consumers, as well as methods for consumers in higher-risk 
situations, including victims of domestic violence and law enforcement 
officers.
Conclusion
    Cell phones can be a lifeline for battered women and victims of 
sexual assault and stalking. But with illegitimate pretexting of phone 
and other personal records, those lifelines can forever connect the 
victim to her abuser, without hope of escape. As the examples I have 
described demonstrate, we cannot underestimate the potential harm to 
victims of allowing pretexting to continue. I applaud Congress and the 
state Attorneys General for addressing the widespread problem of 
pretexting and selling of stolen personal data.
    Thank you for allowing me this opportunity to address the Committee 
on this critical and urgent issue. I am happy to answer any questions.

    Senator Allen. Thank you, Ms. Southworth, for your 
testimony, and all our witnesses. We will go through questions. 
There will be 5-minute rounds.
    Let me begin asking you, Ms. Parnes. Clearly there is kind 
of a loophole, and most of this is under the FCC as far as 
Federal agencies. If Congress, in this legislation that we are 
crafting, amends the Communications Act, would the FCC have 
jurisdiction to enforce any pretexting provisions?
    Ms. Parnes. Senator, the Commission would not have the 
authority to enforce an anti-pretexting provision that amends 
the Communications Act. There have been instances, however, 
where Congress has given both the FCC and the FTC jurisdiction 
in a particular area. 900 numbers is one area where that 
occurred.
    Senator Allen. How about the Telephone Disclosure and 
Dispute Resolution Act?
    Ms. Parnes. Yes, yes, that as well. There what Congress did 
is it amended the Communications Act and also included separate 
provisions that gave the FTC authority.
    Senator Allen. That was on advertising and billing and 
collection of 900 number services.
    Ms. Parnes. Yes, sir.
    Senator Allen. Would the FCC--would anybody object if 
somehow we could craft language--and we need help from the FTC 
and I know, Mrs. Parnes, you are here representing yourself, 
not the FTC; we heard that caveat. Would anyone object--
clearly, FCC is involved and should be involved. Would there be 
any objection to dual jurisdiction out of any of our witnesses?
    [No response.]
    Senator Allen. Seeing none, let me ask you this. Anybody, 
any of the witnesses: It seems to me that this should be a 
national standard. Everyone says this all ought to be made 
illegal, the acquisition, the pretexting, the fraud, and the 
sale. Everyone agrees that that should be made illegal, and the 
question is whether there should be a national standard for 
this so you don't have a different law, in Florida it might be 
different than Virginia. It seems to me that it does not matter 
what State you are in of the Union; we ought to have a 
uniformity of a national standard, which should be stronger 
than any particular State law. But regardless, is there any 
objection to a national standard?
    Mr. Rotenberg. Well, Senator, if I may say, if the national 
standard is stronger than any State law, then certainly there 
would be agreement. I think the concern always is that 
sometimes we may end up with a national standard that preempts 
a stronger State protection, and then of course the residents 
in those States find themselves with less protection than they 
might otherwise receive. If there is a strong national 
standard, then I think that would be supported.
    Mr. Douglas. Mr. Chairman, if I might, one other thing in 
case we do not get to it, and specifically because the FTC 
raised the issue of the exception in Gramm-Leach-Bliley which 
allowed private investigators, in theory allows private 
investigators to use pretext in a court-ordered situation for 
child support, that is an exception that has allowed those 
types of offerings of financial records to continue to appear 
on websites by the dozens. Yet when you call them they do not 
use the exception; they will sell to anyone if they think you 
are not law enforcement.
    I would challenge, not necessarily the FTC, but the 
investigative industry to demonstrate once that a judge has 
authorized the use of deception against a United States bank. 
It is an exception that swallows the whole. If you had the 
criteria necessary you could get a subpoena, which is the case 
in many of these. So I would ask that there not be that 
exception this go-around.
    Thank you.
    Senator Allen. Thank you. I am sure in the event we do 
this, Ms. Parnes, you have no problem?
    Ms. Parnes. And we would certainly--the staff of the 
Commission would certainly be happy to work with the Committee 
in developing any legislation.
    Senator Allen. All right. Other things that were said: make 
this specific--this is from Ms. Monteith and others, that we 
need to overturn a court decision, which we can get into; and 
greater enforcement tools, eliminate the citation issue, which 
is what Chairman Stevens talked about; raise fines, forfeiture, 
and so forth.
    I am one who just wants to bring everything we can against 
these pretexters, whether it is through FCC enforcement or FTC 
enforcement--and in fact, if we have a national standard, that 
helps with enforcement. But also, like what we did in other 
legislation, State attorneys general could enforce the law 
against pretexters. They usually have offices themselves. Would 
there be any objection from any of you, any of our witnesses, 
to also allow States attorneys general to enforce this national 
standard within their states?
    Ms. Parnes. Senator, at the FTC we have had a tremendous 
amount of success working with the State AGs under just that 
type of statutory system.
    Senator Allen. Well, I am glad to hear that and that is an 
example and something I have advocated in the past. We again 
want to bring everyone and all resources because, listening to 
Mr. Douglas's testimony, which was very disturbing, as to what 
is going on right now, and who knows what the impact of this 
hearing will be. I saw when Mr. Rotenberg was talking about it 
earlier, I saw you raise your eyebrows in agreement. So I think 
our legislation should empower attorneys general across the 
country as well.
    Senator Pryor.
    Senator Pryor. Thank you, Mr. Chairman.
    The first order of business is I have Senator Boxer's 
questions that she wanted submitted for the record. So I will 
make sure those get in the record, without objection.
    Senator Allen. Her questions?
    Senator Pryor. Yes.
    Senator Allen. Well, to the extent they are posed to any of 
our witnesses, if you would be willing to, you may get some 
written inquiries posed to you and if you can respond we would 
surely appreciate it.
    Senator Pryor. Thank you, Mr. Chairman. Thank you.
    I want to direct my first few questions to the FCC. I want 
just a little clarification on a couple of items. First, is 
this limited to cell phones? Is this problem limited to cell 
phones?
    Ms. Monteith. No. We are looking at wireline providers and 
their records as well, although most of the information that we 
have obtained and what we have heard obviously in the media has 
focused on cell phones. But no, not limited.
    Senator Pryor. I understand that. But you are looking at 
residential and business wireline?
    Ms. Monteith. Yes, we are.
    Senator Pryor. Also, in your view is pretexting already 
illegal?
    Ms. Monteith. Under the Communications Act--the 
Communications Act does not deal with the issue of pretexting 
by data brokers, what we have heard. The Communications Act 
section 222----
    Senator Pryor. Right.
    Ms. Monteith.--deals with the safeguards and the kinds of 
procedures that the carriers have to put in place.
    Senator Pryor. Right. But in your view it is not illegal, 
at least from your jurisdiction's standpoint?
    Ms. Monteith. Not from our jurisdictional standpoint, no.
    Senator Pryor. OK. Let me now ask--I know that the FCC 
recently made some requests of some of the wireless carriers 
and that was, when, within the last few weeks; is that right?
    Ms. Monteith. Yes, in January.
    Senator Pryor. Had you made any before that time under the 
1996 Act?
    Ms. Monteith. We have at various points looked at CPNI 
issues and had a number of investigations. We have not taken 
formal enforcement action.
    Senator Pryor. So you had not made those requests of the 
wireless companies before?
    Ms. Monteith. No, I do not believe so. I would like to 
verify that, though, with my staff.
    Senator Pryor. Do you feel like the FCC has been as 
aggressive and proactive as it should have been on this issue 
before recently?
    Ms. Monteith. Yes, I think we have. Certainly when any 
information has come to our attention we have acted 
aggressively to determine what the issues are and go after 
those that are violating the Communications Act.
    Senator Pryor. You say that even though you had not sent 
these letters of inquiry to the wireless companies before 
January 2006?
    Ms. Monteith. That is correct. We did not have any evidence 
before us that would suggest this was an issue.
    Senator Pryor. Let me, if I may, turn to the FTC now. That 
is, in your opening statement I picked up on three facts. First 
is that the FTC recognized that this has been a problem for 
some time now. Second is that the FTC believes it has legal 
authority to go after pretexters under section 5 of the FTC 
Act. Third is enforcement actions have not been brought against 
any company or individual involved in records pretexting. Why 
is that?
    Ms. Parnes. Senator, we have not brought a public action 
against a company engaged in pretexting phone records. We do 
have a number of active investigations. As I mentioned in my 
statement, we have also done a surf and we have sent warning 
letters.
    But pretexting, whether for financial records or for 
telephone records, is just one part of the FTC's privacy 
program and we have a very aggressive program in this area. We 
have brought more than 80 spam cases, 11 data security cases, 6 
spyware cases, 18 do not call cases, 12 in the area of 
financial pretexting. I am certain as a former attorney general 
yourself you understand the hard choices we have to make in 
selecting the areas that we proceed in.
    Senator Pryor. So in other words, you have done in those 
areas, which are great--I am all for those areas. But in terms 
of cell phone or telephone pretexting, you have not been very 
active on that until recently; is that fair to say?
    Ms. Parnes. That is fair to say.
    Senator Pryor. And apparently you sent out warning letters 
yesterday to 20 companies offering to obtain--for the companies 
who obtain and sell telephone records, is that right?
    Ms. Parnes. Well, yes, we did a look at the 40 companies 
that EPIC identified, as I mentioned, and we saw that more than 
half of those companies are no longer making claims. We also 
looked at--we did a similar search to the search that EPIC did, 
using similar search criteria, to identify additional sites and 
we sent warning letters to those companies as well.
    Senator Pryor. Mr. Chairman, I have one last question for 
both of these two witnesses. That is, are you satisfied with 
the cooperation you are receiving from the other agency?
    Ms. Monteith. Yes.
    Ms. Parnes. Yes, we are. Yes, very much so.
    Senator Pryor. Thank you, Mr. Chairman.
    Senator Allen. It sounds like EPIC is doing a very good job 
in helping you figure out which places to be looking. 
Congratulations, Mr. Rotenberg.
    Mr. Rotenberg. Thank you, Senator.
    Senator Allen. For good citizen action.
    Which of the two Senators here to my right were here--
Senator Dorgan.

              STATEMENT OF HON. BYRON L. DORGAN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Dorgan. Mr. Chairman, thank you. I regret I was not 
here to hear the testimony. As you know, we have the attention 
span of gnats around here.
    Senator Allen. And many things going on.
    Senator Dorgan. We flit from hearing to hearing.
    But at any rate, I have had a chance to review some of the 
testimony. I just wanted to ask a question. Chairman Martin of 
the FCC laid out several legislative steps he thought Congress 
should take. One, Congress could specifically make illegal the 
commercial availability of consumers' phone records. That would 
mean that if any entity is found to be selling this information 
for a fee, regardless of how it is obtained, it would face 
liability.
    Let me ask whoever on the panel wishes to respond to that. 
Do you agree with Chairman Martin's recommendation? He is 
saying that is one of the things Congress could do. We have a 
couple of pieces of legislation, I think, that have already 
been introduced here in the Senate on that subject.
    Mr. Rotenberg. Senator, we think it is a very good 
proposal, and we were at the hearing last week when the 
chairman of the FCC made it. As I remarked earlier during my 
testimony, it is just very difficult to understand the 
circumstances under which cell phone records should be sold. 
They can be obtained by law enforcement under warrant or 
subpoena or civil litigation under subpoena. We just cannot 
understand why we would allow a market for that type of 
personal information.
    Senator Dorgan. Mr. Largent, do you agree?
    Mr. Largent. Senator, I would agree with that. We are for 
the swift enforcement of an act like that and stand ready to 
assist you any way we can.
    Senator Dorgan. Let me ask. We have apparently data brokers 
online--there was a story I believe in the Chicago Sun-Times 
that I saw earlier in January. The FBI paid a fee of $160 and 
obtained the cell phone records of an FBI special agent within 
3 hours. Apparently they were just testing the system. The 
Chicago Police Department was warning its officers their cell 
phone numbers were available to anyone for a small fee.
    There apparently are data brokers online and you go online, 
access those data brokers, and then engage in a transaction to 
purchase cell phone call records. They also claim that they can 
provide calling records for landline and voice over Internet 
protocol, or VoIP calls, as well as nonpublished phone numbers.
    Let me ask the two Federal agencies: Have you done a lot of 
work to go online, figure out who these companies are, trace 
back to these companies, and begin investigations? And if so, 
when did that begin?
    Ms. Monteith. We first began looking into this issue late 
last summer, and the first phase of our enforcement actions was 
internal investigations to try and determine who these online 
data brokers were. We did, using the companies that EPIC had 
pointed out in its petition and our own research, identify a 
number of online data brokers. We then made undercover 
purchases ourselves to try and obtain the kind of evidence that 
we need in an enforcement action to really take action against 
these types of brokers.
    Those activities were in the timeframe of October, 
November, December, and then on up to the present.
    Senator Dorgan. Ms. Parnes, if Chairman Allen wanted to 
spend whatever was necessary this afternoon to find out all of 
your telephone calls for the last 3 or 4 months, do you think 
he could do that, just based on what you know?
    Ms. Parnes. I imagine he could today, yes.
    Senator Allen. I have no desire and will not do that.
    Senator Dorgan. Let me quickly stipulate, I am not 
suggesting that.
    Ms. Parnes. Thank you.
    Senator Dorgan. But the fact that you believe that he 
probably can do that and the fact that most of us believe that 
is probably possible is pretty frightening, is it not, because 
anybody for a certain amount of money might be able to go find 
a broker someplace that can serve up a substantial amount of 
not just telephone records, a substantial amount of other 
problems out there with other financial and medical 
information. But now we are talking about telephone records. It 
is pretty frightening when you think about it. Anybody can 
spend some money and go find out your complete telephone 
records, your history over the last couple of months.
    I tend to think Chairman Martin has given us a 
recommendation that we ought to pursue immediately. There ought 
not be great debate on the question of whether you ought to be 
involved in commercial sale of these kinds of private records. 
Congress ought to move quickly and immediately to deal with 
that issue.
    Chairman Martin mentioned a couple of other things. He 
recommends that enforcement tools be strengthened. He argues 
that the need to issue a citation to non-licensees before 
taking any other type of action can hinder the investigation. I 
agree with that as well. Apparently in many cases, because the 
Internet is a venue in which you do not see anyone--what you 
see are bytes or bits--by the time they get around to dealing 
with citations, that enterprise is long gone. So I think we 
probably should take Chairman Martin's recommendations pretty 
seriously here and move as quickly as we can. I know a number 
of my colleagues, including myself, are interested in doing 
that.
    So again, I regret I did not hear all of your testimony, 
but I will have a chance to read it and I appreciate very much 
your willingness to testify and I appreciate the Chairman for 
holding this hearing. I think it is timely and really 
important.
    Senator Allen. Thank you, Senator Dorgan. For your 
information, the sole issue on the citations and warning and so 
forth as we are crafting this legislation--this is a concern of 
mine and Senator Pryor's, including also Chairman Stevens, and 
that is one clear unanimous approach. You do not give warning 
to someone when you are going to get after them or shut them 
down, right.
    Senator Nelson.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. When eight of us on this Committee filed a 
bill having to do with these telephone records about 2 weeks 
ago, the press wanted to test it. Senator Dorgan, it is exactly 
as you said. They paid--went online, found 40 sites, paid 100 
bucks by credit card, and got the cell phone records of a 
number that someone had given to them to see if they could test 
the system, and they certainly had.
    My goodness. What happens if this is--as the sheriff of one 
of my biggest counties in Florida says, what if this is the 
cell phone record of one of his undercover detectives, and all 
of a sudden all of his confidential informants are suddenly on 
that record?
    We have got a problem here, and it is not just this. I 
think Senator Burns spoke about this earlier today, it is this 
whole question of privacy on the Internet, the whole question 
of shredding our credit statements is not good enough any more. 
Now all of this information is collected electronically and 
these data information brokers house all of this information 
virtually on every American and are buying and selling this 
information. If we do not do something, none of us are going to 
have any privacy any more.
    Here again is another dramatic example. I think in your 
questioning you have already brought out why it is necessary 
that we move on this legislation fast, because the regulatory 
agencies have been slow on the uptake, as we have heard 
testimony here today. For example, the FTC knew about these 
problems in 1999 in the Touch Tone case, but here we are 
talking about cracking down.
    Let me ask all of the panel here: Do you think that in 
order to stop this dead in the tracks we need to make it a 
crime?
    Mr. Rotenberg. Yes, Senator, I think it has to be made 
absolutely clear that pretexting by any means in this country 
is clearly illegal and subject to criminal penalty, absolutely.
    Senator Nelson. Congressman Largent?
    Mr. Largent. Absolutely.
    Senator Nelson. Congressman, you have testified that the 
vast majority of cell phone records are fraudulently obtained 
through pretexting. How did you decipher that information?
    Mr. Largent. Well, we had a number of our companies that 
have actually gone back in when all this came to light, several 
months before it hit the press, and they have been in an 
earnest process of interviewing the employees that are on the 
phone with their customers, and they cannot find any instances 
that they know of that their employees have given information 
to somebody that was not the account holder. These pretexters, 
they represent that they are the account holder.
    We are getting literally hundreds of millions, if not 
billions, of calls every year asking for information about 
their--various questions about their accounts. As I said in my 
testimony, what was good customer service is now becoming a 
liability in this case. So we just want to ensure that we have 
the ability to serve our customers, our legitimate customers, 
and at the same time take care of these pretexters that are 
using lies and schemes to gain access to this information.
    Senator Nelson. Well, someone who is posing as someone that 
they are not, what about the requirement of the telephone 
company to use a password instead of the Social Security 
number, because of now the availability, unfortunately, of 
Social Security numbers on some of the government documents?
    Mr. Largent. Yes, sir, and many of our companies are doing 
precisely that. They are developing passwords, pass codes. They 
are no longer sending information via e-mail or faxing 
information now. They are only sending them to the address that 
is on the account if it is requested. So those are some of the 
things that I can tell you about. Many other things our 
companies are involved in. It was requested by the FCC on 
Monday and that is available to all of you. I do not want to 
talk about that here in this open session, but it is available 
to you and it is recorded down at the FCC.
    Senator Nelson. In your business, in order to protect 
consumer confidential information what kind of checks do you 
have on the employees that have access to that information?
    Mr. Largent. Well, all the ones that you would expect us to 
have. We have the highest security you can imagine of employees 
that are dealing with that information. But as you know----
    Senator Nelson. Do you do background checks?
    Mr. Largent. Sure, background checks.
    Senator Nelson. You do?
    Mr. Largent. Absolutely. But as you know, a lot of these 
call centers, you are talking about people that are oftentimes 
working at entry level wages, and so we definitely have issues. 
But I can tell you that we have scrupulously been going over 
and interviewing those employees to ensure that the breakdowns 
are not there. But as was mentioned in testimony here today, 
there is no doubt that some of that has been taking place, and 
we are trying to weed it out as quickly as we can.
    Senator Nelson. A final question: Did you not pay for the 
Seattle Seahawks?
    Mr. Largent. I did.
    Senator Nelson. Your team came a long way. Congratulations.
    Senator Allen. Thank you, Senator Nelson.
    Let me go through some other ideas here. I just want to 
elicit responses or ideas from you. I think it was in answer to 
Senator Dorgan's questions, we somehow got Mr. Rotenberg and 
Mr. Largent together, Congressman Largent, together. What would 
be any legitimate reason for anybody to ever want somebody's 
telephone records other than for law enforcement? Is there any 
other reasons other than a court order where someone would want 
to have someone's telephone records? This came up. I just 
wanted to get some clarification. Mr. Douglas, if you want to 
add to it you may.
    Mr. Douglas. Well, as the former private investigator in 
the room, I will make the----
    Senator Allen. Congressman, I just want to make sure your 
reply in that one on one there was accurate.
    But go ahead, Mr. Douglas.
    Mr. Douglas. I will make the argument that they are making. 
And by the way, this morning they were discussing how this is a 
very--the PI and investigative trade was discussing how this is 
a very unbalanced panel here today. They feel that there should 
be somebody here arguing for them to be able to get these 
records. The argument they will make--and this addresses one 
bigger point I would like to make if I could, Mr. Chairman. The 
argument they will make is that they fight fire with fire, that 
to track down deadbeats, to develop witnesses, to locate 
witnesses, that they need access to these records the way law 
enforcement has it. And they have developed this tactic of 
going out and--let us call it what it is--stealing these 
records.
    But they have found there is a very lucrative market and, 
without the pretexting connotation, it is the elephant in the 
room here that nobody is talking about, and that the FCC and 
the FTC have never addressed. I think the FTC is very aware. It 
is attorneys that are driving the cash flow that puts these 
websites up so that stalkers can buy them. It is some of the 
most prestigious law firms in this country using these 
investigators and illicit information brokers to buy this.
    Monday, the Pelicano indictment in Los Angeles, where he 
was wiretapping celebrities and Hollywood executives. If you 
read the indictment closely, it talks specifically about 
bribing and using SBC Global phone company employees to get 
customer proprietary information, toll records, and the 
information to conduct these wiretaps. Who did he sell it to? 
Attorneys in Los Angeles.
    So I support--and, excuse me, I think it was Mr. Pryor who 
raised the question before. I support the outlawing of the sale 
and purchase of records because law enforcement authorities 
will tell you that you cannot go after the buyers if you are 
just using the pretext standard, because under Gramm-Leach-
Bliley to make those cases against the attorneys you would have 
to demonstrate that they know the records were obtained by 
these brokers through deceit and that is a very difficult 
standard for the Federal agencies to meet.
    So I just wanted to add that to the record.
    Senator Allen. Thank you. In view of that, what would you 
think of the idea of allowing phone companies, whether it is 
SBC or others--and Congressman Largent, you might want to bring 
up; we are talking about attorneys general and the FTC, which 
gets after individuals; FCC gets after companies. But what 
about allowing SBC or whatever it may be to actually also have 
a private right of action against any of these third-party data 
brokers?
    Mr. Douglas. Absolutely----
    Senator Allen. Would you like that, Congressman Largent?
    Mr. Largent. We would, yes, sir.
    Senator Allen. What about the idea--and we have kind of 
gotten around this. What about the idea--and you do not need to 
get into all the details of how there is security. What about 
the idea of telephone companies filing security procedures with 
the Federal Communications Commission, in other words proving 
to the FCC that you--and the FCC has to approve it--that you 
have approved security procedures?
    I am not saying that that may still not get breached. But 
it seems to me that, while there may be some rare legitimate 
uses or need for these records to be compiled--and every 
company may do it differently, which in its own way may 
actually be good because if somebody breaks the code to one 
they will break it for all, and it is probably best--and 
obviously this has to be kept confidential.
    What would you think of that, Congressman Largent? I am 
talking about pre-approved plans by the FCC. And I would like 
to hear from you, Ms. Monteith, as far as the FCC having the 
capabilities of pre-approving security guidelines from 
communications companies.
    Mr. Largent. Well, based upon the experience that we have 
had, I will just speak very briefly. This is an ever-evolving 
problem, that just when you set up a system to prevent people 
from breaking in they figure out how to get around that one and 
we have to improvise and we have to change it and do something, 
we have to tweak the system in order to cut them off at the 
pass.
    So I am afraid that if we try to implement a system, even 
if it is different systems for different companies, and we 
submit that plan to the FCC, it could mean in 3 months or 6 
months or 9 months we have to change it because they have 
figured out how to get around the system at that point in time, 
even if it is a confidential disclosure to the FCC only.
    Senator Allen. Ms. Monteith?
    Ms. Monteith. Thank you. I think Chairman Martin has made 
clear that he thinks that the strongest proposal would be to 
specifically make illegal the commercial availability of 
consumers' records, very clean and no loopholes. I would have 
to take back to the Chairman and the Commission the idea of 
filing best practices, I believe, with the Commission and our 
review of those. But I am happy to do that and follow up with 
you.
    Senator Allen. Well, we need to come up--and I will turn it 
over to Senator Pryor for another round of questions. We need 
to--there is a responsibility on the part of many people. The 
communications companies clearly have this information and 
there should be--and I am sure that you find no desire in 
having to be here and explaining what some of your member 
companies have done. But it seems to me that this has to be hit 
at so many different angles, that every single approach that we 
can take to assure that this privacy will be protected needs to 
be put into legislation and enforced and everyone pitching in 
on it.
    Senator Pryor.
    Senator Pryor. Thank you, Mr. Chairman.
    Ms. Parnes, I have one--the last time I want to put you on 
the spot. That is, if you answer this question correctly.
    [Laughter.]
    Ms. Parnes. I will try.
    Senator Pryor. On the issue of civil penalties, if the 
Congress were to give the Federal Trade Commission the 
authority to impose civil penalties, what do you think the 
level of those penalties should be?
    Ms. Parnes. Well, currently the general civil penalty 
authority for the Commission when we have it gives us the 
authority to seek $11,000 per violation. It is usually 
difficult for us to actually get that much money because there 
are many, many violations and we could be talking about 
millions and millions of dollars. But I would think that that 
is a reasonable place to start, certainly.
    Is that the right answer?
    Senator Pryor. That is the right answer.
    Ms. Parnes. Thank you.
    Senator Pryor. That is actually what I was thinking too, 
but I just did not know if you had a different take on it.
    Let me ask you, Congressman Largent if I may. That is, you 
said something in your earlier testimony that I thought was 
interesting about credit cards. I would like to hear a little 
bit more detail on your idea there about what, in your view, 
what should the rule be on credit cards and if you could expand 
on that.
    Mr. Largent. Well, that is actually a new twist. We 
testified over in the House last week and we started thinking 
about this and realized that some of the violations as it 
pertained to the Gramm-Leach-Bliley Act created penalties if 
you were to use a credit card in a transaction to gain access 
to information that were found in financial records.
    Senator Pryor. Penalties against the card user or against 
the company that is using a credit card in a transaction?
    Mr. Largent. The law actually is constructed, it is my 
understanding it is constructed, that the credit card company--
that they cannot utilize the credit card to engage in a 
transaction of this type that we are talking about.
    Senator Pryor. I would like to explore that further. Do you 
have in mind that if you have these data brokers, I guess you 
want to call them, that in order for them to get information, 
say for example on the cell phone number, that the number on 
the--the information on the cell phone they are seeking would 
have to be the same name as on the credit card? Is that the 
kind of safeguard you are talking about, where the credit card 
would have to match up with the person requesting information?
    Mr. Largent. Right. And I misspoke. I said it was the 
Gramm-Leach-Bliley Act. It was not. It was on the pornography 
legislation that passed in the House and the Senate.
    Senator Pryor. Well, what you said is intriguing and I 
would like to pursue that after the hearing and visit with you 
about that and talk to your folks about that.
    Mr. Rotenberg, let me ask you about, last July you filed a 
complaint with the FTC about a website that offered phone 
records and PO Box information; is that right, for a fee 
through pretexting? What was the response from the FTC to that 
complaint?
    Mr. Rotenberg. Well, initially really nothing, Senator. In 
fact, we followed up the initial complaint with a more detailed 
letter, with the assistance, I should mention, of Mr. Douglas, 
who has been very helpful to us throughout this, where we were 
able to describe 40 different companies that were making this 
kind of call detail information available.
    Now, it is true that the FTC has gone after pretexting in 
the financial services context. They did so back in 1999. But 
they really have not looked at pretexting in the phone records 
context until very recently.
    Senator Pryor. Is that also true for the FCC?
    Mr. Rotenberg. Well, the FCC we understand in the next 
couple of days is going to announce action on our petition. 
They have already taken enforcement action against two 
companies under section 222 and I believe that this week they 
will be announcing a broader rulemaking on stronger security 
standards, and that is in response to our petition.
    Senator Pryor. Mr. Douglas, if I can turn to you just for a 
moment. You mentioned the caller ID spoofing in your testimony 
and showed us a website. Is there any legitimate reason why you 
would do a caller ID spoof other than maybe law enforcement?
    Mr. Douglas. No, and many of the sites will advertise it as 
entertainment purposes. But it has become very well known in 
the fraud community as a way to deceive people, and 
particularly in stalking situations and others it is very 
dangerous.
    Senator Pryor. You also mentioned attorneys a few moments 
ago. I just was a little confused about that. How in your view, 
how are the attorneys using this information?
    Mr. Douglas. Well, for the short period of time in 1997 
when I actually bought these and learned about what was going 
on, it was all attorneys, since that is all that I worked with 
as a private investigator, who were interested in them. They do 
it in collections cases, they do it in competitive intelligence 
cases.
    In fact, there is a very good paragraph in the indictment, 
in the Pelicano indictment, at least Monday, where they 
describe it as being used for tactical advantage in litigation 
situations. So if I want to know what my competitor is doing in 
a business deal or any type of litigation that you can think 
of, knowing who they are talking to is very important.
    It has become the electronic equivalent in the private 
investigative trade of dumpster diving. In the old days before 
the Internet, if you wanted to know what a business was doing, 
pick up their trash at the end of the night, hopefully when it 
is put out at the curb--that makes it, unfortunately in my 
opinion, legal--and go through their records. Well, now just 
buy them online.
    Senator Pryor. It sounds like your solution to this problem 
would be to follow pretty much what we did with Gramm-Leach-
Bliley, just make it clear that it applies to telephone 
information?
    Mr. Douglas. Yes, twofold. First and foremost, I would like 
to see a fast bill out of the Senate and action very quickly to 
outlaw specifically what we are talking about today. In my 
perfect world, down the road we need to address these tactics 
being used for all consumer records. They are already being 
used to get utility information, gas, electric, cable TV, 
satellite TV.
    You have to understand how they work. It is not about the 
record itself. It is where can I find information. There is a 
five-step process: know what information I want, know who is 
the custodian of the information, know who the custodian will 
release it to, know under what circumstances they will release 
it, become that person with those circumstances.
    So it is not just that it is about phone records, although 
the prevalence of that has brought it to a national crisis. It 
is about any consumer record.
    Senator Pryor. The last question I have for you, Mr. 
Douglas, is, just by way of background, have you been contacted 
or do you work for any telecom companies in order to try to 
help them fight against pretexting and identity theft? Have you 
been contacted by anyone in the telecom industry?
    Mr. Douglas. No, not so far.
    Senator Pryor. That is all I had, Mr. Chairman. Thank you.
    Senator Allen. Thank you, Senator Pryor. Let me follow up 
on that question.
    Since you have not, Mr. Douglas, been asked----
    Mr. Douglas. And my cell phone drops out just like 
everybody else's, too.
    [Laughter.]
    Senator Allen.--what do you believe that the phone 
companies and the telecommunications associations, like CTIA, 
could do to better protect their phone records and their 
customers? What recommendations would you have?
    Mr. Douglas. Sure, and I actually wrote down what Mr. 
Largent said because he hit the nail on the head when he said 
customer service as a security flaw. That is how this works in 
all industries, but specifically the phone industry. The 
pretexters, to use the shorthand, know that they can take 
advantage, that the phone company's priority is customer 
service.
    In the customer call center, which are the employees with 
the least amount of time, the least paid and the highest 
turnover rate, and usually the least trained overall, they are 
graded on how fast they move the call, how successfully they 
move the call, and do they offer other services through 
marketing. Security, customer authentication, is usually, 
unfortunately and historically, fairly low on that schematic, 
if you will.
    So a number of things. One, they need to better educate 
their employees as to these tactics. The banking industry went 
through this very industry after the passage of Gramm-Leach-
Bliley and was fairly successful in that regard.
    Where I would disagree with Mr. Largent respectfully is 
that there do need to be some baseline standards in customer 
authentication protocol. You cannot use biographical 
identifiers like Social Security number, mother's maiden name, 
date of birth. In many cases, even when they use passwords or 
PINs they will default to that if the person says, I have 
forgotten my password or PIN. Excuse me, this is what they will 
say on the phone: Come on, you SOB; I am trying to catch a 
plane; I need my information right now. That is how the art of 
pretext works, either badgering, cajoling, whatever.
    So there need to be some baseline standards. The banking 
industry is looking at two-tier authentication. There is a 
great template out there in the banking regulatory agencies and 
some of the regulations that they have promulgated in the wake 
of Gramm-Leach-Bliley. So education and baseline standards, Mr. 
Chairman.
    Senator Allen. Congressman Largent, what is your initial 
response to Mr. Douglas's?
    Mr. Largent. I agree with him. I think--and these are 
exactly the type of steps that our companies are engaged in 
right now.
    Senator Allen. Thank you.
    Let me finish finally with you, Ms. Southworth. You have 
been listening to all of this from the FTC and FCC, the 
communications industry, PIs, and the folks with EPIC. You 
testified on the inherent risks and the real live risks to 
women who have been victimized on account of it, as did Mr. 
Douglas in his very graphic, sad testimony of a woman who was 
killed by someone who received this information.
    What would you suggest? Just give us one, two, three 
suggestions. What would you suggest that we do in this 
legislation that we are going to be working on? It is going to 
come up, I suspect, very soon after this hearing. Give me one, 
two, and three, what components would you suggest to your 
government leaders?
    Ms. Southworth. I cannot talk about this issue without 
thinking about stolen goods. We think of theft when you steal 
something from someone and it is a crime. If you steal my 
personal information it is theft, it is a crime. So I do not 
think there should be any less penalties because it is data 
versus property. So I would love to see that this be taken 
seriously.
    I agree with all the other panel members with the issues. I 
have been nodding vigorously throughout the discussion. The 
piece that I think may or may not be something you can address 
in the legislation, but it is the critical element that has not 
been mentioned yet, it is the consumer education piece. 
Everybody can do everything to increase security standards and 
deal with the people misusing the data. However, if consumers 
do not know not to use their pet's name as their password, we 
still have a security problem. So it is critical to reach the 
consumers too so they understand that this is a broader issue 
and please do not use your mother's maiden name as your 
password.
    Senator Allen. Use your pet's name is your suggestion?
    Ms. Southworth. No, do not, do not use your pet's name, 
your mother's maiden name, or your anniversary date.
    Senator Allen. Thank you, Ms. Southworth.
    Do you have any further questions?
    Senator Pryor. I just have one quick follow-up.
    Senator Allen. Go ahead.
    Senator Pryor. To you, Ms. Southworth. Again, thank you for 
what you do and your organization does in the realm of domestic 
violence. I used to work very closely with your folks in 
Arkansas and they are wonderful to work with.
    Ms. Southworth. They are great.
    Senator Pryor. I do have a question to you about the FCC 
and the FTC. Have you ever worked with them in any 
investigatory capacity?
    Ms. Southworth. Not an investigatory capacity. We will be 
working closely with the Federal Trade Commission tomorrow on 
the anti-spyware initiative issues.
    Senator Pryor. But not on this issue?
    Ms. Southworth. Not thus far, but we would be happy to 
work--we work closely with many Federal agencies.
    Senator Pryor. Right.
    Ms. Southworth. So we would be happy to work with them in 
any capacity.
    Senator Pryor. Either the FTC or the FCC.
    Ms. Southworth. Absolutely.
    Senator Pryor. Even after Amy Boyer was killed in 1999, you 
did not--as far as you know, you did not have any contact?
    Ms. Southworth. My project did not exist then. We were 
founded in 2002. So now we are sort of the go-to folks for 
anything around domestic violence victimization and technology.
    Senator Pryor. Thank you.
    Ms. Southworth. The one piece that I would add to that, 
though, is that you mentioned, is the private investigator 
piece. Peggy Klinky was killed in 2003 after her ex found her 
using a private investigator, and I do not know what 
information that private investigator got through pretexting.
    Senator Pryor. Thank you.
    Mr. Chairman, thank you for the hearing.
    Senator Allen. Thank you.
    One final question, Ms. Southworth, just to make sure. You 
have worked with State attorneys general undoubtedly.
    Ms. Southworth. Absolutely.
    Senator Allen. So I think that will be one component that 
is very important in this legislation, to have that additional 
enforcement from those that actually have such offices that are 
in the States, closer to the people, and probably--not that an 
attorney general's office is something you walk into, but 
nonetheless it is closer and responsive to the people.
    So I want to thank all of you, all of our panelists, for 
your interest, for your insight, your testimony, your ideas. It 
is going to make it very, very helpful to us as we put 
together, working together on a bipartisan basis--when I look 
at this list, you have folks from Virginia, Arkansas, Alaska, 
Hawaii, Louisiana, Montana, California, Oregon, North Dakota, 
and Florida. There is a great deal of concern.
    I mentioned in the beginning when I first heard this I said 
we need to act. You have given us some good ideas. I also like 
the ideas that some of you mentioned, is that people need to be 
aware of this and come up with passwords, so to speak, that are 
not easily discernible and replicable. The phone companies or 
communications folks are going to need to make a better effort 
clearly of this. I am glad to hear, Congressman Largent, your 
leadership and willingness to do it. Mr. Douglas, you have 
brought up the tragedies that occur from this. Mr. Rotenberg, 
thank you for your great public citizenry. I think it helps 
certain Federal agencies get moving.
    But we need to crack down. It is going to be made a crime. 
We are going to bring every aspect that is logical and 
reasonable toward this at the Federal level, State attorneys 
general, get rid of some of the loopholes and, what were they 
calling it, the certifications, giving the criminals a heads 
up. Absolutely absurd. We will have greater fines, longer 
statutes of limitations. There may be some aspects of this that 
you do have to certify a security approach with the 
communications companies.
    But we are going to act. America expects us to. You help 
propel us and give us the information that we can put together 
legislation, not just legislation for the heck of it, but 
legislation that is effective.
    I thank you all and this hearing is adjourned.
    [Whereupon, at 4:23 p.m., the Subcommittee was adjourned.]
                            A P P E N D I X

  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
                           Kris Anne Monteith
    Question 1.  In recent weeks, both the Federal Communications 
Commission (FCC) and the Federal Trade Commission (FTC) have initiated 
enforcement actions against pretexters. How do your two agencies 
coordinate your enforcement activities to ensure that we are not 
duplicating efforts?
    Answer. FCC staff and FTC staff have communicated regularly to 
discuss our respective enforcement efforts and to avoid duplicative 
efforts. We will continue to engage in regular communications to share 
information with each other to facilitate our enforcement activity. The 
FCC is focused principally on the activities of telecommunications 
carriers in protecting their customers' sensitive personal information 
while the FTC is focused on the activities of the data brokers 
themselves in acquiring the data from carriers. Thus, our efforts are 
naturally complementary and the risk of duplication is low.

    Question 2. What are the maximum penalties under both the 
Communications Act and the FTC Act, respectively, that can be imposed 
on pretexters?
    Answer. The FCC's rules regarding the protection of Customer 
Proprietary Network Information (CPNI) apply to telecommunications 
carriers. Thus, the FCC would not be able to impose penalties against 
pretexters for their CPNI-related practices unless the pretexters were 
also licensed telecommunications carriers. If pretexters, as carriers, 
engage in violations of the Communications Act or Commission rules, the 
FCC may impose a maximum penalty of $130,000 per violation or per day 
of a continuing violation up to a maximum of $1.35 million.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
                            Lydia B. Parnes
    Question 1. In recent weeks, both the Federal Communications 
Commission (FCC) and the Federal Trade Commission (FTC) have initiated 
enforcement actions against pretexters. How do your two agencies 
coordinate your enforcement activities to ensure that you are not 
duplicating efforts?
    Answer. The FTC and FCC have both formal and informal cooperative 
arrangements for working on cases with overlapping jurisdiction. For 
example, the agencies have a formal memorandum of understanding 
relating to telemarketing enforcement, which includes an agreement to 
meet regularly in order to coordinate comprehensive, efficient, and 
non-redundant enforcement of our respective telemarketing statutes and 
rules. Under that agreement, the FTC provides the FCC access to Do Not 
Call Registry data, and each agency agrees to make its consumer 
complaints available to the other regarding possible violations of 
Federal telemarketing rules. That agreement has worked well.
    On other projects and cases, the FTC has granted the FCC access to 
investigative files and both agencies share complaints with the other. 
The agencies are continuing this close coordination with respect to our 
current investigations of telephone pretexters. Staffs of the agencies 
have frequent and ongoing discussion about targets, and have shared 
information obtained in the investigations. Because the agencies have 
different enforcement tools and jurisdictional limits, the FTC's 
investigations are focused on the businesses that offer to obtain and 
sell consumer phone records, while the FCC has oversight of the 
telecommunications carriers. \1\
---------------------------------------------------------------------------
    \1\ The FTC's governing statute, the FTC Act, specifically excludes 
FTC jurisdiction over common carrier activities that are subject to the 
Communications Act. 15 U.S.C. Sec. 46(a).

    Question 2. What are the maximum penalties under both the 
Communications Act and the FTC Act, respectively, that can be imposed 
on pretexters?
    Answer. With respect to the FTC, the Commission has the authority 
to seek equitable remedies in its Federal court actions. These remedies 
could include, in appropriate cases, consumer redress or disgorgement 
of ill gotten gains. It can also seek conduct prohibitions including 
injunctions against further violations of the law, or, in certain 
cases, an outright ban on engaging in certain types of conduct or 
business. Once entered, violations of Federal district court orders are 
punishable by civil or criminal contempt.
    The Commission does not have authority to seek civil penalties for 
a law violation except in specified circumstances, i.e., for violation 
of a trade regulation rule or of an order in a prior enforcement 
action, or if specifically so provided in an applicable statute. I 
believe that civil, and possible criminal, penalties would provide a 
strong deterrent to telephone pretexting. In the telephone pretexting 
context--where the harm includes a privacy violation--it may often be 
difficult to calculate either consumers' economic injury or a 
violator's gains. Consequently, civil penalties may be a more 
appropriate remedy than some of the agency's existing tools like 
consumer redress.

    Question 3. The FTC originally fined Touch Tone $200,000 for 
violation of the GLBA and unfair and deceptive practices under Section 
5. Why was this amount later suspended, allowing Touch Tone to get away 
with no monetary punishment?
    Answer. The Touch Tone case was filed prior to the passage of the 
Gramm-Leach-Bliley Act and therefore charged violations only of the FTC 
Act. The $200,000 judgment in Touch Tone represented the defendants' 
alleged unjust enrichment from the sale of consumers' financial 
information. However, according to sworn financial disclosures, the 
individual defendants were unable to pay this amount. The final order 
makes the judgment immediately payable to the FTC if either defendant 
is found to have materially misrepresented his or her financial 
condition.

    Question 4. In Operation Detect Pretext, the FTC brought charges 
against three firms, two of which were fined $2,000 and the third 
wasn't fined at all. Why didn't the FTC exact larger fines for this 
activity and why weren't the original fines maintained?
    Answer. The FTC's remedies in the three Operation Detect Pretext 
cases were based on the disgorgement of unjust enrichment and 
injunctive relief. In two of the cases, the defendants' gains from the 
sale of the alleged pretexting services were $2,000. In the third case, 
the defendant's financial gains were $15,000. However, as in Touch 
Tone, a sworn statement from the defendant in the third case 
established that he was financially unable to pay this amount. The 
final order in this case also makes this payment immediately payable to 
the FTC if the defendant is found to have materially misrepresented his 
financial condition. \2\
---------------------------------------------------------------------------
    \2\ See http://www.ftc.gov/opal2002/03/pretextingsettlements.htm.
---------------------------------------------------------------------------
    In addition to imposing monetary payments, the orders in each of 
the three cases also prohibit the defendants from engaging in the same 
unlawful conduct, require them to provide the Commission with reports 
on their compliance with the orders, and ultimately allow the 
Commission to bring contempt actions for failure to comply with 
material terms of the orders.

    Question 5. Why hasn't there been any more legal action taken 
against pretexters by the FTC since 2001?
    Answer. The Commission has brought seven additional pretexting 
cases since 2001, bringing the total to 11 such actions. \3\ These 
cases are part of the larger Commission program aimed at protecting 
consumers' privacy. For example, since the Subcommittee hearing, the 
Commission announced a settlement with CardSystems Solutions, Inc., a 
credit card processor that allegedly failed to implement reasonable 
measures to protect consumer credit card information. The Commission's 
complaint alleges that the company's lack of appropriate security 
measures exposed the credit card information of tens of millions of 
consumers and resulted in millions of dollars of fraudulent charges. 
\4\ The CardSystems settlement follows the FTC's record-breaking 
settlement with the data broker ChoicePoint, Inc. This agreement 
settles charges that ChoicePoint lacked reasonable security and 
customer verification procedures in violation of the Fair Credit 
Reporting Act and FTC Act. The settlement requires ChoicePoint to pay 
$10 million in civil penalties (as a remedy for the FCRA violations) 
and $5 million in consumer redress.
---------------------------------------------------------------------------
    \3\ See http://www.ftc.gov/privacy/privacyinitiatives/
pretexting_enf.html.
    \4\ See http://www.ftc.gov/opa/2006/02/cardsystems_r.htm.
---------------------------------------------------------------------------
    As mentioned in the Commission testimony and my oral remarks during 
the hearing, the Commission is also investigating a number of companies 
that appear to be engaging in telephone pretexting. Commission 
attorneys currently are evaluating the evidence to determine if law 
enforcement action is warranted.
    I also believe that in addition to law enforcement efforts, 
legislative changes could help address the problem of telephone 
pretexting. Although the Commission already can bring actions against 
pretexting for consumers' telephone records under the FTC Act, I 
believe Congress should consider whether additional legislation would 
be appropriate in this area. One approach would be a specific 
prohibition on the pretexting of telephone records. Legislation of this 
kind could help deter pretexting by making clear that this practice is 
illegal. If Congress were to consider such legislation, I would 
recommend that it give the Commission authority to seek civil penalties 
against violators, a remedy that the FTC does not currently have in 
cases like this. I believe that, in this area, penalties are the most 
effective civil remedy. This is also a situation where criminal 
penalties may be warranted, but I would defer to the Department of 
Justice on the need for criminal legislation and its structure. I and 
my staff would be happy to work with Commerce Committee Members and 
staff on any legislation that may be under consideration.
    Finally, FTC staff recently conducted an Internet surf of telephone 
pretexters and found that some sites offering these records were 
registered to foreign addresses. This finding underscores the 
importance of the Commission's previous recommendation that Congress 
enact cross-border fraud legislation. The proposal, called the U.S. 
SAFE WEB Act, would overcome many of the existing obstacles to 
information sharing in cross-border investigations.
    I hope that the foregoing information is helpful. Please let us 
know whenever we may be of service. If you have any questions or 
comments, please feel free to contact me, or you or your staff may 
contact Anna Davis, the Director of the FTC's Office of Congressional 
Relations, at (202) 326-2195.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
                             Marc Rotenberg
    Question 1. In a statement made by Jimmie Mesis, Editor-in-Chief of 
Private Investigator (PI) Magazine, on June 11, 2005, to his readers 
regarding pretexting complaints, ``My immediate concern is not the FTC 
. . . [w]hen the complaint comes from EPIC, we have a problem.''
    Why do you believe you have been more successful in intimidating 
pretexters than the FTC has?
    Answer. Since its founding in 1994, EPIC has made effective use of 
the Internet to draw public attention to new threats to personal 
privacy. While we lack the resources and enforcement authority of the 
Federal agencies, we believe that it is possible, in the short term, to 
curtail some of the worst business practices by publicizing the problem 
online.
    However, our ``watchdog'' role is not an adequate substitute for 
the effective enforcement of privacy laws that help safeguard consumers 
and establish trust and confidence in the online business environment.
    Consumer concerns about new threats to privacy are broad and 
growing. The Federal Trade Commission clearly needs more resources to 
bring enforcement actions against companies violating Section 5 of the 
FTC Act.
    The statement from the Editor-in-Chief of Private Investigator 
Magazine points to another serious problem: he does not recommend 
curtailing pretexting or the sale of personal information, nor does he 
suggest that pretexting is inherently bad; rather he advocates that 
private investigators and others take the practice underground. Later 
in the message, he writes ``PI's need to stop promoting the selling of 
toll records directly to the public as a commodity . . . I also suggest 
that PI's promote such services as `telephone research' as compared to 
coming right out and mentioning tolls, non-pubs, etc.'' (emphasis 
added). \1\
---------------------------------------------------------------------------
    \1\ E-mail of Jimmie Mesis, Editor-in-Chief of Private Investigator 
Magazine, to readers (July 11, 2005).
---------------------------------------------------------------------------
    We believe that the community will follow this advice, and simply 
move the trade underground, and further obfuscate the practice by 
calling it ``telephone research'' rather than ``phone breaks'' and the 
like. That is why it is critical to enact comprehensive legislation 
that will broadly prohibit pretexting.

    Question 2. If legislation was passed to prevent pretexting, who 
would you recommend be the enforcement authority on matter?
    Answer. Because widespread pretexting can easily occur without 
necessarily attracting the attention of the FTC, EPIC recommends that 
the Committee empower state attorneys general, individual consumers, 
and companies deceived by pretexting to seek damages from pretexters 
and the sellers of personal information. The limited action by the FTC 
indicates that additional law enforcement support is needed to combat 
the problem and properly enforce any legislative solution to this 
problem. State attorneys general are in a better position to hear the 
complaints of individual consumers, and can supplement FTC action.
    However, even state officials operate at some remove from those 
most directly affected by the sale of personal information--the 
individual victims. A private right of action for individuals will 
allow victims to defend themselves from those who would sell their 
privacy for a profit, without having to attract the attention of, then 
wait for Federal or state authorities to focus on their particular 
case. The Telephone Consumer Protection Act of 1991, which limits 
telemarketing and the transmissions of junk faxes, contains model 
enforcement language that allows the individual to sue in state court 
and get default damages.
    We also support the right of the carriers to bring actions against 
pretexters. Carriers are in a position to detect patterns of intrusions 
into their systems, and should be able to bring enforcement actions 
against pretexters.

    Question 3. Mr. Rotenberg, in your testimony, you noted EPIC's 
rulemaking petition filed at the FCC that calls for action by the FCC 
to enhance the security requirements that telecommunications carriers 
must follow under section 222 of the Act. Like you, I am pleased to 
know that the FCC will soon put this petition out for public notice, 
and hope that they will expedite the consideration of this item.
    Answer. Senator, we very much appreciate your support for the 
decision of the FCC to undertake a rulemaking, in response to EPIC's 
petition, to enhance the security requirements that telecommunications 
carriers must follow under section 222 of the Act. \2\ We hope that 
EPIC's recommendations for stronger security safeguards will be 
incorporated into a final rule from the Commission. While we understand 
industry concerns about maintaining flexibility in combating fraud, we 
believe that sensible regulations will discourage particularly bad 
security practices, such as using easily obtained biographical data 
(such as zip code or date of birth) for authentication. Other 
guidelines, such as the maintenance of audit trails that allow 
investigators to know who has accessed customer data and notifications 
of data breaches, are commonsense techniques that companies that 
collect and maintain customer information should implement.
---------------------------------------------------------------------------
    \2\ Notice of Proposed Rulemaking, In re Petition for Rulemaking to 
Enhance Security for Access to Customer Proprietary Network 
Information, FCC Docket No. 96-115, RM-11277 (Feb. 10, 2006), available 
at http://hraunfoss.fcc.gov/edocs_public/attachmatch/FCC-06-10A1.pdf.

    Question 4. In your opinion, does section 222 confer sufficient 
authority on the FCC to ensure that those who handle phone record data 
in the normal course of business will protect such data? For example, 
are Voice over Internet Protocol (VoIP) providers covered under section 
222?
    Answer. Section 222 states that ``telecommunications carrier[s]'' 
have a duty to protect ``customer proprietary network information.'' 
The FCC has the authority under this section to create rules to protect 
the confidentiality of CPNI for telecommunications carriers. Therefore, 
the FCC has sufficient authority to ensure that those handling 
traditional telephone and cellular records must protect that data.
    However, as your question indicates, this power is limited to the 
entities that the FCC may regulate under Title II of the Communications 
Act. The FCC has held that computer-to-computer VoIP, is not regulated 
under Title II, and thus fall outside the FCC's regulatory scope. \3\ 
The extent to which the FCC might regulate VoIP providers that connect 
to the telephone network is a more problematic question, in which EPIC, 
in at least one other context, is involved. \4\ The FCC, however, has 
not yet made a final determination on this issue. \5\
---------------------------------------------------------------------------
    \3\ See In re Petition for Declaratory Ruling that pulver.com's 
Free World Dialup is Neither Telecommunications Nor a 
Telecommunications Service, 19 F.C.C.R. 3307 (2004).
    \4\ EPIC is one of several petitioners in Am. Council on Educ. v. 
FCC, Docket No. 05-1404 (D.C. Cir. filed Oct. 24, 2005), challenging 
the FCC's application of the Communications Assistance for Law 
Enforcement Act to facilities-based broadband providers and 
interconnected VoIP providers.
    \5\ See In re Petition for declaratory Ruling that AT&T's Phone-to-
Phone IP Telephony Services are Exempt from Access Charges, 19 F.C.C.R. 
7457 (2004) (holding that phone-to-phone services that use Internet 
Protocol are subject to access charges levied against 
telecommunications carriers in certain situations); but see, e.g., 
Southwestern Bell Tel. v. Global Crossing Ltd., 2006 U.S. Dist. LEXIS 
4655 (Feb. 7, 2006) (staying ruling pending FCC determination of 
whether or not the VoIP telephony at issue is regulated as a 
telecommunications service). See also Frontier Tel. v. USA Datanet 
Corp., 386 F. Supp.2d 144 (W.D.N.Y. 2005) (same).
---------------------------------------------------------------------------
    While I do not believe that Section 222 currently gives the FCC the 
power to regulate interconnected VoIP, Congress and your Committee 
should act to ensure that, as the government extends its regulatory 
power into new areas, it should also build privacy protections into new 
laws and regulations. If the FCC finds that it has regulatory power 
over other aspects of interconnected VoIP via the Telecommunications 
Act, then the privacy-protective portions of the Act, including Section 
222 should apply equally.

    Question 5. Does VoIP call data information qualify as ``CPNI'' 
under the statute?
    Answer. Since the statute specifically defines CPNI by referencing 
``telecommunications carrier[s],'' VoIP call data information would not 
be considered CPNI, insofar as a VoIP provider would not be considered 
a telecommunications carrier.

    Question 6. Do you have suggestions for how section 222 of the 
Communications Act might be changed to apply evenly and fairly?
    Answer. Consumers have clearly been disturbed by the news that 
their phone records are for sale by pretexters. Many are similarly 
disturbed that their call records and subscriber information are also 
being sold by their carriers to other for marketing purposes, under the 
very auspices of Section 222. Under current FCC regulations 
interpreting Section 222, \6\ telecommunications carriers may place the 
burden upon consumers to opt out of this sale of their CPNI to others. 
Frequently, the notices informing consumers of this right are hard to 
find, hard to read, and hard to understand. Chairman Martin of the FCC 
has expressed a desire to use a more privacy-protective opt-in standard 
for the disclosure of such sensitive information, and legislation 
specifying the standard within Section 222 would allow this to happen.
---------------------------------------------------------------------------
    \6\ The current FCC regulations followed the decision in U.S. West, 
Inc. v. FCC, 182 F.3d 1224 (10th Cir. 1999), cert. denied, 530 U.S. 
1213, (2000).
---------------------------------------------------------------------------
    Meanwhile, consumers lack the ability to limit disclosure of their 
``subscriber information,'' which includes home addresses. Many 
individuals, such as victims of stalking or domestic violence, are made 
more vulnerable by the disclosure of this information. Such individuals 
frequently rely upon the increased privacy afforded by the use of a 
cell phone. Section 222 should also ideally prevent the sharing of 
subscriber information, absent the permission of the individual 
consumer.
    As for protecting consumers' records held by VoIP providers and 
other businesses, a general ban on pretexting could be coupled with 
requirements that VoIP providers implement basic data security 
measures. This could be achieved by amending Section 222, although any 
amendments should limit their scope to that section, to prevent 
inadvertent application of the Telecommunications Act to VoIP, a 
technology not widely contemplated during the drafting of the Act.
    Another solution would be to require VoIP providers to implement 
security measures for customer data in some other portion of the U.S. 
Code, to be enforced by the FTC, attorneys general, individual 
consumers, or other bodies. This would avoid the jurisdictional 
questions of regulating VoIP as either a telecommunications or an 
information service, instead focusing on the handling of customer data 
as a trade practice.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
                            Cindy Southworth
    Background: In July 1999, Liam Youens obtained information from an 
Internet-based investigation service called Docusearch on Amy Boyer, a 
woman Youens had been stalking since high school. He was able to obtain 
her Social Security number for a mere $45 and hired someone to pretext 
Boyer to get her employment information. Then in October 1999, Youens 
drove to Boyer's workplace, shot and killed her, then turned the gun 
onto himself.
    Question 1.  The Amy Boyer case brought to light another aspect 
where pretexting can have a direct effect on one's privacy and safety. 
Do you believe the safety of domestic violence victims has decreased 
significantly with the increase in popularity of pretexting?
    Answer. We agree that the safety of victims has decreased with the 
increase in popularity of pretexting by both abusers and by information 
brokers who sell illegally obtained victim information to abusers.
    The murder of Amy Boyer not only highlighted the ease of 
pretexting, but also the use of pretexting by information brokers, who 
then sell the sensitive data they obtain. Unfortunately, perpetrators 
of domestic violence have tried to obtain information about their 
victims under false pretenses, or ``pretexted,'' for decades, but the 
growth of the information broker industry has provided an almost 
unlimited amount of sensitive data for anyone willing to pay.
    Internet use has reached new levels and stalkers are also using 
this technological tool to track down victims. Research by Pew Internet 
and American Life Project shows that 69 percent of adult women and 75 
percent of adult men use the Internet. \1\ Eighty-four percent of those 
adult Internet users have used an online search engine to help them 
find information on the Web. \2\ Information brokers abound on the 
Internet and many of these businesses engage in pretexting to illegally 
obtain sensitive information.
---------------------------------------------------------------------------
    \1\ Pew Internet and American Life Project, September 2005 Tracking 
Survey. Available online at: http://www.pewinternet.org/trends/
User_Demo_12.05.05.htm.
    \2\ Pew Internet and American Life Project, ``Usage Over Time'' 
spreadsheet. Available online at: http://www.pewinternet.org/trends/
UsageOverTime.xls.

    Question 2. Do you, and if so how, do you see pretexting affecting 
those choosing to leave an abusive situation?
    Answer. Abusers use pretexting to stalk their victims before, 
during, and after a victim leaves a violent relationship. They also use 
information brokers to gain private data about their victims. The most 
dangerous time for a victim of domestic violence is when she takes 
steps to leave the abusive relationship. \3\ Many victims are stalked 
relentlessly for years after having escaped from their partners. These 
batterers who stalk their former partners, determined to hunt them 
down, are the most dangerous and pose the highest lethality risk. \4\
---------------------------------------------------------------------------
    \3\ Ronet Bachman and Linda Salzman, Bureau of Justice Statistics, 
``Violence Against Women: Estimates From the Redesigned Survey'' 1 
(January 2000).
    \4\ Barbara J. Hart, ``Assessing Whether Batterers Will Kill''. 
Available online at: http://www.mincava.umn.edu/hart/lethali.htm; 
Jacqueline Campbell, ``Prediction of Homicide of and by Battered 
Women'' reprinted in Assessing Dangerousness: Violence by Sexual 
Offender, Batterers, and Sexual Abusers 96 (J. Campbell, ed., 1995).
---------------------------------------------------------------------------
    On February 23, 2005, Luis Alberto Gomez-Rodriguez tracked his ex-
girlfriend from Florida to Iowa with the aid of illegally obtained cell 
phone records and court records. He found her new home near Iowa City 
and murdered her. \5\ The news reports did not reveal whether he 
purchased the cell phone records from an information broker who used 
pretexting or whether he personally pretexted to obtain them.
---------------------------------------------------------------------------
    \5\ Byrd, Stephen. ``The hunt begins: Witnesses tell of suspect's 
methodical search for Muscatine couple.'' The Muscatine Journal, 
(Muscatine, Iowa) February 11, 2006. Available online at: http://
www.muscatinejournal.com/articles/2006/02/11 /news/
doc43ed60933bfef871578540.txt.
---------------------------------------------------------------------------
    In another example of pretexting and stalking, an Arizona man 
placed a global positioning system on his ex-girlfriend's car and 
obtained her phone records to see who she was calling. He also 
threatened to kill her before she discovered the tracking device and 
contacted the police. \6\
---------------------------------------------------------------------------
    \6\ Sakal, Mike and O'Brien, Charlie. ``Records detail Belle's 
threats.'' The East Valley Tribune (Mesa, Arizona) February 18, 2006. 
Available online at: http://www.eastvalleytribune.com/
index.php?sty=59420.
---------------------------------------------------------------------------
    By monitoring phone and other records before a victim attempts to 
leave an abuser, the perpetrator may be able to anticipate her plans to 
flee. Once a victim has fled and is trying to establish a new life, a 
stalker can learn of her new location by illegally obtaining her 
records by pretexting or purchasing her records from an information 
broker who has used this method.
    The National Network to End Domestic Violence has received calls 
from countless victims and their advocates who have either been found 
by abusers who misuse records or who are terrified that their 
perpetrators will locate them through pretexting.

                                  <all>

</pre></body></html>
